<html>
<title> - THE DEPARTMENT OF STATE'S OFFICE OF CHILDREN'S ISSUES</title>
<body><pre>[Senate Hearing 108-200]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-200
 
                   THE DEPARTMENT OF STATE'S OFFICE OF
                    CHILDREN'S ISSUES--RESPONDING TO
                    INTERNATIONAL PARENTAL ABDUCTION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 26, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations





 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate







                      U.S. GOVERNMENT PRINTING OFFICE

90-622                       WASHINGTON ; 2003
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Brownback, Hon. Sam, U.S. Senator from Kansas, prepared statement    24
Hagel, Hon. Chuck, U.S. Senator from Nebraska, prepared statement 
  submitted for the record.......................................    28
Harty, Hon. Maura, Assistant Secretary of State, Bureau of 
  Consular Affairs, Department of State, Washington, DC..........    15
    Prepared statement...........................................    19
    Responses to additional questions for the record from Senator 
      Lugar......................................................    36
    Responses to additional questions for the record from Senator 
      Brownback..................................................    42
    Responses to additional questions for the record from Senator 
      Voinovich..................................................    46
    Responses to additional questions for the record from Senator 
      Lincoln....................................................    47
Lincoln, Hon. Blanche L., U.S. Senator from Arkansas.............     3
    Prepared statement...........................................     8
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     2
McClain, Margaret, Jonesboro, AR, mother of abducted daughter, 
  prepared statement submitted for the record....................    10
0Sylvester, Thomas, Cincinnati, OH, father of abducted daughter, 
  prepared statement, including attachments, submitted for the 
  record.........................................................    29
Voinovich, Hon. George V., U.S. Senator from Ohio, prepared 
  statement submitted for the record.............................    29

                                 (iii)

  


                  THE DEPARTMENT OF STATE'S OFFICE OF



                    CHILDREN'S ISSUES--RESPONDING TO



                    INTERNATIONAL PARENTAL ABDUCTION

                              ----------                              


                        THURSDAY, JUNE 26, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:01 p.m. in room 
SD-106, Dirksen Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar and Brownback.
    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order. Today, the committee meets to 
examine international parental abduction and the response of 
the U.S. Government to this difficult and often tragic issue. I 
would like to extend a warm welcome to my colleague, Senator 
Blanche Lincoln, who has long followed this issue and worked to 
reunite American parents with their abducted children. I look 
forward, as I know all of you do, to Senator Lincoln's insights 
into this issue.
    Following her testimony, the committee will hear from 
Ambassador Maura Harty, Assistant Secretary of State for 
Consular Affairs. Assistant Secretary Harty has recently 
returned from a trip to the Middle East, where she focused on 
the issue of parental abductions. The Foreign Relations 
Committee will be especially interested to hear her report as 
part of our ongoing oversight of the important work done by the 
State Department.
    I have an extended statement of my own, and thoughts about 
the issue, but for the moment I will put that in the record, 
and I simply want to give some idea of the parameter of our 
hearing this afternoon, dictated by activities on the Senate 
floor. At approximately 2:40, as Senator Lincoln and I now 
know, there will be four critical votes that apparently will 
decide the fate of the Medicare prescription drugs bill. As a 
result, since the votes of the last three will be accelerated, 
the committee will not return after we leave for the first 
vote. I will extend that period, at least for myself, at least 
until 2:50 or thereabouts.
    Therefore, we will have Senator Lincoln's testimony, Ms. 
Harty's testimony, as many questions as can be encompassed in 
that period, and then we will ask Ms. Harty to respond to other 
detailed questions so that the record is as complete as 
possible. Staff, both, majority and minority, have worked 
diligently on this issue, and the backup materials given to 
Senators has been voluminous. It is worthy of that attention, 
and we want to complete the record and to do it right. 
Therefore, the cooperation of the State Department will be very 
much appreciated, even if all the questions are not a part of 
the hearing for reasons that I hope all will understand.
    [The prepared statement of Senator Lugar follows:]

             Opening Statement of Senator Richard G. Lugar

    Today, the committee meets to examine international parental 
abductions and the response of the United States government to this 
difficult and tragic issue. I would like to extend a warm welcome to 
Senator Blanche Lincoln, who has long followed this issue and worked to 
re-unite American parents with their abducted children. I look forward 
to hearing Senator Lincoln's insights into this issue.
    Following Senator Lincoln's testimony, the committee will hear from 
Ambassador Maura Harty, Assistant Secretary of State for Consular 
Affairs. Assistant Secretary Harty has recently returned from a trip to 
the Middle East, where she focused on the issue of parental abductions. 
The Foreign Relations Committee will be very interested to hear her 
report as part of our ongoing oversight of the important work done by 
the State Department.
    All to often we hear of a divorced or separated spouse who has 
either abducted children back to his or her country of origin, or 
simply refused to allow them to return to the United States following 
overseas visitation travel. As a parent and a grandparent, I can only 
begin to imagine the pain and suffering of these parents as they try to 
regain custody of their children. It is vital that the United States 
government work with parents and other interested parties to prevent 
international parental abductions and respond effectively to those that 
occur.
    The international treaty that governs such abductions--the Hague 
Convention on Civil Aspects of International Child Abduction--was 
ratified by the United States in 1988. The Convention calls for the 
immediate return of children to the country of habitual residence prior 
to the abduction.
    To date, some fifty countries have ratified the Convention, though 
ratification alone has not guaranteed that parental abduction will not 
occur. For example, Mexico, Australia, Canada, and Germany--all U.S. 
allies--have ratified the Hague Convention. Yet they rank first, fifth, 
sixth, and fifteenth on the State Department's list of countries with 
active parental abduction cases.
    Even as we examine the behavior of signatories to the Convention, 
we must recognize that many of the most notorious cases of 
international parental abduction involve citizens of countries that are 
not parties to it. The Middle East has been a particularly troubling 
region for parental abduction. Among nations of that region, only 
Israel is a Convention signatory.
    In Indiana, we have the cases of Mari Huscio from Indianapolis 
whose son Adam, was taken in May 2000 by his father to Syria. Mari has 
not seen her son since. Joanna Tonetti, from Terre Haute, is seeking 
the return of her three children--Rosemary, Sarah, and Abdul-Aziz--
since their father abducted them to Saudi Arabia in August 2000. I 
understand that Assistant Secretary Harty met with Ms. Tonetti's 
children during her recent visit to Saudi Arabia. Just last month, 
Madison Sanchez, the daughter of Linda Price from Princeton, Indiana, 
was abducted by her father and taken to Vera Cruz, Mexico. I would 
welcome updates on these cases.
    Over the years, Congress has attempted to provide greater legal 
tools for parents whose children have been abducted. In 1993 we passed 
the International Parental Kidnapping Crime Act, which makes it a 
felony to remove a child under the age of 16 from the United States--or 
attempt to retain a child outside the United States--with the intent to 
obstruct the lawful exercise of parental rights. In 1999 we passed 
legislation requiring the signatures of both parents to obtain a 
passport for a child, unless the applicant can demonstrate that they 
have sole custody of the child. Additionally, existing procedures allow 
concerned parents to request that their children's names be entered 
into the State Department's passport name check system so they can be 
notified if someone attempts to obtain a passport for them. In this 
year's State Department Authorization bill we have greatly expanded the 
list of the overseas family members of the abducting parent who will 
remain ineligible for a U.S. visa until the child in question is 
surrendered to the parent with proper custody.
    These measures represent good progress on the legislative front, 
but none of them can prevent a dual national from obtaining a foreign 
passport for the child and using it as an official travel document. 
While there is anecdotal evidence of some parents alerting the relevant 
embassy and providing proof of custody documents in time to prevent 
passport issuance, such cases are rare.
    In addition to examining how we can prevent abductions, we also 
have an interest today in reviewing the activities of the State 
Department in responding to cases of abduction. In 1994, with major 
involvement on the part of Assistant Secretary Harty--then in her 
capacity as Director of the Office of Overseas Citizens Services, the 
State Department created the Office of Children's Issues, which has 
served as the focal point for U.S. efforts to address international 
parental abductions.
    Inter-agency information sharing remains a concern, but I commend 
Secretary Powell for dedicating significant resources to this office as 
it tracks more than 1,000 cases. We are anxious to hear how the office 
is coordinating its databases with those of the FBI and the National 
Center for Missing and Exploited Children.
    I also would note that the GAO and others have called for the State 
Department to engage in more aggressive diplomatic efforts to bring 
these children home. I would like to hear how the State Department 
views the role of overseas Consular Officers in preventing and 
responding to international parental abductions.
    It is my hope that Congress and the State Department will work 
together closely to assist American families in returning abducted 
children to their homes. This hearing is an important step in 
strengthening this cooperative effort.
    Now I would like to recognize Senator Lincoln.

    The Chairman. It's a real pleasure to have you before us, 
Senator Lincoln, if you would please proceed with your 
testimony.

    STATEMENT OF HON. BLANCHE L. LINCOLN, U.S. SENATOR FROM 
                            ARKANSAS

    Senator Lincoln. Well, Mr. Chairman, thank you very much to 
you and to your staff. I do appreciate your willingness to 
allow me to appear before your committee this afternoon to 
discuss an issue that is of particular importance to me, and I 
think for many other Americans, but again, the willingness of 
you and your staff to work with us has been tremendous, and I 
do very much appreciate that.
    As you know, over the last year, I and my staff have 
devoted a considerable amount of time and energy to the issue 
of international parental kidnaping. My goal has been to change 
government policy in the United States and Saudi Arabia so that 
U.S. citizens who are held against their will in Saudi Arabia 
are able to return to their rightful home here in the United 
States.
    I recognize that the issue of international child abduction 
is not limited to Saudi Arabia. However, the status of female 
abductees in the Kingdom is unique, since under Saudi law and 
custom, women have very limited autonomy and may never have an 
opportunity to leave, even as adults.
    Primarily, my interest in this issue stems from my 
constituent, Heidi Al-Omary, who was abducted to Saudi Arabia 
in 1997. Heidi was abducted in Arkansas at the age of 5 by her 
noncustodial Saudi-born father, Abdulbaset Al-Omary, and taken 
to Saudi Arabia in 1997, where she has resided ever since.
    At the time of her abduction, Heidi's mother, Margaret 
McClain, had primary custody of Heidi. Therefore, Mr. Al-
Omary's actions were in violation of U.S. law and a valid 
custody order issued by a court in the United States. Heidi's 
mother resides in Jonesboro, Arkansas, and in July 2002 Ms. 
McClain was permitted to travel to Saudi Arabia to visit with 
her daughter, who will turn 11 next month.
    Mr. Chairman, before I continue, I just have to say, my 
first contact with my constituent, Ms. McClain, was something 
that when I left work, which is where you and I come to every 
day in the U.S. Senate, and I went home to reflect on my own 
circumstances, to put myself in my constituent's shoes and to 
think, if I were to lose a child instantly, like that, and to 
have felt so helpless as to having no recourse and way to 
recapture that child, to bring them back, and then to spend 5 
years without them, it immediately dug into my heart, and I 
immediately felt compelled to have to do what I could from my 
position in the U.S. Senate.
    Now, Ms. McClain spent 6 days traveling to and from Saudi 
Arabia back in July 2002, yet Mr. Al-Omary permitted her to 
spend only 3 hours with her daughter, Heidi. This was after 
having not seen her child, after an instant abduction, for 
almost--well, over 5 years. Prior to that visit, Ms. McClain 
had not seen or spoken to Heidi since she had been taken from 
the United States, well over 5 years before.
    During Ms. McClain's trip to Saudi Arabia last July, Mr. 
Al-Omary acted in a verbally abusive manner toward her and took 
steps to disrupt Ms. McClain's planned visit with her daughter. 
In addition, officials at U.S. diplomatic installations in 
Saudi Arabia report that Mr. Al-Omary had been uncooperative in 
arranging U.S. consular visits with Heidi.
    At one point following Ms. McClain's visit to Saudi Arabia 
last July, Mr. Al-Omary demanded that the U.S. Government send 
him a letter of appreciation for allowing Ms. McClain to visit 
the daughter he had kidnaped before he would authorize future 
U.S. State Department personnel visits with Heidi. Thankfully, 
Mr. Chairman, our government did not send Mr. Al-Omary a thank-
you note, and a subsequent welfare and whereabout visit did 
occur after pressure was applied by U.S. and Saudi officials.
    This year, after months of preparation by Ms. McClain, my 
office, the State Department, with great help from Ms. Harty's 
office and the Saudi Government, Ms. McClain and Heidi's two 
adult siblings were permitted to travel to Saudi Arabia to see 
Heidi in May of this year. Ms. McClain reports that she was 
permitted greater access to Heidi compared to her first visit. 
However, Mr. Al-Omary refused to grant Ms. McClain's simple 
request to spend time alone with her daughter. Despite being 
watched over virtually every moment, Heidi did make it clear to 
her mother that she would like to come home and live in the 
United States.
    Mr. Chairman, I know I speak for Ms. McClain when I express 
my deep frustration and dismay that Mr. Al-Omary, Heidi's 
abductor and a wanted fugitive, still decides when, where, and 
if Heidi can communicate with her mother, who was granted legal 
custody of her daughter in a U.S. court.
    Further, like Ms. McClain, I question why our government's 
policy is to negotiate in these cases with a wanted criminal. 
We don't negotiate with terrorists, so why does a high-ranking 
government official like Secretary Harty find herself in a 
position where our official policy is to meet with a child 
abductor to attempt to negotiate minimal visitation rights for 
a left-behind parent who was granted legal custody by a United 
States court?
    Even after these meetings with Mr. Al-Omary, Ms. McClain 
was informed, upon her arrival to Saudi Arabia, that Mr. Al-
Omary had not yet agreed to allow her to see Heidi. Ms. 
McClain, understandably, was appalled that she would have to 
suffer the indignity of meeting with Mr. Al-Omary to ask his 
permission to see the daughter that he abducted.
    As it stands now, Mr. Chairman, our government, which has 
demonstrated an impressive ability to protect its interests 
around the globe in recent years, apparently must bend to the 
will of a child abductor who is wanted on kidnaping charges 
even when the only issue under consideration involves minimal 
visitation rights for a left-behind parent.
    For too long, it seems the U.S. Government's goal in these 
cases has been to maximize visitation and contact between U.S. 
parents and their abducted children in an effort to avoid 
confrontation with foreign governments. It is safe to say, Mr. 
Chairman, that neither I nor Ms. McClain are satisfied with 
that approach. I firmly believe that our policy should be to 
aggressively seek to recover abducted children, especially when 
they are taken to a country in which women, regardless of their 
age, never achieve independence, a right that we, as Americans, 
cherish.
    As I mentioned earlier, in Saudi Arabia women and girls are 
under the complete control of their father, husband, or other 
close male relative their entire lives. In this society, women 
can't drive, they cannot ride public transportation alone, or 
otherwise travel independently without the permission of a male 
guardian. Also in public, women must cover themselves with a 
garment from head to toe to avoid seducing Saudi men. Further, 
according to an Arab news report I read recently, Saudi women 
can't even check themselves into the hospital for medical care 
unless accompanied by a male relative.
    Perhaps, Mr. Chairman, most troubling to me is that 
arranged marriages at an early age are socially acceptable in 
Saudi Arabia. As Heidi approaches the acceptable age of 
marriage in Saudi Arabia, which can occur as young as 12 years 
of age for girls, I am increasingly concerned that she will be 
deprived of any meaningful choice about whom she marries or 
when she bears a child.
    Ultimately, Heidi's ability or inability to exercise 
control over these most personal of matters may very well 
determine if she is ever able to return to her rightful home in 
the United States. Two recent cases illustrate my point. Within 
the last month, two American women with children living in 
Saudi Arabia sought refuge and assistance from our government 
at U.S. diplomatic installations in Saudi Arabia. Even though 
they were not turned away, as was Monica Stowers and her 
children more than 10 years ago, both women ultimately faced 
the impossible choice of leaving the Kingdom alone or staying 
in a potentially unsafe environment with their children.
    One of the women, Sara Saga, from California, has been 
trapped in Saudi Arabia since age 6, when her Saudi father 
defied a U.S. custody agreement by refusing to return her to 
the United States after a 1985 visit to Saudi Arabia. On 
Tuesday of this week, Sara left Saudi Arabia without her two 
children. I cannot fathom being put in that position, to have 
to make that decision. She returned to her home in California 
for the first time in almost 20 years.
    The other female U.S. citizen, after spending several days 
in a small room in the U.S. Consulate with her three children, 
ultimately decided to stay in the Kingdom and return to her 
husband.
    The question, Mr. Chairman, these cases raise in my mind 
is, what is going on over there? What would cause two U.S. 
citizens to risk their lives and to seek refuge at a U.S. 
diplomatic installation in the Kingdom during the same month? 
How many other female U.S. citizens are in Saudi Arabia and 
want to leave?
    Further, the lesson I take from these cases is the 
importance of seeking a resolution aggressively, before 
complicating factors make them difficult or impossible to 
resolve. For Heidi, it isn't too late, although I fear time may 
be running short.
    Mr. Chairman, I applaud the incredible expertise that you 
have in international relations. The leadership you have 
provided this Nation and the U.S. Senate, the diplomacy that 
you have exemplified in the many, many decisions and the many, 
many initiatives that you have led in the time that you have 
been in the U.S. Senate.
    I know I am not a seasoned diplomat. Also, I recognize that 
cases like Heidi's are difficult to resolve, given the time 
that has passed since she was abducted. But I do believe 
strongly that there has to be a better approach than offering 
U.S. citizens refuge and spending considerable resources simply 
to gain visitation and access to abducted children without any 
promise or expectation of return.
    After studying the history of Heidi's case and others, I 
have sadly concluded that our own government has failed to 
stand up for Heidi and others like her. Perhaps most telling in 
Heidi's case is that, even though Heidi is a U.S. citizen and 
was kidnaped in August 1997, our government did not formally 
ask that she be returned until October 2002.
    I know Ms. McClain is haunted by the fear that her daughter 
may never return to the United States. Unfortunately, given the 
similarities between Heidi's case and previous abduction cases 
in which children who are now adults have never returned from 
Saudi Arabia, I can't say that her fears are unfounded.
    We must not let the Saudi Government believe that they can 
run out the clock on these cases by helping arrange visits and 
expressing concern when parents and government officials come 
calling. If we don't continue to press this issue at every 
opportunity, I fear Heidi and others like her may be lost 
forever.
    Even though I have been critical of Saudi Arabia in my 
remarks today, and strongly object to the Saudi policy 
regarding the abduction and wrongful detention of U.S. 
citizens, I do not advocate severing our relationship. Saudi 
Arabia and the United States are and have been partners on many 
issues that are important to both countries and the 
international community.
    However, regardless of how one characterizes our 
relationship, Saudi Arabia's response to Heidi's case and 
others will have ramifications beyond this issue. A 
relationship can only be built on mutual trust and respect. If 
these cases continue to drag on with no resolution in sight, 
other aspects of our relationship will necessarily be affected.
    Given the recent terrorist bombings in Riyadh that killed 
several Americans, and evidence of possible links between Saudi 
officials and known terrorists, we face many challenges in 
maintaining a good, productive relationship now and in the 
future. Clearly, as State Department travel warnings indicate, 
American citizens are at risk in Saudi Arabia, but while 
nonessential U.S. diplomatic personnel are encouraged and able 
to leave the Kingdom, not all U.S. citizens are so fortunate.
    I do think that is outrageous, Mr. Chairman. I stand ready 
and willing to do my part in Congress to improve our ability to 
successfully recover abducted children from Saudi Arabia and 
elsewhere. On that front, Mr. Chairman, I'm grateful you 
included an amended version of legislation that I introduced 
last year in the State Department reauthorization bill to 
strengthen the ability of our government to resolve abduction 
cases, and I applaud you for that effort. This provision 
expands the category of persons the Secretary of State may 
designate as ineligible to receive visas to enter the United 
States.
    In closing, Mr. Chairman, I also want to thank Secretary 
Harty for her appearance before this committee this afternoon, 
and her hard work. In the past year, she has really devoted a 
great deal of time to working with my office, and I am 
enormously appreciative not only for her willingness to work 
with my office, but her tenacity in really working hard on 
these cases and trying desperately to understand how it is we 
can resolve them.
    I look forward to her testimony, and I hope that she can 
assure Ms. McClain, me, and the members of this committee that 
she believes child abduction and wrongful retention cases in 
Saudi Arabia can be resolved, and that American citizens like 
my constituent can return to their rightful home in the United 
States.
    I also welcome any suggestions Secretary Harty may have 
about what we in Congress can do to help the State Department 
and other agencies resolve these cases.
    I know the Office of Children's Issues has improved 
services to abducted children and left-behind parents in recent 
years, much of that under Ms. Harty's direction. However, I'm 
not convinced that Heidi is any closer to returning to the 
United States than she was when she was abducted 6 years ago, 
or when Secretary Harty took office 6 months ago.
    In her testimony, I hope Secretary Harty can reassure left-
behind parents that cases like Heidi's are viewed by our 
government as criminal offenses, not custody disputes, and are 
considered a top priority at the highest levels. Ultimately, I 
hope Secretary Harty can convince my constituents and others 
listening to her testimony that the U.S. Government is ready 
and able to stand up for the rights of all of its citizens at 
home and abroad, especially innocent United States citizens, 
children, who are victims of a crime.
    Mr. Chairman, I thank you for allowing me to appear before 
your committee this afternoon. I thank you for letting me 
express personally my concerns as a mother and certainly as a 
United States Senator representing a constituent who has 
suffered for 6 years the loss of a child who, she didn't need 
to suffer that loss, and I really welcome the opportunity to 
work with you and other members of the committee on this issue, 
now and in the future. I thank you for the committee's 
attention, Mr. Chairman.
    I'd also like to ask unanimous consent, if I may, of the 
committee to include in the committee's record the written 
statement of Margaret McClain, who does happen to be my 
constituent from Arkansas.
    The Chairman. It will be included in full.
    [The prepared statement of Senator Lincoln follows:]

  Prepared Statement of Senator Blanche L. Lincoln, U.S. Senator from 
                                Arkansas

    Mr. Chairman, I appreciate your willingness to allow me to appear 
before your committee this afternoon to discuss an issue that is of 
particular importance to me.
    As you know, over the last year, I--and my staff--have devoted a 
considerable amount of time and energy to the issue of International 
Parental Kidnaping.
    My goal has been to change government policy in the United States 
and Saudi Arabia so that U.S. citizens who are held against their will 
in Saudi Arabia are able to return to their rightful home in the United 
States.
    I recognize that the issue of international child abduction is not 
limited to Saudi Arabia.
    However, the status of female abductees in the Kingdom is unique 
since under Saudi law and custom women have very limited autonomy and 
may never have an opportunity to leave--even as adults.
    Primarily, my interest in this issue stems from my constituent, 
Heidi Al-Omary, who was abducted to Saudi Arabia in 1997.
    Heidi was abducted in Arkansas at the age of five by her 
noncustodial, Saudi-born father, Abdulbaset Al-Omary, and taken to 
Saudi Arabia in 1997 where she has resided ever since.
    At the time of the abduction, Heidi's mother, Margaret McClain, had 
primary custody of Heidi.
    Therefore, Mr. Al-Omary's actions were in violation of U.S. law and 
a valid custody order issued by a court in the United States.
    Heidi's mother resides in Jonesboro, Arkansas. In July 2002, Ms. 
McClain was permitted to travel to Saudi Arabia to visit with her 
daughter, who will turn 11 next month.
    Ms. McClain spent six days traveling to and from Saudi Arabia, yet 
Mr. Al-Omary permitted her to spend only three hours with Heidi.
    Prior to that visit, Ms. McClain had not seen or spoken to Heidi 
since she was taken from the United States--five years before.
    During Ms. McClain's trip to Saudi Arabia last July, Mr. Al-Omary 
acted in a verbally abusive manner toward her and took steps to disrupt 
Ms. McClain's planned visit with her daughter.
    In addition, officials at U.S. diplomatic installations in Saudi 
Arabia report that Mr. Al-Omary has been uncooperative in arranging 
U.S. consular visits with Heidi.
    At one point following Ms. McClain's visit to Saudi Arabia last 
July, Mr. Al-Omary demanded that the U.S. government send him a letter 
of appreciation for allowing Ms. McClain to visit the daughter he 
kidnaped before he would authorize future U.S. State Department 
personnel visits with Heidi.
    Thankfully, our government did not send Mr. Al-Omary a thank-you 
note and a subsequent welfare and whereabout visit did occur after 
pressure was applied by U.S. and Saudi officials.
    This year, after months of preparation by Ms. McClain, my office, 
the State Department, and the Saudi government, Ms. McClain and Heidi's 
two adult siblings were permitted to travel to Saudi Arabia to see 
Heidi in May of this year.
    Ms. McClain reports that she was permitted greater access to Heidi 
compared to her first visit. However, Mr. Al-Omary refused to grant Ms. 
McClain's simple request to spend time alone with her daughter.
    Despite being watched over virtually every moment, Heidi did make 
it clear to her mother that she would like to come home and live in the 
United States.
    I know I speak for Ms. McClain when I express my deep frustration 
and dismay that Mr. Al-Omary--Heidi's abductor and a wanted fugitive--
still decides when, where and if Heidi can communicate with her mother, 
who was granted legal custody of her daughter in a U.S. court.
    Further, like Ms. McClain, I question why our government's policy 
is to negotiate in these cases with a wanted criminal. We don't 
negotiate with terrorists. So why does a high ranking government 
official like Secretary Harty find herself in a position where our 
official policy is to meet with a child abductor to attempt to 
negotiate minimal visitation rights for a left-behind parent who was 
granted legal custody by a U.S. court?
    Even after these meetings with Mr. Al-Omary, Ms. McClain was 
informed upon her arrival to Saudi Arabia that Mr. Al-Omary had not yet 
agreed to allow her to see Heidi. Ms. McClain, understandably, was 
appalled that she would have to suffer the indignity of meeting with 
Mr. Al-Omary to ask his permission to see the daughter he abducted.
    As it stands now, our government--which has demonstrated an 
impressive ability to protect its interests around the globe in recent 
years--apparently must bend to the will of a child abductor who is 
wanted on kidnaping charges, even when the only issue under 
consideration involves minimal visitation rights for a left-behind 
parent.
    For too long, it seems the U.S. government's goal in these cases 
has been to maximize visitation and contact between U.S. parents and 
their abducted children in an effort to avoid confrontation with 
foreign governments.
    It is safe to say that neither I nor Ms. McClain are satisfied with 
that approach.
    I firmly believe that our policy should be to aggressively seek to 
recover abducted children, especially when they are taken to a country 
in which women, regardless of their age, never achieve independence, a 
right we cherish as Americans.
    As I mentioned earlier, in Saudi Arabia, women and girls are under 
the complete control of their father, husband or other close male 
relative their entire lives.
    In this society, women can't drive, ride public transportation 
alone, or otherwise travel independently without the permission of a 
male guardian.
    Also, in public women must cover themselves with a garment from 
head to toe to avoid seducing Saudi men.
    Further, according to an Arab news report I read recently, Saudi 
women can't even check themselves into the hospital for medical care 
unless accompanied by a male relative.
    Perhaps most troubling to me is that arranged marriages at an early 
age are socially acceptable in Saudi Arabia.
    As Heidi approaches the acceptable age of marriage in Saudi Arabia, 
which can occur as young as 12 for girls, I am increasingly concerned 
that she will be deprived of any meaningful choice about whom she 
marries or when she bears a child.
    Ultimately, Heidi's ability or inability to exercise control over 
these most personal matters may very well determine if she is ever able 
to return to her rightful home in the United States.
    Two recent cases illustrate my point. Within the last month, 2 
American women with children living in Saudi Arabia sought refuge and 
assistance from our government at U.S. diplomatic installations in 
Saudi Arabia.
    Even though they were not turned away, as was Monica Stowers and 
her children more than 10 years ago, both women ultimately faced the 
impossible choice of leaving the Kingdom alone or staying in a 
potentially unsafe environment with their children.
    One of the women, Sara Saga, from California has been trapped in 
Saudi Arabia since age six, when her Saudi father defied a U.S. custody 
agreement by refusing to return her to the United States after a 1985 
visit to Saudi Arabia.
    On Tuesday of this week, Sara left Saudi Arabia without her two 
children and returned to her home in California for the first time in 
almost 20 years.
    The other female U.S. citizen, after spending several days in a 
small room in the consulate with her three children, ultimately decided 
to stay in the Kingdom and return to her husband.
    The question these cases raise in my mind is what is going on over 
there? What would cause two U.S. citizens to risk their lives and seek 
refuge at a U.S. diplomatic installation in the Kingdom during the same 
month? How many other female U.S. citizens are in Saudi Arabia and want 
to leave?
    Further, the lesson I take from these cases is the importance of 
seeking a resolution aggressively before complicating factors make them 
difficult or impossible to resolve.
    For Heidi, it isn't too late. Although, I fear time may be running 
short.
    I know I am not a seasoned diplomat. Also, I recognize that cases 
like Heidi's are difficult to resolve given the time that has passed 
since she was abducted.
    But I do believe strongly that there has to be a better approach 
than offering U.S. citizens refuge and spending considerable resources 
simply to gain visitation and access to abducted children without any 
promise or expectation of return.
    After studying the history of Heidi's case and others, I have sadly 
concluded that our own government has failed to stand up for Heidi and 
others like her.
    Perhaps most telling in Heidi's case is that even though Heidi is a 
U.S. citizen and was kidnaped in August, 1997, our government did not 
formally ask that she be returned until October . . . 2002!
    I know Ms. McClain is haunted by the fear that her daughter may 
never return to the United States.
    Unfortunately, given the similarities between Heidi's case and 
previous abduction cases in which children--who are now adults--have 
never returned from Saudi Arabia, I can't say her fears are unfounded.
    We must not let the Saudi government believe they can run out the 
clock on these cases by helping arrange visits and expressing concern 
when parents and government officials come calling.
    If we don't continue to press this issue at every opportunity, I 
fear Heidi and others like her may be lost forever.
    Even though I have been critical of Saudi Arabia in my remarks 
today and strongly object to Saudi policy regarding the abduction and 
wrongful detention of U.S. citizens, I do not advocate severing our 
relationship.
    Saudi Arabia and the United States are and have been partners on 
many issues that are important to both countries and the international 
community.
    However, regardless of how one characterizes our relationship, 
Saudi Arabia's response to Heidi's case and others will have 
ramifications beyond this issue.
    If these cases continue to drag on with no resolution in sight, 
other aspects of our relationship will necessarily be affected.
    Given the recent terrorist bombings in Riyadh that killed several 
Americans, and evidence of possible links between Saudi officials and 
known-terrorists, we face many challenges in maintaining a productive 
relationship now and in the future.
    Clearly, as State Department travel warnings indicate, American 
citizens are at risk in Saudi Arabia.
    But while non-essential U.S. diplomatic personnel are encouraged 
and able to leave the Kingdom, not all U.S. citizens are so fortunate.
    I think that is outrageous!
    I stand ready and willing to do my part in Congress to improve our 
ability to successfully recover abducted children from Saudi Arabia and 
elsewhere.
    On that front, Mr. Chairman, I am grateful you included an amended 
version of legislation I introduced last year in the State Department 
reauthorization bill to strengthen the ability of our government to 
resolve abduction cases.
    This provision expands the category of persons the Secretary of 
State may designate as ineligible to receive visas to enter the United 
States.
    In closing, Mr. Chairman, I want to thank Secretary Harty for her 
appearance before the committee this afternoon.
    I look forward to her testimony. I hope she can assure Ms. McClain, 
me and the members of this committee that she believes child abduction 
and wrongful retention cases in Saudi Arabia can be resolved and that 
American citizens like my constituent can return to their rightful home 
in the United States.
    I also welcome any suggestions Secretary Harty may have about what 
we in Congress can do to help the State Department and other agencies 
resolve these cases.
    I know the Office of Children's Issues has improved services to 
abducted children and left-behind parents in recent years.
    However, I am not convinced that Heidi is any closer to returning 
to the United States than she was when she was abducted six years ago 
or when Secretary Harty took office six months ago.
    In her testimony, I hope Secretary Harty can reassure left-behind 
parents that cases like Heidi's are viewed by our government as 
criminal offenses--not custody disputes--and are considered a top 
priority at the highest levels.
    Ultimately, I hope Secretary Harty can convince my constituents and 
others listening to her testimony that the United States government is 
ready and able to stand up for the rights of all of its citizens at 
home and abroad, especially innocent children who are victims of a 
crime.
    Mr. Chairman, thank you for allowing me to appear before your 
committee this afternoon. I would welcome the opportunity to work with 
you and other members of the committee on this issue now and in the 
future.

    [The prepared statement of Ms. McClain follows:]

   Prepared Statement of Margaret McClain, Jonesboro, AR, Submitted 
        Through Hon. Blanche Lincoln, U.S. Senator from Arkansas

    In 1997, my daughter, Machael Heidi Al-Omary, a U.S. citizen and 
native of Jonesboro, Arkansas, was kidnapped by her non-custodial 
father, Abdulbaset Ahmed Mohammed Al-Omary, to Saudi Arabia. The 
kidnapper was assisted by employees and officials of Saudi Arabian 
Airlines, a high official of the Saudi National Guard, his two brothers 
who are Swedish citizens, and his wife who is an American citizen. In 
2002, I submitted evidence to Congressman Burton's Committee on 
Government Reform to indicate that Ambassador Bandar bin Sultan and the 
Saudi Embassy in Washington were complicit in my child's abduction.
    Until the events of 9-11-2001, in which the government of Saudi 
Arabia, including its Washington diplomats, has been implicated, the 
State Department took little interest in holding the Saudis to account 
for any of their violations of U.S. law and their hostage-taking of 
American citizens like my daughter. As a prelude to the Burton 
hearings, at which I testified three times, the State Department 
suddenly began scrambling to do damage control. As a result, I was able 
to have a short, but very disturbing visit with my daughter in July 
2002. Heidi appeared to have serious mental problems for which she was 
not receiving any help. Even during that visit to Saudi Arabia, the 
kidnapper temporarily absconded with my daughter in an attempt to 
sabotage my visit. Even the State Department will confirm that Mr. Al-
Omary has displayed his violent tendencies at times.
    In 2002, I was informed by Heidi's caseworker at the State 
Department's Office of Children's Issues, Beth Payne, that Secretary of 
State Colin Powell had officially asked for the return of Heidi to the 
United States. Despite a request for confirmation, I have as yet 
received no proof that such a request was ever made of the Saudis. I 
received no report of any telephone conversation between Colin Powell 
and his Saudi counterpart, nor a copy of any letter written by 
Secretary Powell regarding my daughter. I have asked for details about 
the Saudis' response to Secretary Powell's request, but have received 
no response.
    In May of 2003, I received permission to visit Heidi again, along 
with my other two children, thanks to negotiations among the State 
Department, their Consulate in Dhahran, and Saudi officials. Our 2003 
visit went much better than the 2002 visit. Regardless of the relative 
``success'' of this visit, it is unconscionable on the part of the 
State Department that it took them six years to achieve this 
``success.'' I will not call the State Department's performance a 
success until my American-born daughter is back home in the United 
States. The State Department must tell the Saudis that serious 
reprisals will occur unless American children are repatriated. Every 
official in the State Department has sworn to uphold the Constitution 
of the United States; instead, these officials violate their oaths as 
long as they allow the Saudis to trample on my child's Constitutional 
rights.
    The week before my 2003 visit, Maura Harty of the Office of 
Children's Issues was supposed to enter negotiations with the Saudis 
regarding three American hostages, including my daughter. I had my 
doubts to begin with, since I knew that the Saudis would not negotiate 
with a woman on any issue, according to their own laws against women 
holding public office. The State Department is well aware of this Saudi 
policy, and it is my opinion that the State Department purposely sent a 
woman to negotiate with the Saudis, knowing that any such negotiations 
would be totally ineffectual. Only a few days before my scheduled 
departure, the State Department called to inform me that Maura Harty 
had had a ``lengthy'' meeting with my ex-husband, the kidnapper. I was 
incensed and disgusted that a top official of our government would 
stoop to negotiate with a criminal! As far as I have been able to 
determine, Ms. Harty never met with any Saudi officials regarding my 
daughter's virtual imprisonment. If she did, I have never received any 
report of such a meeting or its outcome. I would not be at all 
surprised to learn that the male Saudi officials had refused to meet 
with an American female official.
    My family and I are not in a financial position to make frequent 
trips to Saudi Arabia, and I have been refused financial assistance by 
the National Center on Missing and Exploited Children, as well as the 
Department of Justice's Office of Victim Assistance. Only a few weeks 
before our proposed trip, Beth Payne at the State Department advised me 
by email that Mr. Adel Al-Jubeir, the Saudi Embassy's PR guru, had 
offered to foot the bill for the entire trip. I was not told whether 
Al-Jubeir had approached the State Department first or whether they had 
advised him that he could buy some valuable PR by offering his 
largesse. My legal representatives advised me against accepting any 
money from Al-Jubeir, unless there was no other way that I could see my 
daughter. Every fiber of my being rebelled at accepting any dirty money 
from the Saudis. I was only too conscious of how Al-Jubeir, in his 
infamous post-9-11 press conference, had denied that there were any 
American citizens being held against their will in Saudi Arabia. I was 
only too aware that he had lied on national television to Mike Wallace 
when he denied that he had any knowledge of the plight of Monica 
Stowers and her two children; I was angry because Monica's mother Ethel 
is a personal friend of mine. Al-Jubeir's lies were played on the giant 
screen at Congressman Burton's hearings.
    I had already accepted Al-Jubeir's offer when, at the eleventh 
hour, a kind offer for financial assistance came from a private donor. 
This offer came to me out of the blue on Good Friday, and I will always 
call it my Easter Miracle.
    Before Maura Harty's trip to Saudi Arabia, I was assured that part 
of her mission would be to make all the arrangements for my visit with 
Heidi. I was left with the impression that Ms. Harty was there to 
ensure that this year's visit would not be a repeat of the 2002 visit. 
I was under the impression that she would be establishing the ground 
rules for my family's visit with Heidi, including locations and times. 
Such was not to be the case, as I discovered on my first day in Saudi 
Arabia.
    Upon our arrival, we were informed that we had to meet with 
officials of the Emir's (governor's) office the following morning to 
discuss our visit. I was dismayed that I could not see my daughter 
immediately, after having traveled thousands of miles. I told the U.S. 
officials from Dhahran and Riyadh of my displeasure that they had not 
arranged everything beforehand as promised. I asked them why they and 
Maura Harty were wasting my time by bringing me here for a repeat of 
last year's performance. On the following day, when my family and I 
showed up for the meeting with Saudi officials, we were ushered into a 
courtroom, complete with video equipment and a videographer who was 
setting up his equipment to tape the entire proceedings! I turned to 
Margaret Scobey from the U.S. Embassy in Riyadh and adamantly stated 
that I had come to see my daughter, not to participate in any show 
trial, Kangaroo Court, or Arab Inquisition. I told the Saudi officials 
that if I'd wanted to be filmed, I would have given an interview to Al-
Jazeera TV! Apparently, the cameras were the kidnapper's idea, for he 
argued at length that if anyone committed perjury, there would be a 
record of it. I could only imagine that he wanted a copy of the video 
to be played in private for his and his family's amusement. After a 
half hour of discussion, Margaret Scobey convinced the Saudis to remove 
the equipment.
    Upon discovering that this ``hearing'' was going to be an attack on 
me personally, I resolved that I would not say a word. It was 
ridiculous that a mother should have to appear and defend her reasons 
for wanting to see her own child. It was ridiculous that the rantings 
of a criminal be given any credence by my own government. I told the 
Saudis and U.S. officials that I was authorizing the U.S. officials to 
speak on my behalf and present my demands, which were to see Heidi a 
minimum of 6 hours a day and to have unsupervised visitation. Margaret 
Scobey informed me that she doubted I would receive unsupervised 
visitation and, in fact, she did not even pursue this demand. Al-Omary, 
the kidnapper, was allowed to filibuster and rehash all his reasons for 
terminating our visit immediately. He became verbally abusive and 
displayed paranoid behavior. At the conclusion of the meeting, I was 
still not sure if I could see Heidi or not. It was already our second 
day in Riyadh, and we still had not seen our loved one. I was convinced 
that the Saudis would keep stalling for the rest of the week.
    However, later that day, at our hotel, we received a call 
instructing us to get ready for our first visit with Heidi. During that 
visit, Al-Omary got into a verbal altercation with one of the U.S. 
officials from the Embassy in Riyadh; the sad part about this was that 
the altercation occurred in front of Heidi and her young cousins. 
However, the girls seemed to take Al-Omary's rage in stride. The 
American official, to his credit, threatened to report Al-Omary to the 
Foreign Minister if he did not allow our visit with Heidi to go 
forward. On the following days, Al-Omary ``ditched'' the U.S. officials 
as he gave us the grand tour of Dhahran, Al-Khobar, and Dammam. He 
seemed to relax somewhat away from official eyes.
    On the last day of our visit, which was the first day of Secretary 
Powell's scheduled tour of Saudi Arabia, a terrorist bombing occurred 
in Riyadh. I had been informed previously that Mr. Powell intended to 
bring up Heidi's case again, but I figured he would forget about Heidi 
in the confusion surrounding the bombing. In a recent email from 
Russell Brown, Heidi's temporary caseworker at the Office of Children's 
Issues, I was informed that Secretary Powell did discuss Heidi's case. 
Again, I have not been informed of the outcome of any discussions he 
might have had in Riyadh.
    Between June 16 and 20, 2003, I paid a follow-up visit to the 
United Nations Commission on Human Rights, which meets in Geneva, 
Switzerland. Represented by two non-governmental organizations 
(International Educational Development and the Washington Center for 
Peace and Justice), I testified at the Working Group on Contemporary 
Forms of Slavery regarding my daughter's enslavement at the hands of 
the Saudis. Another witness, a young American man who, along with his 
sister, had been separated from his mother, Monica Stowers, for 14 
years by the Saudi government, testified about the abuses his family 
suffered at the hands of the Saudis and the State Department. He told 
of how his family had been thrown out onto the street by a former U.S. 
Ambassador to Saudi Arabia when they sought refuge at the Embassy in 
Riyadh. Written reports from two other American female kidnapping 
victims of the Saudis were entered into the record as well. The two 
victims were afraid to appear in Geneva due to threats upon their lives 
from Saudi nationals.
    The thrust of our testimony was that forced and early marriage, 
gender discrimination, and denial of an equal education--all of which 
the kidnapped American girls are subject to in Saudi Arabia--constitute 
contemporary forms of slavery.
    Saudi delegates were allowed to present their rebuttals to our 
testimony, in which they denied that their country practiced any of the 
abuses we mentioned. We attended a private meeting with the Saudi 
delegates, in which they raised objections to the use of the words 
``abduction'' and ``slavery'' in reference to the kidnappings and 
illegal detention of American children in their country. At the 
conclusion of the week's proceedings, the Working Group on Contemporary 
Forms of Slavery affirmed that early marriage--below the age of 18, 
forced marriage, trafficking of human beings, gender discrimination, as 
well as other practices that do not affect the American children held 
hostage in Saudi Arabia, could indeed be categorized as Contemporary 
Forms of Slavery. This document officially puts the Saudi government on 
notice that the United Nations considers the abuses they have 
perpetrated on my daughter and other American children as ``slavery.'' 
The recommendations made by the Working Group on Contemporary Forms of 
Slavery will not force the Saudis to return our American children, but 
will only exacerbate the public relations nightmare that the Saudis 
have been experiencing since 9-11 and the Burton hearings. The American 
public relations firms and the former U.S. government officials who 
represent the Saudis will have to decide whether they wish to continue 
to sacrifice their reputations for financial gain.
    At our meeting with the Saudis in Geneva, they mentioned that there 
was an existing ``bilateral protocol'' between them and the United 
States to deal with the American abducted children. The Saudis said 
that their part of the protocol was completed and that it was now 
sitting on some nebulous American State Department official's desk, 
waiting only for the signature of some other nebulous American 
official. When pressed by our sponsors, the Saudi official could not 
come up with a name for this protocol, let alone a copy of it. Our 
representatives asked for a copy, which we never received. On the 
advice of legal counsel, I emailed the State Department from Geneva 
asking for details on this alleged protocol; the reply from Russell 
Brown was that there was no such protocol that he knew of. But then, 
Russell is only a temporary replacement, and has been on the job only 
since May of 2003. I emailed my circle of friends who are also victims 
of the Saudis, and we could only conclude that the Saudi official must 
have been referring to the infamous ``Solomon's Protocol,'' written by 
Kristine Uhlman--according to her own resume--under contract to the 
State Department and the National Center on Missing and Exploited 
Children. After Al-Jubeir touted the abilities of the NCMEC in his 2002 
national press conference, ``Solomon's Protocol'' was presented to the 
Burton Committee by one of the American PR firms hired to find a 
solution to the ``custody cases.'' In rebuttal to the Saudis' 
contention that there was some kind of bilateral protocol, our legal 
representatives managed to enter into the official record of the United 
Nations Working Group on Contemporary Forms of Slavery their opinions 
of the ``discredited'' Solomon's Protocol. Our representatives also 
challenged the Saudis to provide a copy of the alleged protocol.
    Calls to the NCMEC were made early this spring by other victims of 
the Saudis in an attempt to research the mysterious ``Solomon's 
Protocol.'' The National Center on Missing and Exploited Children has 
disavowed any knowledge of this document; in fact, they took it off 
their web page this spring. However, I managed to find an unequivocal 
reference to it in an NCMEC publication, in which Ernie Allen in his 
``President's Message'' bragged about the efficacy of this ``Solomon's 
Protocol'' in solving international abductions. If this is such a 
wonderful document, how come it has never been used to return a missing 
child? If this is such a wonderful document, why hasn't anyone seen it? 
Why are the parents in the dark about it? Why have both the State 
Department and the NCMEC disavowed any knowledge of its existence? How 
much have the Saudis donated to the NCMEC to buy Ernie Allen's 
cooperation in keeping American children held in enslavement in Saudi 
Arabia? I urge this committee to investigate the financing of the NCMEC 
to determine the ties between it, the State Department, and the Saudi 
government or Saudi individuals. I further urge this committee to 
follow through on Congressman Burton's attempts to subpoena all 
documents from all PR firms hired by the Saudis relating to kidnapped 
American children held hostage in Saudi Arabia. Congressman Burton's 
expert witness on diplomatic immunity has already testified before 
Congress that such documents held by these PR firms do not fall under 
the claim of diplomatic immunity. I urge this committee to direct the 
State Department to enforce all U.S. custody orders relating to 
American children held overseas, whether in Hague or non-Hague 
countries. I was told by the State Department that the Secretary of 
State was not allowed to threaten sanctions against foreign 
governments; I was told that this was a matter for Congress. A few days 
after I heard these words from Beth Payne, I heard Secretary Powell 
threaten Syria with diplomatic and economic sanctions if they harbored 
any fugitive Iraqi officials or hid Iraq's weapons of mass destruction. 
I am wondering why the State Department is in the habit of lying to us 
``ignorant'' parents of the missing, why they protect and defend 
criminal actions of foreign governments, and why they have stalled the 
parents of missing Americans for up to 20 years in some cases? The 
inevitable results of the State Department's actions in my daughter's 
case will be that she is sold off in marriage and doomed to live out 
her days as a possession rather than as a person in her own right. That 
is exactly what the State Department is hoping for, as they have proved 
time and time again. They were there when the Saudis sold off Pat 
Roush's daughters and kidnapped them to London, without even notifying 
the mother; they were there when they kicked Amjad Radwan out of the 
Embassy in Riyadh and allowed her to be sold off at the age of twelve.
    The United States prides itself on being a generous country. I 
agree that we are generous when it comes to ensuring human rights 
abroad. We have spent millions to reopen the hospitals and schools in 
Afghanistan. We have made sure that Afghan and Iraqi girls can get an 
education. We topple ruthless dictators. We make sure that the 
governments of Palestine, Iraq and Afghanistan have female delegates. 
My tax dollars have gone into such noble causes as making sure that 
every terrorist in Guantanamo Bay has his own copy of the Koran, while 
the brothers of these Wahhabi scum are responsible for the enslavement 
of my child. As my tax dollars are wasted to ensure the civil rights of 
the aforementioned people, their hatred of the United States grows 
incrementally. Yet when it comes to rescuing one 11-year-old American 
citizen (who has told me she is desperate to escape) and the other 
American children being held against their wills by foreign dictators, 
our government is largely silent. I would like my tax dollars spent to 
rescue my daughter and other American children before another penny is 
spent to rescue those who hate us.
    A country that turns its back on its own children should be ashamed 
to call itself a generous country. I say charity begins at home.

    The Chairman. I thank you very much for that eloquent and 
moving testimony, and for your own championship and for 
focusing our attention on this issue.
    As a parochial concern, but one that you will understand, I 
researched recent cases in Indiana. There have been three since 
May 2000, that is, in the last 3 years, that are conspicuous: 
Adam Huscio from Indianapolis, the son of Mari Huscio, who was 
taken by his father to Syria--and so that introduces the fact 
that other countries in addition to Saudi Arabia are involved 
in this, which, of course, you have mentioned; three children 
of Joanna Tonetti from Terre Haute who were abducted to Saudi 
Arabia in August 2000 and still are in much the same situation, 
as I understand it, as the young lady you have talked about 
today; and just last month Madison Sanchez, the daughter of 
Linda Price from Princeton, Indiana, abducted by her father and 
taken to Vera Cruz, Mexico.
    My opening statement, which I put into the record, does ask 
Ms. Harty to investigate and update those three cases. There 
are others that we have uncovered along the duration you have 
mentioned, 6 years of trauma in that case. You have the 
research as a part of this record.
    As of 24 June, as regards the number of abductees, Mexico 
leads the list with 69. Mexico is a Hague Convention signatory, 
whereas Egypt, Japan, India and the next three are not: Egypt 
25, Japan 19, India 18, Australia, 16, Canada, 15. This hops 
across continents.
    I make the point that this is not an attack on the Muslim 
world or on the Middle East or on the Saudis. As a matter of 
fact, there are circumstances involving abductions to all sorts 
of places on Earth. Our State Department and all of us will be 
tested in a variety of circumstances. I know this is all a part 
of the repertoire of your background, because you have looked 
at this more than all the rest of us.
    It was anticipated that there would be many here. We 
reserved this room, Dirksen 106 today, which as you can observe 
has maybe four times as many seats as a normal hearing room. 
Fortuitously this also made it possible for all 80 Boy Scouts 
of Troop 399 from Evansville, Indiana to be a part of this 
meeting today, and we're very pleased they are here as a part 
of civic education in the ways of the Congress and on a very 
important issue involving children.
    At this point I will thank you for your testimony and call 
now upon Assistant Secretary Harty for her testimony. Thank you 
very much.
    Secretary Harty, we appreciate very much your coming. The 
contributions you've already made in this field, and your long 
and distinguished career as a public servant are well-known to 
all of us in the hearing room today. We look forward especially 
to your concentration on the issues raised by Senator Lincoln 
and by other Americans who have come to you and to your 
Department.

 STATEMENT OF HON. MAURA HARTY, ASSISTANT SECRETARY OF STATE, 
BUREAU OF CONSULAR AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Ms. Harty. Thank you very much, Mr. Chairman. I very much 
appreciate the opportunity to be here and the time that you're 
taking to hold this hearing today. I would like to thank 
Senator Lincoln as well for her comments and suggestions and 
recommendations.
    I would also like to thank the Boy Scouts for being here 
today. I agree with you completely that it is absolutely 
imperative that we all understand civics and how our societies 
work. I'm pleased to have a chance to report today on an issue 
that is not only one of great importance to the State 
Department, but it is one that engages me, sir, on a very 
personal level, and that is the protection of children 
wrongfully retained or taken abroad by their noncustodial 
parents.
    I mention civics because I believe you can actually 
understand a lot about society by the way it treats its most 
vulnerable members, and I think that the time, the energy and 
attention devoted to children's issues at the State Department 
and within the Congress and other elements of the U.S. 
Government in fact reflects quite well upon our society.
    We at State are rapidly approaching the 10th anniversary of 
the creation of the Office of Children's Issues, where we 
handle matters of international adoptions, abductions, and the 
return of children to their habitual residence under the Hague 
Convention. I think that makes it a good time to take stock of 
how far we have come in helping parents in this country, and 
also where we would like to go in the future.
    I would be surprised if anyone present in the room right 
now hasn't, in fact, been riveted by the recent experience of 
one young American mother in Saudi Arabia already mentioned by 
Senator Lincoln, who sought and received refuge in our 
consulate in Jeddah. I think her story is illustrative of the 
painful realities of these cases, and also demonstrative of how 
diligently we work to ensure that the rights of Americans 
abroad are protected.
    Unfortunately, it also displays the limits of our ability 
to deliver what is always our goal, and I would like to assure 
you, sir, today, that our goal is to guarantee the ability of a 
U.S. citizen parent to return to the United States with his or 
her children. In the recent case cited by Senator Lincoln, we 
provided the young woman with immediate and unquestioned access 
and refuge to the consulate. We also provided the basic support 
that she and her children needed at that moment in time so that 
in a safe place she could make the decisions that ultimately 
were hers to make.
    We will continue to be engaged in cases like this, and in 
the cases of all other American parents who might find 
themselves in need of our help. When they come to us for help, 
we will aggressively pursue them, sir.
    I would like to note that the U.S. Congress has been 
extremely helpful to the Department in securing the return to 
the United States of abducted and wrongfully retained children, 
or wrongfully abducted children, that your personal efforts and 
your institutional efforts have been extraordinary. The bill 
popularly known as the ``Amber Alert'' law, among its many 
other accomplishments, made the attempt to abduct a child from 
the United States a crime.
    In addition, the International Parental Abduction 
Prevention Act of 2003 would expand the State Department's 
authority to refuse or revoke a U.S. visa for certain family 
members of non-U.S. citizens who abduct American children. This 
bill would enable the State Department to be more effective and 
to use the tool that Congress provided us in the Immigration 
and Nationality Act to persuade parents to return abducted or 
wrongfully retained American citizen children.
    The amendments to the Immigration and Nationality Act that 
that bill proposes would allow the Secretary of State to 
designate as inadmissible relatives who are most likely to have 
an influence over an abducted parent and in a wider range a 
family and kinship circumstances than we have previously been 
able to use. These are tools that actually add new teeth, Mr. 
Chairman, to our ability to raise the stakes for those who 
would defy a U.S. court order and kidnap a U.S. child.
    I also want to mention those Members of Congress, and 
specifically many members of this committee, sir, who have 
backed our efforts to recover children abducted to foreign 
countries. You have raised these cases in your travels abroad, 
where you have access to the highest levels of leadership in 
countries where many of our children are wrongfully retained.
    Your willingness to do so demonstrates convincingly to 
foreign governments that the United States is totally committed 
to the return of our most vulnerable citizens. I certainly 
thank you for your willingness to deliver the message, and want 
to underscore how very helpful it is. When we then deliver that 
same message, sir, they can see a U.S. Government that is 
completely united on a topic of great importance to all of us.
    When I came before this committee last fall to ask for 
confirmation in this job, I spoke about abducted children and 
my commitment to their return to the United States. Since then, 
I've done everything I can think of to further demonstrate that 
commitment. In January, I traveled to Saudi Arabia, Lebanon, 
and Syria, and raised the issue of international parental child 
abduction with government officials in each country. Since I 
made that trip, we have seen seven Americans return to the 
United States from those countries.
    I visited Saudi Arabia again in April to emphasize the same 
concerns. We meet regularly with Saudi officials both in 
Washington and in Riyadh to seek solutions to specific cases 
and to find more systematic ways to address the problem of 
international parental child abduction.
    I hosted a town hall meeting in February that was attended 
by over 60 left-behind parents. During that meeting, parents 
identified ways they think that we can serve them better, and I 
found the meeting to be extremely useful and helpful. I'm going 
to hold a second such meeting next month. Also next month I 
will visit Germany, Austria, and Sweden to pursue both Hague 
return and access cases. This past May alone, we have seen 15 
children returned from abroad, and close to 100 have come home 
since November.
    Sir, I'm certainly not here to claim personal credit for 
these cases. Where there is credit to be taken, it properly 
belongs to the left-behind parents who never abandoned the 
fight to regain their children no matter what the odds. I want 
you to know that we at the State Department also never lose 
sight of the goal or the fact that so long as one child is 
wrongfully retained our job is incomplete.
    Since the United States became party to the convention in 
1988, State has worked to improve its implementation. During 
that first year, we created a new Child Custody Division to 
coordinate our work in this area, and in 1994 we consolidated 
our efforts on behalf of children abroad in our Office of 
Children's Issues, an office now staffed by 28 people, who 
devote all of their time to helping in the international 
adoption process, as well as assisting in the return of 
children wrongfully taken or retained abroad.
    Over the years, we've expanded a cooperative arrangement 
with the National Center for Missing and Exploited Children, 
which was formalized in an agreement between State, Justice, 
and the Center and signed in September 1995, that provides 
additional assistance for parents and children in all 
international child abduction cases.
    The United States, I believe, has long taken the lead in 
creating a mechanism for the return of children abducted 
internationally. We were instrumental in the negotiation of the 
1980 Hague Convention, which provides a civil legal mechanism 
in the country where the child is located for parents to seek 
return of and access to their child. It applies only to cases 
where children habitually resident in one Hague country have 
been abducted and wrongfully retained in another country that 
is also party to the convention.
    The Hague Convention is a far from perfect instrument, but 
it codifies a shared set of principles for resolving child 
abduction cases. At this point, approximately 60 percent of the 
international child abduction cases in which we have provided 
assistance are now covered by the convention. When the United 
States joined back in 1988, only nine other countries were 
party. Today, the convention is in effect between the United 
States and 52 other countries.
    The Hague Convention does not guarantee a satisfactory 
result for every left-behind parent. Compliance with the 
convention in fact varies among foreign jurisdictions, and even 
when the left-behind parent has filed an application and done 
everything right, that may be the case that from time to time 
that parent and the United States may still be very 
disappointed with the result.
    There have been some decisions by foreign courts in Hague 
cases with which we don't agree. However, these decisions have 
been made by independent judiciaries and independent sovereign 
States. The Hague Convention cannot make a biased judicial 
system more fair or a nationalistic judge more objective. That 
is why we continue to work to improve compliance with the 
convention through our contributions to the Hague Permanent 
Bureau's, Good Practices Guide, through judicial training 
programs, through hosting visits by delegations from other 
Hague countries to explain how we apply the convention.
    We will also continue to make our concerns known in our 
Annual Compliance Report, where we identify instances where 
foreign courts in Hague Convention countries deny return of 
children to the United States for reasons that we believe are 
inconsistent with the convention. In next year's report, due 
next March, we will also expand that report to look at access 
in Hague Convention countries.
    Abduction cases to countries that are not Hague Convention 
signatories, and whose judicial systems, cultural traditions, 
and family law are often radically different from our own, 
present particularly compelling challenges for all of us. When 
dealing with such countries, we work with other Federal and 
State authorities and with the foreign governments concerned to 
explore ways to recover the children.
    This may include withholding or revoking the U.S. visas of 
abducting parents or people who support them and their family 
members; revoking U.S. passports at the request of a Federal 
law enforcement agency; and pressing foreign governments 
nonstop for assistance in returning children, and either 
deporting or extraditing their abductors.
    We also seek to visit abducted children to verify their 
well-being and facilitate communication between the parents and 
the children. In some countries with legal systems and 
practices that vary dramatically from our own, we're exploring 
the viability of consular arrangements that could improve 
mediation and access provided to parents even as we continue to 
seek mechanisms to arrange for the child's return.
    We see no difference between the rights of left-behind 
parents in cases involving Hague and non-Hague countries, and 
our aim is always the same, the return of the child to the 
United States. We must, however, work in the manner most likely 
to be effective in pursuing that aim, and we don't neglect 
those measures that, while they fall short in some instances of 
meeting that ultimate goal of return, nonetheless enable the 
left-behind parent to have a place in the child's life.
    Every situation in this area is unique. There really is no 
tailor-made solution that can be applied across the board, but 
we will not hesitate to use every tool we have when we and the 
left-behind parent believe them to be relevant and likely to 
promote a positive outcome. Our ambassadors and staffs will 
push foreign governments to recognize the rights of left-behind 
parents, to facilitate visitation, to help advance Hague 
compliance where that remedy is available, and constantly to 
remind foreign interlocutories that the U.S. Government cares 
about, supports, and works for the rights of left-behind 
parents. I have no higher responsibility in this job, sir, and 
I aim to fulfill it to the utmost.
    I very much appreciate the opportunity to speak with the 
committee today and to try and answer your questions. Thank 
you, sir.
    [The prepared statement of Assistant Secretary Harty 
follows:]

 Prepared Statement of Hon. Maura Harty, Assistant Secretary of State, 
            Bureau of Consular Affairs, Department of State

    Mr. Chairman, Members of the Committee:
    I am pleased to be here today to report on the work done by the 
Department of State's Office of Children's Issues in the areas of 
international child abduction and international adoption. I believe 
that you can understand a lot about a society by the way it treats its 
most vulnerable members and I think that the time, energy, and 
attention devoted to children's issues at the Department of State and 
within the U.S. Government reflects well upon the United States as a 
society. We at the Department of State are rapidly approaching the 
tenth anniversary of the creation of the Office of Children's Issues--
where we handle matters of international adoptions, abductions, and the 
return of children to their habitual residence under the Hague 
Convention. It seems an appropriate time to take stock of how far we 
have come in helping parents in this country and where we would like to 
go in the future.
    Before I do that, however, I would like to note that the U.S. 
Congress has been of inestimable help to the Department in securing the 
return of abducted and wrongfully retained children from overseas 
through both your institutional and your personal efforts. The bill 
popularly known as the ``Amber Alert'' law, among its many other 
accomplishments, made the attempt to abduct a child from the United 
States a crime, while the International Parental Child Abduction 
Prevention Act of 2003 expands the Department's authority to refuse or 
revoke U.S. visas for certain family members of non-U.S. citizens who 
abduct American children. These are tools that add new teeth to my 
ability, and that of my officers in Children's Issues and in consular 
sections around the world, to raise the stakes for those who would defy 
a U.S. court order and kidnap their children from the United States. I 
also want to mention those members of Congress and specifically many 
members of this very committee who have backed our efforts to recover 
children abducted to foreign countries. You have eagerly raised these 
cases in your travels abroad, where you have access to the highest 
levels of leadership in the countries where many of our children are 
wrongfully retained. Your willingness to do so demonstrates 
convincingly to foreign governments that the United States is totally 
committed to the return of our most vulnerable citizens. I thank you 
for your willingness to deliver this message; it really helps us at the 
State Department to have your support.
    When I came before this committee last October to ask for your 
confirmation in this job I spoke about abducted children and my 
commitment to their return to the United States. Before I describe our 
work in assisting Americans who choose to adopt overseas, let me 
discuss the question of international child abductions and the work I 
have done since my swearing-in, to make that commitment a reality. In 
January, I traveled to Saudi Arabia, Lebanon and Syria and raised the 
issue of international parental child abduction with government 
officials in each country. Since I made that trip we have seen seven 
Americans returned to the United States from those three countries. I 
visited Saudi Arabia again in April to emphasize the same concerns. We 
meet regularly with Saudi officials, both in Washington and Riyadh, to 
seek solutions in specific cases and to find more systematic ways to 
address the problem of international parental child abduction. I hosted 
a ``Town Hall'' meeting on February 24 that was attended by over 60 
left-behind parents. Parents identified ways they think we can serve 
them better, and the meeting was extremely useful. We are planning a 
second such meeting for later this summer.
    Results often are slow in coming and the wait for the left behind 
parent excruciating, but our efforts can produce success. In the month 
of April of this year, we have seen fifteen children returned from 
eight different countries, including two from Saudi Arabia. In May of 
this year, an equal number of children were returned to the United 
States from abroad. I am certainly not here to claim personal credit 
for these cases. Where there is credit to be taken it properly belongs 
to the determination of the left behind parents to never abandon the 
fight to regain their children no matter what the odds. I do however 
want you to know that we never lose sight of the goal, nor of the fact 
that, so long as one child is wrongfully retained abroad, our job is 
incomplete.
    We all know that institutional efforts are the most effective over 
time, which is why I began my testimony noting the ten years since the 
founding of the Office of Children's Issues. Since the U.S. became 
party to the Hague Convention on the Civil Aspects of International 
Child Abduction in 1988, the Department of State has worked to improve 
the Convention's implementation in this country. During the first year 
we created a new child custody division to coordinate our work in this 
area. In 1994 we consolidated our efforts on behalf of children abroad 
in our Office of Children's Issues, now an office of 28 people who 
devote all their time to helping in the international adoption process 
and assisting in the return of children wrongfully taken and/or 
retained abroad. Over the years, we have expanded our cooperative 
arrangement with the National Center for Missing and Exploited 
Children, formalized in an agreement between the Department of State, 
the Department of Justice, and NCMEC and signed on September 1, 1995, 
to provide additional assistance for parents and children in all 
international child abduction cases. They are our partners and our 
friends; NCMEC is an extraordinary organization.
    When a parent takes or keeps a child from his or her home, and 
prevents the child from having a relationship with the other parent, 
the trauma to the child is immediate and compounded each day the child 
is not returned home. International child abductions are often 
complicated by the fact that many abducted children are from multi-
cultural and multinational families. The children themselves are often 
citizens of both the United States and the country to which they were 
abducted. Our position, which I have made clear in my meetings with 
foreign government officials, is that a child abducted from the U.S. in 
violation of custody rights recognized under U.S. law should be 
returned. The taking parent should not be allowed to benefit from the 
abduction. Ultimately, however, the fate of these children is decided 
by the courts, or other authorities, in the countries to which they 
have been abducted or in which they have been wrongfully retained. U.S. 
court orders, as we all know, are often not enforceable abroad. Even 
when everyone involved is a U.S. citizen, these cases are often 
difficult to resolve once the child has been removed from the United 
States.
                          the hague convention
    Recognizing that abductions are individual tragedies that the 
courts of most countries legitimately wish to resolve in good faith for 
the benefit of the affected children, the United States has long taken 
a lead in creating a mechanism for the return of children abducted 
internationally. The United States was instrumental in the negotiation 
of the Hague Convention. The Convention provides a civil legal 
mechanism in the country where the child is located for parents to seek 
the return of, and access to, their child. It applies only to cases 
where children habitually resident in a Hague Convention country have 
been abducted to, or wrongfully retained in, another country party to 
the Convention. The Bureau of Consular Affairs' Office of Children's 
Issues acts as the Central Authority for the Convention in the United 
States.
    Under the Convention, a Hague proceeding does not decide custody; 
instead, it decides in which country a custody determination should be 
made. A Hague proceeding should, with very few and limited exceptions, 
result in an order from the court where the abducted child is located 
for return to the country of habitual residence so that the parents may 
pursue the resolution of custody there. While the Convention is far 
from 100% successful, it does provide a legal channel for left behind 
parents in a foreign court, and results in children's return to the 
United States. We also believe that the existence of the Convention's 
return mechanism has deterred an untold number of abductions.
    Approximately 60% of the cases in which we provide assistance are 
now covered by the Convention. When the U.S. joined the Convention in 
1988, only nine other countries were party. Today the Convention is in 
effect between the U.S. and 52 other countries. We encourage countries 
which embrace the Convention's basic principles to become members as 
the best possible means of protecting children from the harmful effects 
of abduction. As we look to improve the Convention's effectiveness, we 
must remember the many parents who wish that they had even this less-
than-perfect mechanism to seek return of their children.
    While The Hague Convention has facilitated the return of many 
children to the United States, and while it is a vast improvement over 
the lack of any international mechanism whatsoever, it is an imperfect 
instrument. The Hague Convention does not guarantee a satisfactory 
result for every left-behind parent. Compliance with the Convention 
varies among foreign jurisdictions. Even when the left-behind parent 
has filed an application in a timely fashion, hired legal counsel, and 
literally done everything ``right'', that parent, and the United 
States, may be bitterly disappointed with the result. There have been 
some decisions by foreign courts in Hague cases with which we do not 
agree. However, these decisions are made by independent judiciaries in 
independent sovereign states. The Hague Convention cannot make a biased 
judicial system fair, or a nationalistic judge more objective, nor can 
it remove gender bias from a society or its judicial system.
    This reality offers little comfort to the left-behind parents who 
have suffered the frustration and anguish of losing contact with a 
beloved child. Nor does it comfort the traumatized child who has been 
abruptly wrenched from the arms of one parent and asked in effect to 
choose sides. That is why we continue to work to improve compliance 
with the Convention. Among the steps we take to improve Hague 
compliance are:

  <bullet> Contributions to the Hague Permanent Bureau's ``Good 
        Practices'' Guide;

  <bullet> Provision of judicial training programs;

  <bullet> Hosting visits by delegations from other Hague countries, to 
        explain how we apply the Convention.

  <bullet> Identifying instances where foreign courts in Hague 
        Convention partners deny return of children to the United 
        States for reasons that we believe are inconsistent with the 
        Hague Convention so that we may raise these cases 
        diplomatically with the relevant government.
                  history--office of children's issues
    Since the U.S. became party to the Hague Convention in 1988, the 
Department of State has worked to improve the Convention's 
implementation in the United States. During the first year we created a 
new child custody division to coordinate our work in this area. In 
1994, we formed the Office of Children's Issues, redoubling our efforts 
on this important subject and increasing the level of attention it 
received in the State Department. The Bureau of Consular Affairs saw 
the need for a comprehensive interagency coordinated response to 
address the scourge of international parental child abduction--from 
prevention, to recovery, to reunification.
    In an effort to coordinate assistance to abducted children and 
their families, the Office of Children's Issues entered into a 
cooperative agreement with the Department of Justice and the National 
Center for Missing and Exploited Children on September 1, 1995, to work 
together on these cases. While NCMEC had always helped us locate 
missing children, the agreement formalized this arrangement and 
expanded NCMEC's work to include Hague cases in which children from 
other countries were abducted to, or retained in, the United States.
    Interagency coordination and communication is critical. We have 
repeatedly seen examples of how our increased interagency communication 
has aided the return process. Children have returned home thanks to 
extensive interagency cooperation involving the FBI, Department of 
Justice, local law enforcement and NCMEC, efforts coordinated by 
Children's Issues.
    While the Hague Convention does not guarantee the return of all 
abducted or wrongfully retained children, the Convention provides us an 
invaluable tool that is absent in our efforts to resolve abduction 
cases from countries that are not Hague signatories and whose judicial 
system, cultural traditions, and family law are often radically 
different from our own. The Department, when dealing with such 
countries, works with other federal and state agencies and the foreign 
governments concerned to explore ways to recover the children. This may 
include withholding or revoking the U.S. visas of abducting parents, 
people who support them, and their family members; revoking U.S. 
passports at the request of federal law enforcement authorities if a 
federal warrant is issued for the arrest of a U.S. citizen; and 
pressing foreign governments for assistance in returning children and 
either deporting or extraditing their abductors. We also seek to visit 
abducted children to verify their well-being and facilitate 
communication between the parents. In some countries with legal systems 
and practices that vary drastically from those of the U.S., we are 
exploring the viability of bilateral consular arrangements that could 
improve mediation and access assistance provided to parents, even as we 
continue to seek mechanisms for a child's return. We are working to 
expand and revise our Standard Operating Procedures to provide more 
comprehensive and consistent service to left-behind parents. We will 
soon establish a Prevention Unit within CA/OCS/CI to focus more 
attention on this important function.
    Let me be completely clear on the main question here: we see no 
difference between the rights of left behind parents in cases involving 
Hague and non-Hague countries and our aim is always the same, the 
return of the child to the United States. We must, however, work in the 
manner most likely to be effective in pursuing that aim and we should 
not neglect those measures that, while they fall short of meeting our 
ultimate goal of return, nonetheless enable the left behind parent to 
have a place in their child's life. Children, as they grow older, are 
far more likely to exert useful pressure towards reunion with the left 
behind parent if that parent is known to and important to them.
    Let me close my discussion of international abductions with an 
observation that is perhaps obvious, but whose implications are not 
necessarily self-evident: every situation in this area is unique and 
there is no tailor-made solution that should be applied across the 
board. The coercive tools we have at our disposal are vitally important 
and we will not hesitate to use them when we, and the left behind 
parents, believe them to be relevant and likely to promote a positive 
outcome. Often, however, the most effective way to handle these cases 
is through the consistent use of our most vital resource: the 
persuasive power of our diplomatic efforts abroad. Our Ambassadors and 
their staff will push foreign governments to recognize the rights of 
left behind parents, facilitate visitation, help advance Hague 
compliance where that remedy is available, and constantly remind 
foreign interlocutors that the U.S. government cares about, supports, 
and works for the rights of left behind parents whose children have 
been wrongfully removed from the U.S. and retained abroad.
                        international adoptions
    In FY 2002, Americans adopted over 21,000 children from overseas, 
more than the citizens of any other country. Families throughout the 
United States have been enriched by the addition of these children 
while the children themselves are afforded the opportunity to grow up 
in loving homes. Everyone wins in this work, and we are committed to 
providing the best service we can to adoptive parents overseas. Let me 
give you some examples of our commitment to this process at our two 
largest orphan visa-processing posts, Guangzhou and Moscow.
    In Guangzhou, where we processed over 6,000 orphan visas last year, 
we modified our orphan processing procedures in short order to respond 
to the threat posed by the SARS epidemic. On an emergency basis, we 
allowed one parent to process their child's case in Guangzhou, 
minimizing the SARS risk to other family members (including the child 
being adopted). We also waived the requirement to bring the child to be 
adopted into our facilities for processing. The Chinese government 
subsequently suspended adoptions in order to cope with the danger of 
SARS, but we remain in close contact with them, with the CDC, and the 
adoptive parents to ensure that, once this danger has passed, we can 
quickly do our part to resume this vital work.
    Centralizing Immigrant Visa processing for the Newly Independent 
States in Moscow made great sense in the immediate aftermath of the 
fall of the Soviet Union. The facilities and capabilities at our 
Embassy in Moscow were far superior to those available at newly 
established posts in the former Soviet Union. However, with time it has 
become clear that adopting parents traveling to many former Soviet 
Union nations were accruing greater and greater hardship in traveling 
to Moscow to complete their orphan cases, especially as visa regimes 
between Russia and several of the former Soviet Union states were 
tightened.
    Accordingly, this year we have begun processing Kazakhstani orphan 
cases in Almaty and Georgian orphan cases in Thilisi. Based on last 
year's figures, this reconfiguration of IV processing responsibilities 
will allow over 800 prospective American parents to avoid traveling to 
Moscow. We hope to implement a further devolution of visa processing 
from Moscow in the coming months and years, with our embassies in 
Almaty and Thilisi taking on cases from some neighboring countries.
    During the past year, we also committed a significant increase in 
resources to better our training for consular officers overseas with 
regard to adoption processing. We added a new adoptions module to our 
Advanced Consular Course at the Foreign Service Institute, a course 
that is provided to consular officers going to their first management 
assignments overseas. And we held our first-ever Consular Affairs 
Bureau Workshop on International Adoptions, bringing back Immigrant 
Visa chiefs from our largest adoption processing posts for an intensive 
discussion of orphan visa issues with adoption experts from inside and 
outside the government.
    Despite this significant progress, we realize that there are still 
adoption issues that have not yet been resolved. One of the most 
complicated of these issues over the past two years has been the 
adoption situation in Cambodia. On December 21, 2001, the Immigration 
and Naturalization Service suspended adoption processing of Cambodian 
orphans after consular and immigration officers uncovered significant 
evidence of fraud and irregularities in the Cambodian adoption process. 
In order to assist those parents in the process of adopting Cambodian 
children when the suspension on adoption processing was announced, the 
INS and Department of State set up a special Joint Humanitarian 
Initiative in conjunction with the Cambodian government to investigate 
and process these cases.
    On September 11, 2002, INS and the Department of State agreed to a 
final expansion of the criteria used to identify cases for this special 
humanitarian initiative. As part of this agreement, unlike the previous 
special humanitarian initiative cases that we have processed, the final 
expansion cases are being processed on a government-to-government basis 
in order to minimize fraud concerns. To date, the Department of State 
has issued 295 orphan visas under the auspices of the special 
humanitarian initiative. There are approximately 76 cases from the 
final expansion group that have not yet been completed. I believe that 
the end is in sight for those families still waiting to complete 
processing of Cambodian ``pipeline'' cases.
    In conjunction with the international community and the Cambodian 
government, our Embassy in Phnom Penh has begun discussions regarding 
what steps Cambodia can undertake in the longer term to establish a 
transparent adoption process that would safeguard the interests of 
children, birth parents, and adopting parents and prevent child 
trafficking. When Cambodia establishes such an adoption process, the 
U.S. government will be ready to review a resumption of Cambodian 
orphan processing.
    Another country that I know has been of concern to the 
international adoption community is Vietnam. In July 2002 the 
Government of Vietnam issued a new decree on international adoptions, 
which took effect on January 2, 2003. The decree imposes a number of 
new requirements on international adoptions, including the requirement 
that there be a bilateral agreement between Vietnam and each country 
whose nationals seek to adopt children from Vietnam before such 
adoptions can take place. The new Vietnamese law, if properly 
implemented, will go a long way toward protecting the rights of 
children, birth parents, and adoptive parents, and preventing baby 
selling. We are actively discussing with the Vietnamese Government a 
proposed bilateral arrangement on adoptions.
    The Department of State is committed to the twin goals of rapid 
processing of international adoptions and the safeguarding of an 
adoption process free of fraud and baby selling. As with abductions, we 
believe that international adoption practices and procedures will be 
ameliorated by acceptance of The Hague Adoption Convention, to whose 
principles the United States is committed. In addition to legitimizing 
the principle that adoptions are superior to institutionalization for 
orphans, the aim of the Convention is to ensure that such adoptions 
take place when they are in the child's best interests and that the 
abduction of and trafficking in children and other abuses are 
prevented.

    The Chairman. Thank you very much, Secretary Harty. The 
questioning period will now begin. I'm going to ask two 
questions that have been prepared by Senator Lincoln and her 
staff. She has four, and if we have an opportunity we will get 
to those, but I will then recognize my colleague, Senator Sam 
Brownback, who has joined us, for questions or comments that he 
may have as a part of this hearing record.
    The first question I want to ask is, as you understand it, 
what is the current position of the Government of Saudi Arabia 
regarding the demand by the State Department that Heidi al-
Omary be allowed to return to her rightful home in the United 
States?
    Ms. Harty. Well, I hesitate to speak directly for the 
Government of Saudi Arabia, Mr. Chairman. What I will say is 
that we have a very firm commitment to do something that I 
mentioned in my remarks, and that is to continue speaking about 
it and at the same time to try and provide as much access as 
possible so that there is at least a continued relationship 
between Mrs. McClain and her daughter.
    It is for us not the final and the best solution. We 
believe that access is important, and so we have pressed for 
access. We continue to press for her return, sir.
    The Chairman. Has the State Department received any 
communications from the Government of the Kingdom of Saudi 
Arabia that would indicate authorities in Saudi Arabia intend 
to comply with the demand from the U.S. Government that Heidi 
be returned to the United States?
    Ms. Harty. Sir, what we have from the Government of Saudi 
Arabia is the continued desire to help us arrange access, as we 
saw this summer, as Mrs. McClain traveled to Saudi Arabia. We 
do not have a firm commitment for the return of Heidi to the 
United States. I can guarantee you, sir, that it is a never-
ending conversation. We will continue to press the point. We 
will continue to work as diligently as possible.
    I thank Senator Lincoln for expressing concern about the 
time that I have spent on this particular case as well as 
others. It is time well-spent, sir. I simply won't stop doing 
it until we get the answers that we want to hear.
    The Chairman. Senator Brownback, at the beginning of the 
hearing I mentioned that we would conclude the hearing at 2:50 
because of the four stacked votes, the first of which has 
begun, so we have approximately 6 minutes left in the hearing, 
and I recognize you for comments or questions you may have at 
this time.
    Senator Brownback. Thank you, Mr. Chairman, and I want to 
include my full statement into the record, if that would be 
permitted.
    [The prepared statement of Senator Brownback follows:]

              Prepared Statement of Senator Sam Brownback

    Thank you Mr. Chairman for your willingness to have this hearing. 
This issue, parents abducting their own children in contravention to 
international norms and standards, often wrongly protected by their 
home governments and to the detriment of the child, is an important 
issue to my colleagues and me.
    I have some very serious questions about the role and commitment of 
the Department of State to helping Americans have access to their 
children. In addition, it is important for the committee to know the 
overall cooperation of our friends and allies on having laws that meet 
rational norms, and their commitment to enforcing their laws so that 
the rights of parents are protected.
    I am concerned that the U.S. Government does not serve as an 
effective advocate for American parents and children. The Secretary of 
State is publicly committed to children and the Deputy Secretary has 
nurtured many children (including many adopted and foster children).
    Despite four major congressional hearings, legislation, GAO 
investigations, and significant media attention, the State Department 
has a hostile approach to helping Americans with this regard and 
ensures that American children and their left-behind parents continue 
to face a two-front war.
    Of the four left-behind parents who appeared before the Senate 
Foreign Relations Committee in its last full hearing on this subject on 
October 1, 1998, three of the four have made no progress in achieving 
the return of their children (Lady Catherine Meyer, Tom Sylvester, and 
Tom Johnson), and the fourth (Paul Marinkovich) only obtained the 
return of his child because the American abductor was foolish enough to 
leave her safe haven in Sweden.
    Ultimately, most American left-behind parents who are not dealing 
with a common law country must choose between complete loss of the 
child or a rescue operation (with the risk of extradition by the U.S. 
back to the abductor's country).
    I have been told that the State Department has prevented abducted 
American children and their left-behind parents from having an 
effective advocate by blocking the National Center for Missing and 
Exploited Children (NCMEC) from adequately assisting American parents, 
while at the same time using U.S. tax dollars to force NCMEC to help 
foreign parents who already have ample support from their own 
governments and the U.S. Government.
    In addition, I understand that the State Department refuses to 
report adequately the only statistic that matters--how many American 
children actually come home--and thus fails to inform American judges 
and law enforcement of the massive problems concerning international 
abduction and retention abroad of American children and the dangers of 
sending children to countries where is no enforceable access or 
visitation for the American parent.
    I am under the impression that we have done nothing to negotiate 
bilateral access and visitation agreements with the worst offending 
European countries (Austria, Germany, Sweden) or the worst Middle 
Eastern countries.
    The State Department submitted 2001 and 2003 reports to Congress on 
Hague Convention compliance that ignored remedial legislation in the 
State Department Authorization bill, again violated 5 out of 7 
paragraphs of the legislative reporting requirement, and was thus 
inaccurate and misleading in several respects.
    I hope that Assistant Secretary Harty can address these points 
satisfactorily to the chairman and myself. This is a serious issue and 
it needs to be seriously addressed by the one institution representing 
the interest of Americans abroad. Again, I thank the chairman for 
seizing upon this important issue.

    Senator Brownback. I would like to submit several written 
questions to Ms. Harty as well, because we will not be able to 
get through all of it.
    Ms. Harty, you and I have met extensively about this. I 
have questions about your coming into this position because of 
prior activities at the State Department that have been raised 
by a number of individuals. I continue to get complaints. I 
continue to get a number of complaints, and I want to go 
through some of those, and I want to hear your comments about 
it.
    I understand the State Department refuses to report 
statistically how many American children have actually been 
abducted you get reported to you, and how many have actually 
come home. Now, is that correct?
    Ms. Harty. No, sir, not exactly. It is sort of a constant--
--
    Senator Brownback. I have a real short time. How many have 
been abducted that have been reported to the State Department?
    Ms. Harty. Sir, I will have to take the question and get 
back to you on a specific number. I'm not refusing to answer. 
It's just at any given time there are approximately 1,000 cases 
open. Sometimes people come back and we don't hear about it, 
sometimes people are abducted and we don't hear about it, so 
I'm somewhat loath to give a hard number, because we're never, 
in fact, sure of what the number is, but sir, I will give you a 
snapshot and we will send it to your office expeditiously.
    [The following response was subsequently received.]

    As of June 1, 2003, we were aware of a total of 904 current cases 
of abduction, the majority of them involving American citizen children. 
Please note that our database tracks cases, some of which involve more 
than one child. We estimate, therefore, that these cases involve 
approximately 1,500 children. In addition, we are aware of 156 open 
access cases, involving an estimated 270 children. Many but not all of 
these access cases involve a child or children abducted from the United 
States.
    This count of children who remain overseas only includes ``open'' 
cases. Open cases involve instances in which the left-behind parent has 
informed the Department of State's Office of Children's Issues that a 
child was abducted to or unlawfully retained abroad, whether or not the 
parent has taken steps such as the filing of a Hague application to 
request the child's return. An open case is either ``preliminary,'' 
``active,'' or ``inactive.'' ``Preliminary'' cases include instances in 
which the parent has informed the Office of Children's Issues that a 
child has been abducted internationally but has not yet initiated 
steps, such as the filing of a Hague application, for the child's 
return or access to the child. ``Active'' is defined as a case of 
international abduction for which a final determination to grant or 
deny return or access has not been made and in which the parent and the 
Department maintain continued contact to move the case forward. A case 
changes from ``active'' to ``inactive'' when the facts of the case do 
not allow, or the parent does not permit, a further reasonable pursuit 
of the child's return or access to the child. Cases that have become 
inactive may be reactivated upon the left-behind parent's request if 
further action is warranted.

    Senator Brownback. If you could, so that we at least have 
how many are reported to you, and so I can get some benchmark 
of how many have actually come home that you know about, or 
that you don't have any tracking of still. Do you report when 
children have been returned home?
    Ms. Harty. Sir, in my opening remarks I mentioned, for 
instance, that 15 came home in May, 15 in April, and 
approximately 100 since November when I took the job, but I'm 
happy to give you a little bit more on that, sir. I will get a 
snapshot for you.
    [The following response was subsequently received.]

    Sir, in my opening remarks I mentioned, for instance, that 15 came 
home in May, 15 in April, and approximately 100 since November when I 
took the job. Our database indicates that, since 2000, we have had 
returns in a total of 700 cases, involving approximately 1,200 
children. I should note that we are not always promptly notified when 
children return based on a voluntary arrangement between parents. The 
actual number of cases involving the return of children may therefore 
be higher than our statistics indicate.

    Senator Brownback. If you could, because this has been the 
subject of three congressional hearings, a GAO study, and media 
reports, and my guess is there are a number of people here in 
the audience that have children that have been abducted that 
are here because they are so passionate about it and continue 
to believe their government is not adequately responding, and 
that is why they're here, and in my work and in my office, if 
people don't think I'm fully engaged and behind it, they get 
pretty irritated, because that's what my work is. I work for 
them, and you're getting the same thing because they still 
don't feel like you're really leaning into it.
    Let me cite an example to you. In 1999 testimony before the 
House International Relations Committee--and you were not in 
this job at this time, Mary Ryan was Assistant Secretary then. 
We had a series of cases. It said that the overall rate of 
return to the United States from other countries is about 90 
percent, American children who have been internationally 
abducted. What was the rate of return in 1999, and what is it 
today? We don't have those sets of numbers.
    At a hearing of the four left-behind parents who appeared 
before the Senate Foreign Relations Committee at its last full 
hearing on the subject, October 1, 1998, three of the four have 
made no progress in achieving a return of their children. 
Katherine Myer, Tom Sylvester, Tom Johnson, the fourth, Paul 
Markinovich only obtained the return of his child because the 
American abductor was foolish enough to leave her safe haven in 
Sweden.
    You were not in that job then, but people continue to 
believe we're not advocating sufficiently.
    I'm under the impression we have not done much to negotiate 
bilateral access treaties with visitation agreements with some 
of the worst offending European countries, like Austria, 
Germany, and Sweden, or some of the worst of the Middle Eastern 
countries. Have we engaged in a pressing effort to get 
bilateral access and visitation agreements?
    Ms. Harty. Sir, in the time I've been in the job I've gone 
twice to the Middle East. In Saudi Arabia and in Syria and in 
Lebanon, each country, I left a draft document with a proposal 
for how we could work better, since they are non-Hague 
countries. We are working through those documents now.
    Senator Brownback. Are we negotiating bilateral access 
treaties with them?
    Ms. Harty. Not treaties, sir. We would like an arrangement, 
not a treaty per se.
    Senator Brownback. Bilateral access agreements?
    Ms. Harty. Actually, sir----
    Senator Brownback. Are those being negotiated?
    Ms. Harty. With specific reference to Saudi Arabia we 
already have an agreement, sir, that they will do two things. 
One is that adult American females who would like to leave the 
Kingdom may leave, and we have the Foreign Minister's personal 
guarantee that an American citizen who wants to go to the 
Kingdom to see his or her child----
    Senator Brownback. My time is so limited, what about 
Austria?
    Ms. Harty. I'm going to Austria, Sweden, and Germany next 
month. I have a trip already scheduled, sir.
    Senator Brownback. Do you have bilateral access and 
visitation agreements pending with those countries?
    Ms. Harty. Well, sir, those are Hague Convention countries, 
so there is both an access and a return clause in the Hague 
Convention, so we're going to go talk about those more, but 
basically we have a Hague Convention agreement with each of 
those countries.
    Senator Brownback. But that's as I have, and the numbers 
here, these are some of the worst offending European countries.
    Ms. Harty. That's why I'm going there, sir.
    Senator Brownback. Do you need to negotiate additional 
access and visitation over and above the Hague treaty?
    Ms. Harty. No, sir, I don't think so. I think the Hague is 
not a perfect instrument, but it is a good one and it works 
quite well. I need to have those conversations with those 
countries. I need to personally assess what the issues and 
problems are, and that's why I'm going there.
    Senator Brownback. Now, the State Department submitted 2001 
and 2003 reports to Congress on Hague Convention compliance 
that, the information I have, ignored remedial legislation in 
the State Department authorization bill and violated five out 
of seven paragraphs of the legislative reporting requirements, 
thus, in the estimation of the people reviewing this, it was 
inaccurate and misleading in several respects.
    Now, I hope these points can be adequately addressed, 
incompliance by the State Department, and that you will take an 
aggressive look at these items, and Ms. Harty, the reason I'm 
being so pointed on this is, this is something we talked about 
before your confirmation. I noted to you the strong feeling on 
a number of people's part that their government was not 
adequately advocating for them, and I don't think anybody 
expects that you're going to solve all of these problems----
    Ms. Harty. But we owe you our best effort.
    Senator Brownback. They don't feel like we're giving them 
our best efforts, and in particular we've got three European 
countries that were having some of the most significant 
violations, and you understand people's hearts about this. This 
is involving their children, and we have to do everything we 
can to bend over backward to make this work for our people, and 
a number here would say that we are not doing that.
    Mr. Chairman, I will submit other questions for the record. 
I do want to know the snapshot of what we believe are missing 
children, and how many American children are actually coming 
home on a regular basis, so that we can track here's how many 
are missing as of this date, maybe it's July 1, and here's how 
many are being reported back home, so we have some objective 
standard of measure, because as you can rightly say back to me, 
I'm being very subjective in my criticism, but it is because we 
don't have the objective numbers, and we need to have those 
objective numbers, and I would think you would want them for 
your office until you figure a way to measure it, you can't 
really determine how you're doing on it, and we need those 
numbers to be able to objectively measure, because otherwise 
you're going to, I think rightfully so, continue to get a lot 
of subjective criticism, so I really want you to work on, and I 
would really appreciate the objective numbers here.
    The Chairman. I thank the Senator for his attention and 
participation.
    Let me say that the record for the hearing will remain open 
through the close of business on Monday, and questions from 
Senator Brownback will come to you. There are 10 questions that 
I have that will come to you, and the additional questions from 
Senator Lincoln, and there may be others. Please respond so 
that our record will be complete, and so that we will have a 
basis, on your recommendations and our own, for further 
activity of the committee, but we thank you very much for 
coming today to testify, and for your preparation.
    Ms. Harty. Thank you so much, sir.
    The Chairman. The hearing is adjourned.
    [Whereupon, at 2:55 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


             Additional Statements Submitted for the Record


 Prepared Statement of Senator Chuck Hagel, U.S. Senator from Nebraska

    Mr. Chairman, I want to thank you and the committee for organizing 
today's hearing on International Parental Child Abduction, and the 
outstanding work of the Department of State's Office of Children's 
Issues in addressing this issue--from prevention, to recovery, to 
reunification.
    The focus of today's hearing is a critical matter. I can think of 
no two individuals who are more committed to ensuring the safety and 
return of children who are victims of abduction than our two witnesses 
today--U.S. Senator Blanche Lincoln and Assistant Secretary of State 
for Consular Affairs, Maura Harty.
    Our first witness, Senator Blanche Lincoln, has become a leader on 
this issue in the United States Senate. Just over one year ago, she 
began advocating for the safe return of Heidi Al-Omary--age 5--who was 
abducted from her home-town in Arkansas by her father and taken to 
Saudi Arabia in 1997. I look forward to Senator Lincoln's testimony 
highlighting her first-hand experience with this case.
    The committee will also hear today from Assistant Secretary of 
State for Consular Affairs, Maura Harty, in whom I have the greatest 
confidence and respect. She is an asset to America's diplomatic corps. 
The issue of international parental child abduction has always been one 
of Harty's highest priorities as Assistant Secretary of State for 
Consular Affairs. Assistant Secretary Harty has committed much of her 
time and energy, and many resources, to finding ways to better assist 
left-behind parents and children who have been victims of international 
parental child abduction.
    Her conviction and capacity to deliver results in this area, and so 
many others, is remarkable. Since taking over as Assistant Secretary in 
November, 2002, approximately 100 children have been returned to their 
parents in the United States. I look forward to her testimony and that 
of our other distinguished witness.

                                 ______
                                 

 Prepared Statement of Senator George V. Voinovich, U.S. Senator from 
                                  Ohio

    I would like to thank the Chairman, Senator Lugar, for convening 
this hearing today to highlight the urgent need to address the issue of 
international parental child abduction.
    As the witnesses will testify today, parental child abduction 
impacts too many parents in the United States, whose children are taken 
suddenly and unexpectedly from their lives. This is true for Thomas 
Sylvester of Cincinnati, Ohio, who lost his 13-month old daughter, 
Carina, when she was abducted by her mother to the Republic of Austria 
in 1995.
    In the fall of 1998, this committee conducted a hearing to examine 
the issue of international parental child abduction in the context of 
the failure on the part of certain European nations to fulfill their 
obligations under the Hague Convention. At that time, Tom Sylvester was 
one of four parents who addressed the committee on the unfortunate 
aftermath of their children's abductions to Austria, Sweden and 
Germany.
    Despite involvement at the highest level, including a phone call 
from Secretary of State Colin Powell to the Austrian Foreign Minister, 
I am disheartened to learn that no substantial change has occurred in 
the circumstances of Tom Sylvester since that hearing took place five 
years ago. There can be no doubt that a parental child abduction is a 
wrenching experience, be it to Europe, Asia, Australia, Africa, or the 
Americas. The matters addressed today concerning the Kingdom of Saudi 
Arabia are grave indeed. A solution to the problems there must be 
found.
    However, let us not fail at this time to recognize those American 
parents who have fought for many years to obtain justice in such Hague 
Convention countries as Austria, Sweden and Germany and elsewhere in 
the world. In doing so, it is crucial that the U.S. Government do all 
that it can to assist those American parents who have been left behind.
    We are in an advantageous position to do, particularly as to the 
Republic of Austria. It has been brought to my attention that Mr. 
Sylvester and his daughter Carina have successfully sued the Republic 
of Austria in the European Court of Human Rights in Strasbourg, France. 
That Court found that the human rights of both the father and daughter 
had been violated by Austria in failing without delay to take all 
reasonable measures to enforce the order entered by their own courts 
that Carina be returned to the United States.
    Armed with this decision, I am hopeful that the State Department 
will call on Austria to explain fully and immediately how it intends to 
come into compliance with the Hague Convention and the European 
Convention of Human Rights.
    It is my sincere hope that the Department of State will take action 
on what we will hear today to effectively assist American parents whose 
children are abducted to Saudi Arabia and elsewhere so as to restore to 
them a meaningful and rich family life.
    Thank you, Mr. Chairman.

                                 ______
                                 

 Prepared Statement of Thomas Sylvester, Cincinnati, OH, Parent of an 
       American Child Abducted From the United States to Austria

    I am Thomas Sylvester, father of Carina Sylvester, my American-born 
daughter and only child who was taken by her Austrian mother from the 
United States to Austria on October 30, 1995. That was her last day on 
American soil. She was then 13 months old. Despite my having won the 
litigation which ensued in Austria under The Hague Convention on the 
Civil Aspects of International Child Abduction, my daughter was never 
returned because Austria was unable to enforce its own court order. 
Carina is now eight years old and remains in Austria as a result.
    I testified at length on the unfortunate aftermath of Carina's 
abduction to Austria at a hearing that was held before the Senate 
Committee on Foreign Relations on October 1, 1998. This Committee may 
recall that special hearing which was entitled ``United States 
Responses to International Parental Abduction.'' I was one of four 
parents who addressed this Committee on the harsh reality of their 
children's abductions to Austria, Sweden and Germany. I am disappointed 
to report that over the past five years, no substantial change has 
occurred in the circumstances of three out of those four parents' 
cases. It was only due to the movement by the abductor in the fourth 
from Sweden to the U.K., which resulted in her capture and the child's 
return to the U.S. Had the abductor known to stay put in Sweden, she 
likely would have continued her safe haven there.
    The Senate joined the House in unanimously adopting Concurrent 
Resolution 293 on June 23, 2000 addressing the issue of international 
parental child abduction in the context of the failure on the part of 
certain European party nations, including Austria, to fulfill their 
obligations under the Hague Convention. Specifically, the Resolution 
urges all contracting parties to the Hague Convention: (1) particularly 
Austria, Germany and Sweden, to comply fully with their international 
obligations; (2) to ensure their compliance by enacting effective 
implementing legislation and educating their judicial and law 
enforcement authorities; (3) to honor their commitments and return 
abducted or wrongfully retained children to their place of habitual 
residence without reaching the merits of any underlying custody dispute 
and to remove obstacles to the exercise of parental access rights; and 
(4) to further educate their central authority and local law 
enforcement authorities regarding the Convention, the severity of the 
problem of international child abduction, and the need for immediate 
action when a parent of an abducted child seeks their assistance.
    The Department of State's Office of Children's Issues has taken 
action in responding to the international parental child abduction case 
of Carina Sylvester. Since the Senate hearing in the fall of October 
1998, the former Director of Children's Issues, Mary Marshall and other 
representatives from the Bureau of Consular Affairs met with officials 
of Austrian Ministries of Foreign Affairs and Justice in Vienna to 
discuss the case on March 2, 1999. The former Assistant Secretary, 
Bureau of Consular Affairs, Mary Ryan, testified at a hearing held 
before the House Committee on International Relations on October 14, 
1999 to address implementation of the Hague Convention and discuss this 
case. In working in coordination with former Secretary of State 
Albright, the former U.S. Ambassador to Austria Kathryn Walt Hall 
discussed the case in a meeting with me, my attorney and the Austrian 
Minister of Justice in Vienna on September 13, 2000. Former Secretary 
of State Madeleine Albright met with Congressman Steve Chabot, a 
representative from Congressman Rob Portman's office and me on 
September 21, 2000. Secretary Albright then discussed the Carina 
Sylvester case with the Austrian Chancellor and the Austrian Minister 
of Foreign Affairs.
    Under the leadership of the current Administration, the Department 
of State's Office of Children's' Issues has continued to respond to the 
international parental abduction case of Carina Sylvester case. The 
Department of State sent a delegation to participate in the Fourth 
Special Commission to the operation of the Hague Convention and took 
the opportunity to raise the Carina Sylvester case with Austrian 
officials at The Hague on March 22-28, 2001. Secretary of State Colin 
Powell met with Congressman Chabot and me on June 27, 2002. Secretary 
Powell promised during the meeting to: 1) contact the Austrian Foreign 
Minister, 2) continue to remain personally involved in Carina Sylvester 
case, and 3) do everything in his power to help resolve the situation. 
The U.S. Ambassador to Austria Lyons Brown met with the Austrian 
Minister of Justice to discuss the Carina Sylvester case on July 1, 
2002. The Assistant Secretary of State Bureau of Consular Affairs Maura 
Harty met with the Austrian Ambassador to discuss the Carina Sylvester 
case on January 14, 2003. At the direction of the Department of State, 
U.S. Embassy in Vienna personnel met with officials of the Austrian 
Foreign Ministry on March 21, 2003. Assistant Secretary Harty approved 
a diplomatic note to the Austrian Embassy in Washington, D.C. on the 
case, which was sent on May 2, 2003.
    The Department of State has published a Report on Compliance with 
The Hague Convention on the Civil Aspects of International Child 
Abduction on four occasions (April 1999, September 2000, April 2001 and 
May 2003). These reports identify those countries that the Department 
of State has found to have demonstrated a pattern of non-compliance or 
that, despite a small number of cases, have such systemic problems that 
the Department believes a larger volume of cases would demonstrate 
continued non-compliance constituting a pattern. In addition, the 
Department recognizes that countries may demonstrate varying levels of 
commitment to and effort in meeting their obligations under the 
Convention. The Department of State considers that countries listed as 
noncompliant are not taking effective steps to address deficiencies. In 
all reports, Austria has been identified as ``Noncompliant.''
    Despite all that has gone on both in Austria and the United States 
relative to this case, there continues to remain no meaningful progress 
toward resolution. I appreciate the efforts made by the Department of 
State's Office of Children's Issues on behalf of Carina and me; 
however, there have been no positive results to date. I request the 
Department of State to do everything possible to end this miscarriage 
and travesty of justice so that Carina and I can enjoy the normal 
relationship that a child is entitled to have with her father.
    On April 24, 2003, The European Court of Human Rights in 
Strasbourg, France decided the lawsuit I filed on behalf of myself and 
my daughter against Austria for its failure to enforce the order 
entered under the Hague Convention that Carina be immediately returned 
to the United States for a custody determination here. The Court found 
in our favor, determining that Austria had violated our human rights as 
guaranteed by Article 8 of the European Convention of Human Rights. 
Money damages are now payable to me by the Republic of Austria. This 
decision, by an independent European tribunal, is unequivocal proof 
that Austria's participation in the Hague Convention fails to such an 
extent as to violate fundamental human rights.
    Now that Austria has been adjudicated as having violated our human 
rights, I ask what specific, immediate actions will be taken by Austria 
to assist in the return of Carina Sylvester to the United States, if 
only for a visit? As we have learned from the decision in the European 
Court of Human Rights, delay can cause irremediable damage to a parent-
child relationship. Given this decision, I ask the Senate Committee on 
Foreign Relations and the Department of State's Office of Children's 
Issues make demands of Austria to explain fully and immediately how it 
intends to come into compliance with The Hague Convention and Article 8 
of the European Convention of Human Rights. I have done all that I can 
do and now it is up to the U.S. government to compel the Austrian 
government to ensure that Carina returns to the United States to meet 
her American family and see her homeland.
    I want to thank the Senate Committee on Foreign Relations for 
holding a hearing on this very important subject. It is my hope that 
the Department of State's Office of Children's Issues will take action 
to effectively assist American parents whose children are 
internationally abducted so as to restore to them a meaningful and rich 
family life.

    Question: In responding to the international parental abduction 
case of Carina Sylvester, the Department of State's Office of 
Children's Issues has conducted high-level meetings as well as 
scheduled future meetings with still no answers provided by the 
Austrian government. Given the continuous avoidance and delay by the 
Austrians, and now that Austria has been adjudicated by the European 
Court of Human Rights as having violated the human rights of Thomas and 
Carina Sylvester, why doesn't the Department of State demand answers 
from Austria and what specific, immediate actions will the Department 
of State's Office of Children's Issues take which compels Austria to 
cooperate in the practical aspect of bringing Carina back to the United 
States?
              additional material submitted for the record
    Appendix 1. Questions submitted to the Department of State's Office 
of Children's Issues for the Town Hall meeting on February 14, 2003 
that have not been answered.
    Appendix 2. Chronology of the Department of State's Office of 
Children's Issues actions since the Senate Committee on Foreign 
Relations hearing on October 1, 1998.
    Appendix 3. Case Summary.
    Appendix 4. Biography.

                               APPENDIX 1

  Questions Relative to International Parental Child Abduction to be 
Addressed at the Department of State Town Hall Meeting on February 24, 
                                  2003

             Submitted by Tom Sylvester--February 14, 2003

(1) notification of meetings and information sharing

    In problematic abduction cases, would the State Department agree to 
inform left-behind parents of all contacts the State Department makes 
or plans with representatives of the country into which the child was 
abducted?

(2) parent participation/state department preparation

    Will the State Department allow parents to directly participate in 
preparing members of the Department to meet with their colleagues of 
the countries to which the child was abducted and permit the left-
behind parents to attend those meetings?

(3) case management

    Would the Department of State work as Central Authority be more 
effective if problematic cases were handled comprehensively with 
clearly defined objectives which could be implemented through the team 
approach including the Department of Justice, FBI, members Congress, 
NCMEC and always the parent as team members?

(4) the hague convention compliance report

    (A) Will the Department of State publish a complete, accurate and 
renewed report on foreign government compliance with the Hague 
Convention on the Civil Aspects of International Child Abduction and 
disseminate such a report to American parents, judges, family law 
attorneys, and law enforcement authorities?
    (B) What are the Department of State objectives in preparing the 
Hague Compliance report?

(5) human rights

    What efforts will be taken to include information on each country's 
child custody and visitation system, including enforcement measures, if 
any, and the human rights aspects of international child abduction/
retention cases and related access/visitation matters in the Children's 
Rights sections of the Department of State's annual country human 
rights reports?

(6) freedom of information act

    What actions are being taken by the Department of State to adhere 
to the law regarding giving parents documents in the files related to 
their case and within the established time frame as stated under the 
law?

(7) cooperation with ncmec

    What is the Department of State doing to ensure that the National 
Center for Missing and Exploited Children (NCMEC) is able to provide as 
much assistance to American parents of abducted/retained children as it 
does to foreign parents whose children are in the United States?

(8) access agreements

    Is the Department of State considering the negotiation of bilateral 
child access and visitation agreements with offending countries for 
parental access to abducted/retained children?

(9) child support

    Will the State Department support measures to eliminate the 
possibility of a left-behind parent's being subject to income 
withholding for a child support order following his or her child's 
abduction to another country?

(10) financial assistance

    What specific actions will be taken by the Department of State to 
help provide financial assistance for left-behind parents given that 
the Victims of Crime Compensation Program does not help with expenses 
related to international child abduction?

(11) prioritization of the subject

    What action will be taken to ensure that the subject of 
international child abduction of American children is given greater 
attention on the Department of State list of priorities?

                               APPENDIX 2

                               Chronology

  Since This Committee's Hearing on October 1, 1998 the Department of 
 State's Office of Children's Issues Responding to the Case of Carina 
                               Sylvester

10/01/98--Thomas Sylvester testifies at the Senate Committee on Foreign 
            Relations hearing to review the U.S. government's response 
            to international parental child abduction.
3/02/99--Director of Children's Issues, Mary Marshall and other 
            representatives from the Bureau of Consular Affairs and 
            Office of the Legal Advisor met with high officials of 
            Austrian Ministries of Foreign Affairs and Justice in 
            Vienna to discuss the case.
10/14/99--Assistant Secretary, Bureau of Consular Affairs, Mary Ryan 
            testifies at the U.S. House International Relations 
            Committee hearing on implementation of The Hague Convention 
            on the Civil Aspects of International Child Abduction. She 
            states: ``Austria was found to be noncompliant due to an 
            apparent lack of understanding in the Austrian judiciary 
            about the aims of the Convention. This fact was most 
            clearly illustrated in the case of Carina Sylvester, whose 
            father, Thomas Sylvester, will be testifying today. The 
            mother's refusal to comply with the return order has become 
            the basis for the court's subsequent decision not to 
            enforce the original return order. This outcome is a 
            perversion of justice. The abducting parent must not be 
            allowed to generate the justification for non-return of an 
            abducted child.''
9/13/00--U.S. Ambassador to Austria Kathryn Hall, Jan McMillan and 
            Thomas Sylvester meet with the Austrian Minister of Justice 
            in Vienna.
9/21/00--Secretary Albright meets with Thomas Sylvester in her office 
            to discuss his case.
9/25/00--Secretary Albright calls to the Austrian Chancellor Schuessel 
            to discuss the case.
11/08/00--Secretary Albright and U.S. Ambassador to Austria Kathryn 
            Walt Hall meet with Austrian Foreign Minister Ferrero-
            Waldner and raise the Sylvester case.
11/26/00--Secretary Albright meets with Austrian Foreign Minister 
            Ferrero-Waldner and the Austrian Chancellor Schuessel in 
            Vienna and again raises the Sylvester case.
3/07/01--Secretary Powell remarks at the hearing before the House 
            Committee on International Relations ``Theses are terrible 
            tragedies, each and every one of them, and these nations 
            are acting irresponsibly. I was familiar with the Sylvester 
            case.''
3/22-28/01--Department of State sends a delegation to participate in 
            the Fourth Special Commission to review the operation of 
            The Hague Convention on the Civil Aspects of International 
            Child Abduction at The Hague and raise the case.
6/27/02--Secretary of State Colin Powell meets with Thomas Sylvester in 
            his office in Washington, D.C. Congressman Steve Chabot and 
            Assistant Secretary Bureau of Legislative Affairs Paul 
            Kelly are also in attendance. Secretary Powell promises to: 
            (1) contact the Austrian Foreign Minister, (2) continue to 
            be personally involved in the case, and (3) do everything 
            in his power to help resolve the situation.
6/28/02--Secretary Powell contacts the Austrian Foreign Minister 
            Ferrero-Waldner indicating to her his grave dissatisfaction 
            with the status quo in the Sylvester case.
7/01/02--U.S. Ambassador to Austria Brown meets with the Austrian 
            Minister of Justice Boehmdorfer to discuss the Sylvester 
            case. Ambassador Brown hand delivers a letter dated June 
            10, 2002 which states: ``This case poses a bilateral 
            irritant to our countries' otherwise outstanding 
            relations'' and ``I am sure you will agree with me that the 
            Sylvester case needs a humane and just resolution.''
1/14/03-Assistant Secretary Harty meets with Austrian Ambassador Moser 
            to discuss the case of Carina Sylvester and urges the 
            Austrian government to develop proposals to expand and 
            normalize Tom Sylvester's access to his daughter. 
            Ambassador Moser agreed to ask authorities in Vienna to 
            help develop a workable access plan.
2/12/03--Secretary Powell hears remarks by Congressman Steve Chabot on 
            the subject of international child abduction generally and 
            the case of Carina Sylvester at the hearing before the 
            House Committee on International Relations.
3/21/03--U.S. Embassy in Vienna personnel meet with officials of the 
            Austrian Foreign Ministry to discuss the case per 
            instruction from the Department of State to follow up on 
            the meeting in Washington D.C. between Assistant Secretary 
            Harty and Austrian Ambassador Moser on January 14, 2003. 
            Jim Pettit, Consul General reviewed all of the many effort 
            made thus far to obtain broader access rights, especially 
            the right to unsupervised visitation both in Austria and 
            the U.S. He told them that the Foreign Ministry needed to 
            understand that this was an important bilateral issue and 
            that the U.S. expected fresh ideas from the Austrian side 
            on how to achieve these goals. The Austrians promised to 
            look into the case further and provide a response to the 
            U.S. Embassy and Washington in the near future.
3/26/03--Assistant Secretary Harty meets with Jan McMillan to further 
            discuss the case.
5/02/03--Assistant Secretary Harty approves a diplomatic note to the 
            Austrian Embassy in Washington D.C. forwarding a copy of 
            The European Court of Human Rights unanimous decision which 
            adjudicates Austria for its violation of human rights and 
            respect for family rights in the Sylvester case, insisting 
            that Austria urgently take steps to expand Thomas 
            Sylvester's access to Carina Sylvester.

                               APPENDIX 3

             Case Summary: Abduction of Carina M. Sylvester

    Thomas Sylvester married Austrian native Monika Rossmann in 
Cincinnati, Ohio in 1994. In that year, their only child, Carina, was 
born in Royal Oak, Michigan. When Carina was just 13 months old, Monika 
Sylvester abducted Carina from Michigan to Austria. On December 20, 
1995, an Austrian trial court found Monika Sylvester to have violated 
the Hague Convention on the Civil Aspects of International Parental 
Child Abduction (Hague Convention), ordering her to immediately return 
Carina to Thomas Sylvester in Michigan as follows:

        The child's mother, Monika Sylvester, is ordered by otherwise 
        forced action, to return Carina immediately to her father, 
        Thomas Sylvester, in Michigan. . . . It should be expected from 
        the child's mother, if she puts the well-being of the child 
        higher than her own, that she returns with the child to the 
        United States.

    Monika Sylvester refused to comply with the court order and did not 
voluntarily return Carina. She also ignored an Austrian court order 
requiring her to provide Thomas Sylvester with visitation with Carina 
on two occasions at Christmas that year. The Austrian Court of Appeals 
affirmed the order for Carina's immediate return. The Austrian Supreme 
Court likewise affirmed the return order stating:

        a return of the child to her father would not pose an immediate 
        physical or psychological danger for the child . . . the goal 
        is to restore the original conditions, until a decision about 
        custody is made by the U.S. courts.

    Monika Sylvester ignored the appellate decisions and continued to 
refuse to comply with the return order. On May 10, 1996, Austrian 
judicial authorities made their sole attempt to enforce the return 
order by appearing at Monika Sylvester's house to ask for the child. 
They were unsuccessful when she denied that Carina was at home at the 
time.
    In Michigan, Thomas Sylvester obtained a Judgment of Divorce on 
April 16, 1996 granting him sole physical custody of Carina in the U.S. 
Following the failure of the enforcement attempt in Austria, 
authorities in Michigan issued an indictment and warrant for Monika 
Sylvester's arrest for international parental kidnapping on May 29, 
1996. Thereafter INTERPOL issued red and yellow notices.
    In September 1996, at Monika Sylvester's request, the Austrian 
trial court agreed to reopen the Hague Convention case due to the 
passage of time. Although not permitted under the terms of the Hague 
Convention, an order was entered that the earlier return order would 
not be enforced and Carina would not be returned to the U.S. This order 
was based on the best interest of the child standard, stating that the 
child's best interests superseded the policies of the Hague Convention. 
That decision was affirmed by the Austrian Supreme Court stating that 
``the concrete welfare of the child precedes over the aspired goal of 
the Hague Convention treaty.'' The Austrian trial court shortly 
thereafter awarded custody of Carina to the abductor and entered a 
child support order payable by Thomas Sylvester back to the date of the 
abduction. The Austrian courts insist that visitation with Carina be in 
Austria only and supervised by the child's mother for fear that Thomas 
Sylvester will abduct Carina to the U.S.
    The European Court of Human Rights released its decision in the 
case of Sylvester v. Republic of Austria on April 24, 2003. The 
European Court determined that the Republic of Austria violated the 
human rights of both the father and daughter when it failed to enforce 
an order entered by the Austrian courts that Carina be returned to the 
United States under the Hague Convention on the Civil Aspects of 
International Child Abduction in December 1995. The European Court of 
Human Rights, the enforcement arm for the Convention for the Protection 
of Human Rights and Fundamental Freedoms in Europe, held that Austria 
had violated Mr. Sylvester's and Carina's fundamental right to a 
private family life by its failure to enforce the final Hague 
Convention return order. The decision of the seven-judge panel was 
unanimous.
    Carina is now eight years old. She has lived in the home of her 
maternal grandparents in Graz, Austria for four of those five years, 
despite orders from both the U.S. and Austria that she be returned 
here. Monika Sylvester has been completely successful in derailing the 
workings of the Hague Convention in Austria. She wields absolute power 
over the Austrian and American courts, and Carina's life. Thomas 
Sylvester has seen Carina only occasionally under strict supervision 
since 1995.

                               APPENDIX 4

                               Biography

    Thomas R. Sylvester was born in Covington, Kentucky on September 
14, 1953 and is currently 49 years of age. He was raised in Cincinnati, 
Ohio and graduated from Ohio State University with a BSBA in 1975. He 
earned his MBA from the University of Cincinnati in 1976.
    Mr. Sylvester is a business executive with extensive domestic and 
international experience in the automotive industry. He has achieved 
successful results in start-up activities in Asia, South America and 
Europe. He lived and worked in four countries over a 10-year period 
while an executive with Chrysler Corporation. He currently resides in 
Cincinnati, Ohio.
    Mr. Sylvester married the former Monika Rossmann in Cincinnati, 
Ohio on April 4, 1994. His only child Carina Sylvester was born in 
Royal Oak, Michigan on September 11, 1994. Mr. Sylvester divorced Ms. 
Sylvester April 16, 1996.
    Mr. Sylvester has testified before the U.S. Senate Committee on 
Foreign Relations and the U.S. House of Representatives Committee on 
International Relations regarding international parental child 
abduction. He addressed the White House Conference on Missing Children 
on the topic of international parental child abduction. His case has 
appeared in Reader's Digest, on the front page of local newspapers and 
has been covered in other publications throughout the country. He has 
been on ABC Nightline and CNN.
    Carina M. Sylvester was born in Royal Oak, Michigan on September 
11, 1994. She is now eight years old. Carina had not yet begun to speak 
at the time of her abduction to Austria by her mother on October 30, 
1995. She now speaks only German and has lived in Austria with her 
mother and maternal grandparents since the abduction. From 1995 through 
2002, she has been permitted to visit with her father on only 27 days 
in a supervised setting. She has only come to know her father as an 
infrequent visitor and cannot effectively communicate with her father 
whose spoken German has declined since his last assignment to a German-
speaking country in the early 90s.
    Monika M. Sylvester was born in Graz, Austria, as Monika Rossmann 
on April 29, 1962 and is currently 41 years old. Ms. Sylvester met her 
husband in 1990 when she was employed as his secretary in Graz, 
Austria. She married Mr. Sylvester on April 4, 1994 in Ohio. Her only 
child, Carina, was born in Royal Oak, Michigan on September 11, 1994. 
On October 30, 1995, Ms. Sylvester abducted Carina from her home in 
Michigan, taking her to Austria without Mr. Sylvester's knowledge and 
consent.
    Since the abduction, Ms. Sylvester has lived with Carina in her 
parents' home in Austria. She has been completely successful in 
derailing the workings of the Hague Convention in Austria. She wields 
absolute power over the Austrian and American courts, and Carina's 
life.
                              ----------                              


       Responses to Additional Questions Submitted for the Record


Responses of Hon. Maura Harty, Assistant Secretary of State, Bureau of 
 Consular Affairs, to Additional Questions for the Record Submitted by 
                        Senator Richard G. Lugar

    Question 1. If an American child is determined to be at risk of 
being abducted to Saudi Arabia, a country that refuses to return 
abducted American children, what safeguards would you recommend that a 
U.S. Family Law Court implement to protect this American child?

    Answer. State Department personnel are prohibited from discussing 
cases with judges or other court officials. Any conversations we have 
about a child custody case would be with the parents and/or their 
attorneys. In any custody case where a parent was concerned about an 
abduction, we would likely recommend that the parent seek appropriate 
custody and other orders to restrain the travel of the child. If the 
case involved a dual national child, we would likely recommend that a 
copy of the subsequent court order be sent to the appropriate foreign 
embassy, though we would caution that passport issuances by that 
embassy are governed by the laws of its own government. We would also 
recommend that a copy of the court order be sent to airline companies, 
which service the possible destination country. Finally, and 
irrespective of any court activity, we would strongly recommend to any 
parents fearing abduction of their U.S. citizen children that they 
enter their children's names in the Children's Passport Issuance Alert 
Program (CPIAP).

    Question 2. If an American child is determined to be at risk of 
being abducted to Syria, another country that refuses to return 
abducted American children and a State Department-designated ``state 
sponsor of international terrorism'', what safeguards would you 
recommend that a U.S. Family Law Court implement to protect this 
American child?

    Answer. State Department personnel are prohibited from discussing 
cases with judges or other court officials. Any conversations we have 
about a child custody case would be with the parents and/or their 
attorneys. In any custody case where a parent was concerned about an 
abduction, we would likely recommend that the parent seek appropriate 
custody and, other orders to restrain the travel of the child. If the 
case involved a dual national child, we would likely recommend that a 
copy of the subsequent court order be sent to the appropriate foreign 
embassy, though we would caution that passport issuances by that 
embassy are governed by the laws of its own government. We would also 
recommend that a copy of the court order be sent to airline companies, 
which service the possible destination country.
    Finally, and irrespective of any court activity, we would strongly 
recommend to any parents fearing abduction of their U.S. citizen 
children that they enter their children's names in the Children's 
Passport Issuance Alert Program (CPIAP).

    Question 3. Do you think it is reasonable to advise an American 
parent concerned about the abduction of his/her children to an Islamic 
Law country to go through the time, energy and money to try to obtain a 
Mirror Order in that country?

    Answer. Our advice in this regard would depend on the particular 
case. There are circumstances in which such an order could help provide 
legal grounds for the return of a child.

    Question 4. What can the Department of State do to assist parents 
in giving official notice to foreign embassies in a case where a U.S. 
court has prohibited issuance of a passport to a child the court 
believes is at risk of abduction? Is it standard procedure for the 
Department of State to submit a Diplomatic Note serving as official 
notice? If it is not standard procedure, why not?

    Answer. When requested, the Department assists parents in 
contacting foreign embassies about these matters. We typically 
recommend that parents contact the appropriate foreign embassy directly 
to convey information and documentation about such a case and, when 
necessary, we have contacted the foreign embassy to facilitate parental 
contact. Passport issuances by a foreign embassy are guided by the laws 
of that embassy's government, so a U.S. court order cannot be enforced 
on a foreign embassy. That said, the Department believes foreign 
embassies should be aware of U.S. court orders concerning passport 
issuances to minor children and consider such orders in deciding 
whether a passport should be issued.

    Question 5. What can the U.S. Government do about a foreign embassy 
or diplomat that issues a passport for a dual-national American child, 
who is later abducted; if evidence is presented that a parent, 
attorney, or U.S. court provided that embassy with court orders 
prohibiting issuance of a passport for that child?

    Answer. Issuance of passports by a foreign embassy is guided by the 
laws of that embassy's government. The issuance of foreign passports is 
not governed by U.S. law. While the United States Government can help 
parents and local authorities inform foreign embassies of court orders 
related to a passport application, the U.S. Government has no authority 
to prevent a foreign government from issuing a passport to one of its 
citizens, even a dual national.

    Question 6. Please provide a list of cases where a parent has 
submitted court orders to the Department of State because they fear 
that their child may be internationally abducted. Include case number, 
parties' names; court, county and state; foreign country involved and 
indicate whether supervised visitation was ordered or whether the child 
was abduction (if abducted, date of abduction and age of child).

    Answer. The Department of State does not have that kind of 
information readily available for the more than 26,000 entries in the 
Children's Passport Alert Program (CPIAP) and active parental child 
abduction case files. Court orders are not required and, in fact, 
rarely submitted for a CPIAP entry to be made, but become relevant at 
such time as a passport application is submitted on behalf of the 
child. Court orders are also not required for an active abduction case 
to be established with the Abduction Unit.

    Question 7. Is CA willing to strengthen the language on their Web 
site regarding the need for U.S. courts to order supervised visitation 
(by an independent visitation center) and sole custody when children 
are at risk of being abducted to Islamic Law countries?

    Answer. The Bureau of Consular Affairs (CA) reviews on an ongoing 
basis the information provided on our Web site to ensure that we best 
inform members of the public about the potential for international 
parental child abduction and various prevention measures available to 
protect children at risk of abduction. CA gathers and posts information 
about foreign country laws and practices that might either increase the 
risk of international parental abduction or lead to the unlawful 
retention of a child. For example, we have flyers on both Sharia Law 
and Marriage to Saudis that provide information relevant to custody 
issues and parental rights. We encourage parents and their attorneys to 
bring potential risk factors to the attention of relevant U.S. courts. 
We strongly advise parents to share with courts hearing custody or 
access cases the information the Department posts regarding foreign 
country laws and practices, particularly for those countries with laws 
that could hinder recognition or enforcement of a U.S. court order; 
pose barriers to a U.S. parent's ability to maintain access to his/her 
child; prevent the return of a child to a parent; or otherwise hinder 
the operation of a U.S. court custody decision. We will continue to 
review and update the information provided on our Web site to assist 
parents, attorneys, judges and others to understand obstacles posed in 
certain countries to enforcement of U.S. orders.

    Question 8. Both California and Texas have now enacted laws 
enabling courts--where there is substantial, credible risk of 
international parental abduction--to order that only supervised 
visitation may take place between the child(ren) and the non-custodial 
parent either in the presence of a third party or in a designated 
``safe house.'' Could the Department list both laws under the 
``Legislation'' section on its otherwise thorough Web page?

    Answer. We appreciate this useful suggestion and have added the 
links to our Web page.

    Question 9. I commend the Department of State for reinstating 
information on ``Marriage to Saudis'' on its Web site. What other ways 
do you believe the Department of State can help advise American women 
prior to marrying a national of an Islamic Law country about the impact 
on their and their children's lives, e.g. that their children would be 
considered nationals of that country subject to their laws, and that 
American women and children can be restricted from exiting. (For 
example, ``provide them a fact sheet when they apply for a Fiance 
Visa?)

    Answer. The Bureau of Consular Affairs, through our Consular 
Information and Outreach Programs, attempts to provide all interested 
Americans with factual information that will enable them to make 
informed decisions about potential risks in traveling or living 
overseas. The interpretation and application of Islamic law varies 
widely from country to country. The Marriage to Saudis leaflet states 
that ``The information in this circular relating to the legal 
requirements of specific foreign countries is obtained from past 
experience and is not necessarily authoritative. Questions involving 
interpretation of specific foreign laws should be addressed to foreign 
counsel.''
    We have posted general information on marrying abroad on the State 
Department Web site, with links to specific information on many 
countries. We also have a flyer entitled ``Islamic Family Law'' that is 
a basic primer on marrying into a Muslim family. Again, since practices 
vary so much from country to country, and within a country, we can only 
provide a general guide. We encourage Americans to consult a lawyer on 
specific laws and regulations in different countries.
    The Department of State is always looking for new ways to provide 
information to Americans traveling and living abroad. We will soon 
include a flyer with contact information for the State Department and 
our Web site with all new passports. The passports, themselves, will 
soon have the Department of State's Web site address--
www.travel.state.gov printed on the inside cover. We would welcome 
suggestions on this subject from any interested member of the ommittee.

    Question 10. Has Department of State staff or contractor provided 
expert testimony in court cases regarding international parental child 
abduction? If so, please provide a list of all cases, with cause 
number, parties' names; court, county and state; foreign country 
involved; Department employee or contractor who testified; and dates of 
testimony.

    Answer. Department staff and contractors have not provided such 
testimony.

    Question 11. Has Department of State staff or contractors made 
public presentations regarding international parental child abduction? 
If so, please provide a list including name of presentation, contact 
information for sponsoring organization, date, and name(s) of 
Department employee/contractor(s) who presented.

    Answer. Department of State representatives, including employees in 
the Office of Children's Issues, often speak publicly as part of our 
outreach efforts. This includes presentations at meetings and 
conferences held by bar associations; judicial training programs; and 
Town Hall meetings for left-behind parents. We believe such outreach to 
be an important function in our efforts to increase awareness of the 
issue of international parental child abduction, and inform the public 
of the resources available in combating the problem.

    Question 12. What more can the State Department do with regard to 
improving the dissemination of information and training programs for 
U.S. Family Law courts and individual State Bar Associations on this 
issue (e.g., through the National Council for Juvenile and Family Law 
Judges, American Bar Association, etc.?).

    Answer. We agree that additional outreach and training for U.S. 
judges is important to U.S. Government efforts to address the problem 
of international parental child abduction. Working with other U.S. 
Government agencies as well as judicial and legal associations, we 
participate in training programs on a regular basis, and will continue 
to do so. We also provide informational materials to judges and 
attorneys through our Web site, and will be exploring ways to make 
these materials more useful.

    Question 13. How many abducted American children remain in:
        Saudi Arabia?
        Syria?
        all other Islamic Law countries?

    Answer. Although your question refers specifically to abducted 
children, in order to be most responsive, we are providing information 
on abduction and access cases in which Department assistance has been 
requested. Current active abduction and access case records maintained 
by the Office of Children's Issues as of mid-September 2003 identify 35 
U.S. citizen children under 18 years of age who remain in Saudi Arabia 
and 30 who remain in Syria. Most, but not all, of these children were 
abducted from the United States or are retained abroad against a U.S. 
parent's wishes. Active cases involving another 137 U.S. citizen 
children remaining in other non-Hague Convention countries in the rest 
of the Middle East. The Office of Children's Issues has reports of 24 
abducted or wrongfully retained children in the South and Southeast 
Asian countries of Bangladesh, Indonesia, Malaysia and Pakistan, where 
custody decisions are often based on Islamic legal principles.

    Question 14. Have any children been returned from Saudi Arabia, 
Syria, and other Islamic Law countries through legal means (not those 
arranged privately by the parents)? Please provide specifics on those 
cases.

    Answer. During the past twelve months, approximately thirty-five 
children have been returned from countries in which Islamic Law 
predominates, including Saudi Arabia, Jordan, Egypt, Lebanon, the West 
Bank, and Indonesia. The circumstances leading to the return of these 
children included law enforcement efforts (arrest in the U.S. of the 
abducting parent), U.S. Embassy intercession to facilitate the return 
of the children, action by the left-behind parent to bring the children 
back without the abducting parent's consent and, in one case involving 
two children, direct assistance from the host government when there was 
credible evidence of neglect by the abducting parent. Most of the cases 
involved some form of Department assistance in facilitating the return, 
including one or more of the following: temporary Embassy refuge, 
escort, travel documentation, and access to USC crime victim 
assistance.

    Question 15. What is the Department of State doing about the case 
of Amjad Radwan (b. 1983), a U.S. citizen (daughter of U.S. Citizen 
Monica Stowers) who would like to have the ability to leave Saudi 
Arabia but is being denied that right?

    Answer. We are holding the Government of Saudi Arabia to a 
commitment made in September 2002 that adult American women would be 
free to travel out of Saudi Arabia to the U.S. We have raised several 
such cases with the Foreign Minister. To date, five American women have 
received exit visas, several more have been promised permission to 
leave should they request it, and one woman has departed Saudi Arabia 
against the wishes of her male guardian, after receiving exit 
permission from the Government of Saudi Arabia.
    The Government of Saudi Arabia issued Ms. Radwan an exit visa to 
travel to the U.S. in September 2002, but she chose not to travel at 
that time. Ms. Radwan attempted to travel with her uncle to Bahrain 
recently, but Saudi border guards prevented her departure. The Embassy 
has repeatedly tried to contact Ms. Radwan and her mother by telephone 
and in writing to see if she needs further assistance. Ms. Radwan has 
not returned our messages. We stand ready to offer any and all consular 
services to her, including assistance in departing Saudi Arabia if she 
wishes to do so.

    Question 16. In response to Question for the Record number 2 for 
House hearings on October 2, 2002, the Department of State reported 
that only one visa request has been denied in Saudi Arabia to an 
abductor since 8 U.S.C. S1182(a)(10)(C)(ii) was added to the U.S. 
Immigration and Naturalization Act in October 1998. What are the latest 
figures and why haven't more visas been denied?

    Answer. A check, of our look-out system shows that there are nine 
entries of various nationalities indicating potential inadmissibility 
under 212(a)(10)(C)(ii).
    In order to deny someone a visa under section 212(a)(10)(C)(ii), 
they must first make an application. We believe that many of those who 
have abducted American citizen children abroad, or family members who 
have aided or abetted an abduction, are reluctant to apply for U.S. 
visas. Others may not require visas for travel to the U.S., either 
because they are legal permanent residents or already possess U.S. 
citizenship. This may account for the relatively low number of denials 
under this provision.
    In addition, however, our ability to use this provision is often 
dependent upon: (a) the left-behind parent or other person choosing to 
make the Department of State aware of the abduction; or (b) the left-
behind parent or other person choosing to provide us with information 
sufficient to identify persons potentially inadmissible under the INA.
    The relatively few visa denials under Section 212(a)(10)(C)(ii) 
should therefore not be seen as an indicator of our determination to 
use this provision of the law against child abductors. On the contrary, 
we have made it clear that we will use every legal tool at our disposal 
to resolve cases of international parental child abduction, including 
denial of visas to abductors and those who aid and abet them.

    Question 17. The Department of State Web site states that ``one 
important factor in obtaining custody in Syria is whether the Syrian 
parent has registered either the marriage or the child's birth with 
Syrian authorities.'' What can the Department of State do to assist 
parents in obtaining this information? Is CA willing to add to this Web 
page the fact that even if the child has not been registered at the 
time of inquire, the Syrian parent can register the child at any time 
thereafter, and obtain a Syrian passport for the child, without notice 
to the other parent?

    Answer. The Department of State can attempt to verify whether a 
marriage or a child's birth has been registered with Syrian 
authorities. The parent would need to provide us with specific 
information, such as the child's full name, including the father's 
complete family name and a date of marriage and where the marriage 
ceremony was performed. Syrian authorities may decline to provide us 
with this verification, but we are willing to try on behalf of an 
American citizen.
    We welcome your suggestion that we update the country flyer on 
Syria concerning child registration and passport issuance to reflect 
the fact that a Syrian parent can register the child at any time to 
obtain a Syrian passport for the child, without notice to the other 
parent. We will confirm that this is the case in Syria, and if so, will 
add that information to the flyer.

    Question 18. There is concern about the fact that an individual 
associated with, or recommended by, the Department of State's Bureau of 
Consular Affairs works to undermine efforts to prevent abduction. 
According to an e-mail from the Office of Children's Issues dated 8/15/
02, staff recommend Kristine Uhlman as ``an excellent resource and can 
help you with things like changing your name and preventing an 
abduction.'' It is unclear what criteria the Department of State uses 
to make these types of recommendations. Kristine Uhlman herself in 
court testimony represents herself as a consultant to the Department of 
State. However, in the case of Lauderdale v. Kabbani in Houston, TX in 
2002, she represented a dual national Syrian who had threatened to 
abduct their two young daughters, against an American mother who was 
concerned for the girls' safety and was requesting protection from the 
court. Please clarify what Ms. Kristine Uhlman's affiliation is with 
the Department of State, past and present.

    Answer. We are not aware of the referenced email, or the context in 
which it was sent. Along with several other left-behind parents, on two 
occasions Ms. Uhlman has spoken about her experience with international 
parental child abduction to consular officers enrolled in the State 
Department's advanced Consular training course. She has not had and 
does not have any other affiliation with the Department of State.

    Question 19. Can you describe for us how the abduction process 
works in reverse, in other words, when parents abduct their children 
from their home of residence overseas and bring them here to the United 
States? What is the Department's role in these cases and how many are 
there? How many children have been returned from the U.S. to their 
country of habitual residence?

    Answer. In cases where the country of the child's habitual 
residence does not have a treaty relationship with the United States 
under the 1980 Hague Convention on the Civil Aspects of International 
Child Abduction (``the Convention''), the Department of State's Office 
of Children's Issues generally is not directly involved in the case. 
Instead, the parent may seek the assistance of an attorney in pursuing 
U.S. court enforcement of a foreign custody order or a U.S. custody 
ruling. The parent may seek his or her own government's assistance in 
chedking on the child's welfare or in working through local law 
enforcement to initiate appropriate INTERPOL alerts regarding the child 
and or the taking parent. The parent may also seek the assistance of 
the Natignal Center for Missing and Exploited Children to locate the 
child or file a request with the Office of Children's Issues that he or 
she be notified if a U.S. Passport application is filed for a U.S. 
citizen child.
    In cases involving a child whose habitual residence is in a country 
that does have a Hague Convention treaty relationship with the United 
States, federal regulations specify that the National Center for 
Missing and Exploited Children Act will act under the direction of the 
Department's Office of Children's Issues (the U.S. Central Authority 
under the Convention) to receive and process Hague return and access 
applications. However, not all such Hague applications for access or 
return are processed through the National Center. Under the Convention, 
the requestor may either file the Hague application with the Central 
Authority of the country where the child is believed to be located or 
directly with a competent court. In the U.S., applications may be 
submitted to either the federal or state court in the area where the 
child is located. The National Center is not always aware of cases not 
submitted through their office for processing.
    The National Center's International Division vets Hague 
applications submitted to them, helps locate a child whose U.S. 
whereabouts are unknown, and provides the foreign parent with 
information about obtaining legal representation to file a return or 
access request with an appropriate U.S. court. The National Center also 
provides the foreign Central Authority in the country of habitual 
residence with status reports on the progress of the return application 
through the U.S. courts.
    Statistics on total returns of children from the United States to 
their countries of habitual residence are not available. However, 
National Center case records for recent years indicate that the 
following numbers of children were returned to fellow Hague Convention 
countries after a Hague application was received by the National 
Center:

 
----------------------------------------------------------------------------------------------------------------
         Year              Court Ordered Return      Voluntary or Negotiated Return              Total
----------------------------------------------------------------------------------------------------------------
2000                    80                           99                              179
2001                   109                           67                              176
2002                    85                           84                              169
----------------------------------------------------------------------------------------------------------------


    Question 20. Has the regulation requiring both parents' consent for 
a child to obtain a U.S. passport, or for a single parent to prove that 
they have sole custody helped prevent abductions, or are there easy way 
around this provision?

    Answer. We believe that the regulation, which has been in place 
since July 2, 2001, has helped to prevent international child 
abductions. However, the new requirement is not fool proof and we are 
aware of a number of cases where the provision's existence has not 
prevented a determined parent from obtaining passports without the 
required consent. Moreover, the requirement does not prevent parents of 
dual-national children from applying for and receiving passports of 
their other nationality, if they are entitled to do so.
    The Children's Passport Issuance Alert Program (CPIAP) is a 
valuable additional tool that assists parents to prevent passport 
issuance to U.S. citizen children at risk of international abduction. 
Once a child is enrolled in the program, a requesting parent will 
receive notification if a U.S. Passport Agency or a U.S. embassy or 
consulate abroad receives a passport application for that child. 
Information about the program is posted on the CA Web site and 
discussed with parents who contact the Office of Children's Issues or 
U.S. consular sections abroad to express concern about possible 
international abduction. The Office of Children's Issues, which 
processes requests for enrollment in the program, receives hundreds of 
new enrollment requests each year. Parents are encouraged to enroll 
their children to prevent U.S. passport issuance to a minor child 
without their knowledge.

    Question 21. How much training do junior Consular Officers receive 
prior to their assignments overseas? What about more senior Consular 
Officers and Deputy Chiefs of Mission?

    Answer. Officers going to consular assignments for the first time 
are trained for International Parental Child Abduction (IPCA) work as 
part of the ``American Citizens Services'' component of the Basic 
Consular Course. Our Consular Training Division is presently working on 
a separate module, to be included in the Basic Course, focused entirely 
on international parental child abduction. Mid-level officers going to 
assignments as consular managers take a three-week consular management 
course that includes a session on international parental child 
abduction. Finally, either the Assistant Secretary for Consular Affairs 
or a Deputy Assistant Secretary addresses the subject in both the 
Ambassadorial and Deputy Chief of Mission Seminars.

    Question 22. How are U.S. customs and immigration officials alerted 
to parental child abductors, or their agents, at points of entry?

    Answer. U.S. border inspectors currently have access to namecheck 
data bases that can alert them to foreign citizens applying for U.S. 
entry who are ineligible for visas as child abductors. In addition, 
passports of all travelers arriving at U.S. ports of entry can be 
namechecked against data that includes fugitives and individuals with 
outstanding federal warrants against them. While it is important to be 
able to identify abductors when they attempt re-entry to the United 
States, it is even more important to prevent international abductions 
in the first place.
    The Department of Homeland Security is developing U.S. entry/exit 
controls and we have highlighted to them areas in which new controls 
could assist law enforcement agencies to prevent the departure of an 
abducted child (or runaway) child. We remain engaged with the 
Department of Homeland Security and other agencies tasked with creating 
an effective entry/exit control system to ensure that it includes the 
ability to intercept children and their abductors before they depart 
the U.S.

    Question 23. Israel is the only country in the Middle East that has 
ratified the Hague Convention. In the five years, how many involving 
U.S. children abducted to Israel have been resolved with the return of 
the child(ren) to the U.S. parent? What is the status of the children 
of Jonah Gelernter, who were abducted to Israel by his wife even though 
he was awarded custody by a U.S. judge? What has been the level of 
Israeli cooperation in this and other cases?

    Answer. In the last five years, the Office of Children's Issues is 
aware of thirty-seven children who have been returned to the United 
States from Israel. There may be other returns of which we are not 
aware because the parent filed directly, through an attorney, with an 
Israeli civil court. Concerning the status of the children of Jonah 
Gelernter, the Israeli court issued an order of return on November 24, 
1998. On January 13, 1999, after attempts to locate the children and 
their mother had failed, the Court issued another order instructing the 
police to locate the children. To date, all efforts undertaken by 
Israeli police have failed to locate the children. The level of Israeli 
cooperation in this and other cases is good.

                                 ______
                                 

Responses of Hon. Maura Harty, Assistant Secretary of State, Bureau of 
 Consular Affairs, to Additional Questions for the Record Submitted by 
                         Senator Sam Brownback

    Question 1. Please submit the agreement(s) we have with Saudi 
Arabia regarding child abductions?

    Answer. Saudi Arabia is not a party to the Hague Convention on the 
Civil Aspects of International Child Abduction, nor are there 
international or bilateral treaties in force between Saudi Arabia and 
the United States dealing with international parental child abduction.
    We are working with the Saudi Government on a bilateral proposal 
for consular cooperation to improve access by parents to their children 
in our respective countries. A final text has not yet been agreed.

    Question 2. Who, specifically, was involved in the decision to 
remove Sweden from the three lists of countries about which the U.S. 
has ``concern'' regarding Hague compliance in the report submitted to 
Congress this year, even though at least 14 U.S. citizen children are 
still held in Sweden? And, what role did foreign policy considerations 
play with regard to the listing of particular countries in various 
categories as Hague ``violators'' or ``partially compliant'' or ``of 
concern''?

    Answer. The decision to remove Sweden from the list of countries 
considered noncompliant, not fully compliant or of concern was not a 
decision made by any one person. The evaluation of each country's 
performance was made in consultation with appropriate offices in the 
Department and the relevant posts abroad. Assistant Secretary Harty 
cleared the final report.
    Sweden was listed in our first compliance report in 1999 as 
noncompliant. At the time of the first compliance report, Sweden had 
recently demonstrated a pattern of delay in locating abducted children 
and had denied the return of a child notwithstanding a pre-existing U. 
S. court order that included a consensual agreement that the U.S. would 
remain the child's state of habitual residence and the U.S. state court 
would maintain exclusive jurisdiction to resolve future custody issues. 
In 2000, Sweden was listed as not fully compliant, reflecting ongoing 
difficulty with certain cases, but also progress made in resolving some 
cases and returning children. In the 2001 report, Sweden was listed as 
a country of concern. Although more children previously abducted to 
Sweden were returned to the U.S., concerns remained regarding Sweden's 
commitment to locate abducted children expeditiously and to enforce 
return and access orders issued under the Convention.
    The 2001 compliance report was the last report to provide specific 
discussion of problems related to individual return cases. The removal 
of Sweden from the categories of noncompliant and not fully compliant 
in 2001 reflected the extent to which Sweden had been responsive to the 
concerns raised in earlier reports when processing new Hague 
applications during the reporting period. A review of Sweden's 
performance in 2001 and 2002 in response to new return requests 
forwarded by the U.S. Central Authority indicated no issues of concern 
related to recent action taken on those cases and led to Sweden's 
removal from the list of countries of concern. As noted in the 2003 
report, the Office of Children's Issues continues to monitor closely 
Sweden's actions in each new case.
    As the compliance report is now issued on a yearly basis, 
successive reports have become a means to evaluate actions taken during 
the reporting period on cases of which the Department is aware and to 
reflect sustained, improved or deteriorating performance according to 
cases processed during the reporting period compared with a country's 
earlier actions.
    Several parents of children who are currently the subject of non-
Hague custody and access proceedings in Sweden have voiced concerns 
that more U.S. citizen children in Sweden require Department action on 
their cases. We stand ready to work with parents and encourage left-
behind parents to contact the Office of Children's Issues to request 
appropriate assistance. Future Compliance Reports will also include 
discussion of how countries enforce access orders.

    Question 3. Why was the description of Amanda Johnson's case, which 
appeared in the three previous reports, deleted altogether from the 
2003 Hague compliance report? And who, specifically, was involved in 
that decision, and who made the final decision?

    Answer. In deciding what case discussions to include in the main 
body of the 2003 compliance report, an evaluation was made based on a 
country's recent performance and whether discussion of a specific case 
would illustrate a particular problem that currently exists. It was not 
a decision made by any one person, but in consultation with appropriate 
offices in the Department and the relevant posts abroad. Assistant 
Secretary Harty cleared the final report.
    In the Amanda Johnson case, Mr. Johnson's Hague return application 
was considered by the Swedish courts in 1995 and 1996. The Department 
protested the Supreme Administrative Court's May 1996 decision to deny 
Amanda's return. Since then, Mr. Johnson has pursued non-Hague custody 
and visitation proceedings in the Swedish courts. Embassy and 
Department officials have discussed Mr. Johnson's case with him. We 
stand ready to work with Mr. Johnson in support of his efforts to have 
improved access and contact with Amanda.

    Question 4. Exactly how many children have been abducted, year-by-
year, since 1980? How many children have been returned, year-by-year, 
since 1980? How many cases are considered active?

    Answer. The Department of State began collecting statistics on 
international parental child abductions in 1996, but these statistics 
reflect only those cases reported to us. Parents are not obliged to 
inform the Department of State or any other government agency when they 
initiate inquiries and actions to seek the return of a child taken 
abroad. In countries that are not party to the 1980 Convention on the 
Civil Aspects of International Child Abduction (the ``Hague Abduction 
Convention''), legal remedies involve filings in foreign courts for 
which no Department of State or U.S. embassy intervention is required. 
Some parents attempt to settle disputes involving children through 
private civil extra-judicial methods like mediation and reconciliation 
without requesting assistance or informing the Department.
    When the Office of Children's Issues was created in 1994, it 
created a database primarily geared toward tracking action taken in a 
particular case rather than collection of statistics for reporting 
purposes. Beginning in 1996 the Office restructured the database to 
count the number of cases opened and closed, but did not reflect why a 
case was closed. Cases were closed when a child was returned to the 
United States but they were also closed for a variety of other reasons, 
such as the U. S.-resident parent withdrawing the request for return or 
the parent's decision not to pursue a case after a foreign court denied 
return. During this period, each case opened or closed represented one 
child. A case opened in one year may have been closed that same year or 
in a subsequent year. Thus, it is possible for the number of closed 
cases to exceed the number of open cases, as occurred in 1999. As 
already stated, the number of ``closed'' cases does not necessarily 
mean the children were returned.
    The pre-2000 database provides the following information about 
known abduction/retention cases:

 
------------------------------------------------------------------------
                                                  Cases Closed (for any
         Year               Cases Created                reason)
------------------------------------------------------------------------
1996                                       67                        10
1997                                      338                       280
1998                                      401                       398
1999                                      410                       441
------------------------------------------------------------------------


    In 2000, the Office of Children's Issues began using a new case 
management tracking system to monitor international parental child 
abductions known to the Department. The chart below summarizes the data 
from this tracking system.

 
------------------------------------------------------------------------
                          Children Abducted
         Year            Unlawfully Retained        Children Returned
------------------------------------------------------------------------
2000                                      510                       146
2001                                      557                       280
2002                                      455                       190
2003 \1\                                  169                       102
------------------------------------------------------------------------
\1\ January-early August 2003


    Again, these figures only reflect cases and events that have been 
reported to the Department's Office of Children's Issues. The totals 
may not reflect instances where the child has been returned but the 
return was not reported to the Department.
    The Department continues to work on enhancing its statistics 
gathering capability.

    Question 5. How does the State Department make the determination 
that a case is still active? Can a U.S. citizen child abducted to a 
foreign country be considered no longer active even if the child has 
not been returned to the U.S.?

    Answer. An abduction or access case remains active as long as the 
child remains abroad, and the left-behind parent, working with the 
Office of Children's Issues, continues to pursue the child's return or 
access to the child through various possible remedies. There are also 
instances where the Office of Children's Issues, working with the 
parent, will open an active prevention case even after a child's return 
to the U.S.
    Circumstances under which the Office of Children's Issues closes 
cases include: (1) the child returns to the U.S.; (2) the left-behind 
parent requests that the case be closed; (3) the left-behind parent 
cannot be located for over two years, despite efforts to maintain 
contact; or (4) the child turns age 18, at which point the Bureau of 
Consular Affairs would maintain interest in the person's welfare, but 
he/she would be treated as an adult and handled by the Office of 
American Citizens' Services (ACS).

    Question 6. In the State Department's annual Hague Convention 
compliance reports to Congress, why has Consular Affairs decided to 
consider cases ``resolved''--and thus not reportable to Congress--as 
soon as the foreign government makes a final decision not to return a 
child?

    Answer. The Office of Children's Issues reports as ``resolved'' 
cases that are determined by the U.S. Central Authority to be 
``closed'' as Hague cases or ``inactive.'' This is a technical 
designation, and does not necessarily mean an end to the Department's 
involvement in seeking a resolution. Like other signatory countries, 
the U.S. Central Authority closes or inactivates Hague cases for a 
variety of reasons. These include: return of child; parental 
reconciliation; withdrawal of a request for assistance; inability to 
contact the requesting parent after numerous attempts over a two-year 
period; exhaustion of all judicial remedies pursuant to the Convention; 
or access rights granted and enforced. In all such cases, regardless of 
the outcome, no further proceedings pursuant to the Convention are 
anticipated. Considering these cases ``resolved'' and closing them as 
Convention cases is consistent with the practice of other Convention 
signatories. More specifically, we will close a Hague case if the 
circumstances definitively require it, such as the return of a child or 
upon the specific request of the parent. We will ``inactivate'' a case 
when, in the absence of such definitive circumstances, the facts of the 
case do not allow, or the parent does not permit, a further reasonable 
pursuit of central aspects of the case. Two years after inactivation, 
and in the absence of further relevant initiatives by the left-behind 
parent, the case will be closed.
    The exhaustion of all judicial remedies pursuant to the Convention 
may result in a case that is ``closed'' under the terms of the 
Convention, but that has been resolved in a way that is unsatisfactory 
to the U.S. and the left-behind parent. The resolution of the case may 
or may not have been consistent with the Convention's requirements, 
independent of whether the left-behind parent is satisfied. Even when 
the Hague return aspects of a case have been closed, however, the U.S. 
Central Authority stands ready to provide assistance to the left-behind 
parent by facilitating access (which may be sought under or 
independently of the Convention), reporting on the welfare of the 
child, or assisting the parent to achieve a more satisfactory solution. 
When a foreign court decision on the Hague aspects of a case indicates 
a disregard for or failure to properly apply the Convention's 
provisions, the U.S. Department of State may register its concern and 
dissatisfaction with the decision through the Foreign Central Authority 
or diplomatic channels. The Secretary of State, other senior Department 
officials and U.S. Ambassadors have raised international parental child 
abduction issues and specific cases with foreign government officials 
on numerous occasions.
    We work with the left-behind parent to determine whether there are 
further actions, for example the pursuit of an access order or 
mediation between the parents, with which the Office of Children's 
Issues can assist. If the parent wishes to pursue other avenues for 
access to or return of their child, we stand ready to provide 
appropriate assistance. There have been cases where left-behind parents 
have continued to pursue custody or access in foreign courts and not 
kept the Office of Children's Issues informed or requested any 
assistance. In such cases, and in the absence of information from the 
parent on these actions, the case will be ``closed'' to enable our 
officers to focus their attention on those cases in which their 
involvement and assistance has been requested.

    Question 7. Which countries have the means in their legal systems 
to enforce access/visitation or actual return orders for abducted 
American children? Why is such a listing not on the State Department's 
Web site and why is it not included in the Hague compliance reports 
despite congressional interest in this point?

    Answer. The Department of State continues to gather information 
regarding family law procedures in Hague partner countries. For many of 
our 52 partners, this information has been posted in country-specific 
flyers on the Department of State Web site. We realize that a number of 
our Hague partners are not currently covered by a flyer and we have 
requested information from our embassies and consulates in Hague 
partner countries' to enhance the information that we make available on 
those partner countries. The Hague Compliance Report covers problems 
with Hague partner countries enforcement or other problems in their 
ability to meet their Hague treaty obligations.

    Question 8. Do you agree that left-behind American parents of 
abducted children have a right to know (and see in documentary form) 
everything their government has done or failed to do to bring their 
children home? If so, how do you explain the extreme difficulties and 
delays experienced in this area (including Freedom of Information Act 
requests) by American parents? For parents who sign a Privacy Act 
waiver, will you make a commitment to make case files completely open 
and available to left-behind parents, and to share them with NCMEC if 
the parents so request?

    Answer. We do agree that left-behind U.S. citizen parents have a 
right to know what their government has done and is continuing to do on 
their behalf to secure the return of their abducted children.
    Difficulties parents may have experienced obtaining copies of 
records relating to their children have been due primarily to the many 
requests for information that have been submitted to the Department. 
The Department is actively engaged in attempting to reduce the backlog 
of both Freedom of Information Act and Privacy Act requests.
    We can assure you that parents who sign Privacy Act waivers on 
behalf of their minor children have been able and will continue to be 
able to access their children's files in a manner consistent with the 
provisions of the Privacy Act. We would have no objection to sharing 
information with the NCMEC at the behest of the left-behind parents as 
we currently share such information with the Center pursuant to the 
Privacy Act's ``routine use'' condition of disclosure.

    Question 9. How do you explain the disparity in Hague Convention 
return rates between the U.S. (90 percent) and civil law countries 
(i.e. countries other than the UK, Canada and Australia), where it is 
probably less than 20 percent? What pressure does the State Department 
bring to bear on such governments and how is this decision affected by 
foreign policy considerations?

    Answer. Each return application case involves unique circumstances 
and a decision to return or deny return must be based on the issues 
raised in each individual case. For that reason, we believe it is 
misleadihg to look only at the statistic of how many times a court 
denied return versus how many returns were granted. Under the Hague 
Convention there are legitimate reasons for a court to deny a child's 
return. Over time, some Hague Convention partner countries and their 
courts have taken positive steps to educate local government and 
judicial officials, with the result that there has been a decrease in 
the number of returns that are denied for reasons that are inconsistent 
with the aims of the Convention.
    When a foreign court denies the return of a child under the Hague 
Convention, the Department reviews the text of the court's decision to 
determine if the reason(s) given for denial are permitted under the 
Convention. In cases where the Department determines that a court 
decision conflicts with the principles and objectives of the 
Convention, the Department voices its concerns to the foreign Central 
Authority that coordinates implementation of the Convention and 
requests foreign Central Authority assistance in pursuing available 
remedies, such as appeals.
    In some instances, courts hearing Hague return applications 
inappropriately consider custody issues that should be reserved for 
consideration in the courts in the child's habitual residence. 
Compliance can be improved by educating judges about the Hague 
Convention. The Department has been working with The Hague Permanent 
Bureau and countries such as the United Kingdom, Germany, Australia and 
Mexico to provide judicial training workshops that improve judicial 
understanding of the Convention. This fall we hope to expand this 
effort to include judges from several other European countries.

    Question 10. Why did the State Department exclude American left-
behind parents from the U.S. Delegation to the 2001 Hague Convention 
Review Conference?

    Answer. The considerations that go into putting together a 
delegation vary, but generally include considerations of size and the 
most effective way to represent the interests of the United States, In 
the case of the 2001 Hague Special Commission Meeting, when several 
left-behind parents expressed an interest in participating on the U.S. 
delegation, we did not have a mechanism to select just one or two 
parents in a way that was equitable and that would be accepted by those 
parents not selected to participate.
    We do recognize, however, that there may be Special Commission 
Meetings at which parents' views and participation would be valuable to 
the U.S. delegation. Parents are also able to attend such meetings, 
regardless of the topic to be discussed, as part of non-governmental 
organizations' delegations.

                                 ______
                                 

Responses of Hon. Maura Harty, Assistant Secretary of State, Bureau of 
 Consular Affairs, to Additional Questions for the Record Submitted by 
                      Senator George V. Voinovich

    Question 1. As Austria has been adjudicated as having violated the 
human rights of Thomas and Carina Sylvester, what specific actions will 
the Office of Children's Issue take to persuade the Austrian Government 
to assist in the return of Carina Sylvester to the United States--even 
if for just a visit to her father? How quickly will your plans be 
implemented?

    Answer. We are extremely frustrated by the Austrian Government's 
non-responsiveness on the Sylvester case. Secretary Powell, Ambassador 
Brown, and many others have emphasized to all levels of the Austrian 
Government the importance of restoring meaningful contact between Tom 
and Carina Sylvester. Vienna has responded by offering up arguments 
that have been refuted or conditions that Mr. Sylvester has already met 
or agreed to meet in return for reasonable access to his daughter.
    One of my first meetings as Assistant Secretary was with the 
Austrian Ambassador. I pressed him to look at ways to bring Tom and 
Carina Sylvester together. The Ambassador indicated he would raise the 
issue with his government in Vienna. That meeting was in January 2003.
    I have received no response. Austria has also not responded 
formally to our request for information about how the Austrian 
Government intends to respond to the April decision by the European 
Court of Human Rights, to which your question refers.
    On July 14, 2003, I met with the Austrian Central Authority and the 
Ministry of Justice with mixed results. The meeting with the Austrian 
Central Authority regarding this case was disappointing. The Central 
Authority expressed the belief that Mr. Sylvester was receiving 
adequate access to his daughter, which was certainly not the case, and 
maintained that he was not receptive to suggestions to try to improve 
the situation. On the other hand, the Minister of Foreign Affairs and 
her staff appeared to recognize that the Sylvester case needed 
attention and have begun to explore how they might seek progress. We 
expect to consult with them in September, and will press them to do 
whatever is necessary to bring Tom and Carina closer together.

    Question 2. What specific actions will be taken to improve the 
situation for abducted/retained American children and their left-behind 
parents, and to ensure that the subject of international child 
abduction of American children is given greater attention on the 
Department of State list of priorities.

    Answer. Thanks in no small part to the interest of Congress, the 
public and, of course, the left-behind parents themselves, 
international parental child abduction is already an important issue 
for the foreign policy of the United States. The need for high-level 
concern and involvement in recovering these children has been made 
clear to our Chiefs of Mission and senior Department leaders. 
Instruction in the handling of parental child abduction cases is 
increasingly a part of the Department's training and pre-departure 
consultations for officers headed overseas. Parental child abduction 
cases increasingly rise above the level of the desk officer and consul 
and now involve more senior foreign policy managers, both in the 
Department and at our missions overseas.
    Difficult cases are now more likely to be raised with host 
governments as a significant element of our bilateral relationship.

    Question 3. In problematic abduction cases, would the State 
Department agree to inform left-behind parents of all contacts State 
Department makes of plans with representatives of the country into 
which the child was abducted?

    Answer. Department officers make every effort to keep the left-
behind parents in all our cases informed of what actions are being 
undertaken to recover their children. This should certainly be the case 
regardless of whether a case is problematic or not. I believe it is 
largely being done, but we will most certainly ensure that it is 
happening as part of our standard procedures.

    Question 4. Will the Department of State publish a complete, 
accurate and renewed report on foreign government compliance with the 
Hague Convention of the Civil Aspects of International Child Abduction 
and disseminate such a report to the American public?

    Answer. The Department's annual Hague compliance report to Congress 
is provided to the public on the Bureau of Consular Affairs Web site, 
www.travel.state.gov. This report is now an annual requirement.

    Question 5. What efforts will be taken to include information on 
each country's child custody and visitation system, including 
enforcement measures, if any, and the human rights aspect of 
international child abduction/retention cases and related access/
visitation matters in the Children's Rights sections of the Department 
of State's annual country human rights reports?

    Answer. We are examining this issue in conjunction with the Bureau 
of Democracy, Human Rights, and Labor, which is responsible for 
monitoring human rights issues and preparing the Department's annual 
Human Rights Report, as well as with other interested bureaus in the 
Department.

                                 ______
                                 

Responses of Hon. Maura Harty, Assistant Secretary of State, Bureau of 
 Consular Affairs, to Additional Questions for the Record Submitted by 
                       Senator Blanche L. Lincoln

    Question 1. As you understand it, what is the current position of 
the government of the Kingdom of Saudi Arabia regarding the request 
made by Secretary of State Colin Powell in October, 2002 that Heidi Al-
Omary be allowed to return to her rightful home in the United States? 
Please articulate any response or responses received from the Saudi 
government regarding the request.

    Answer. The Saudis have created an interministerial commission to 
work with us towards solutions to the problem of abducted and illegally 
retained children, including Heidi Al-Omary, and we continue to push at 
every level for action. The Office of Children's Issues and our Embassy 
in Riyadh worked closely with the interministerial commission to 
establish parameters that enabled Heidi's mother, Margaret McClain, and 
her two adult children to obtain a family visit visa to Saudi Arabia to 
see Heidi. In May, Ms. McClain spent five days with Heidi in Saudi 
Arabia. While we welcome the Saudi government's cooperative efforts in 
facilitating Ms. McClain's access to Heidi, we nonetheless continue to 
remind the Saudi government that our ultimate goal is Heidi's return to 
the United States.

    Question 2. Has the State Department received any communications 
from the government of the Kingdom of Saudi Arabia that would indicate 
authorities in Saudi Arabia intend to comply with the request from the 
U.S. government that Heidi be returned to the United States?

    Answer. We have yet to receive an official response to our requests 
that the government of Saudi Arabia assist in returning Heidi to the 
U.S. However, Foreign Minister Saud al-Faisal has assured the 
Department of his personal commitment to resolving these cases. We will 
continue to seek a favorable response to individual cases, such as 
Heidi's.

    Question. 3. Please articulate in English the message that was 
transmitted to the government of Saudi Arabia regarding the formal 
request that Saudi Arabia surrender custody or Heidi Al-Omary. In what 
manner and from whom has this message been communicated? Please attach 
a copy of any written communications regarding this matter.

    Answer. Each time a Department principal has traveled to Saudi 
Arabia to press for the return of all abducted or illegally retained 
American citizen children in the Kingdom, we have provided the Saudis a 
Diplomatic Note which includes summaries of each case, including that 
of Heidi Al-Omary. In addition, Department of State principals, 
including Secretary Powell, Assistant Secretary Maura Harty, and 
Ambassador Robert Jordan, have verbally sought Heidi's return in their 
meetings with Saudi officials.

    Question 4. What steps has the State Department taken since 
Secretary Harty took office to ensure that Heidi Al-Omary is returned 
to her rightful home in the immediate future? Please list any follow-up 
communications relating to efforts by the State Department to return 
Heidi to the United States.

    Answer. In January and again in April, Assistant Secretary Harty 
traveled to Saudi Arabia to raise the issue of international parental 
child abduction, including the case of Heidi Al-Omary, with Saudi 
government officials. Since those trips, and the establishment of the 
Saudi interministerial commission in January, we have seen ten 
Americans returned to the United States from Saudi Arabia.
    Department officials have been speaking with and meeting regularly 
with Saudi Embassy officials to press for the return to the U.S. of the 
abducted children, including Heidi. Since the beginning of the year, 
Saudi Embassy officials have met with Department representatives 
frequently about these cases, and we intend to meet with these 
officials on a regular basis until all the cases are resolved.

    Question 5. Please list the names and titles of Saudi government 
officials with whom Secretary Harty has met in Saudi Arabia in an 
effort to recover Heidi Al-Omary and other abducted American children 
from Saudi Arabia.
    Please articulate the results, if any, of those communications 
regarding the case of Heidi Al-Omary?

    Answer. During her visit to Saudi Arabia in January 2003, A/S Harty 
raised the issue of international parental child abduction and wrongful 
retention with officials from the Ministries of Foreign Affairs and 
Interior. On her trip to Saudi Arabia in April 2003, A/S Harty raised 
the cases of abducted American citizen children, including Heidi Al-
Omary, with high Saudi government officials including Foreign Minister 
Saud Al-Faisal; Deputy Foreign Minister and Chairman of the 
Interministerial Commission Ibrahim Al-Khurashi; Assistant Minister of 
Interior Mohammed bin Naif; Governor of the Eastern Province Mohammad 
bin Fahd; and Director General of Makkah Region Dr. Abdulaziz H. Al-
Sowayegh.
    A/S Harty highlighted the U.S. and Saudi Arabia's shared commitment 
to addressing the problem of international parental child abduction in 
her meeting with Foreign Minister Saud Al-Faisal. She also requested 
his assistance in resolving cases of American women who wish to depart 
Saudi Arabia.
    In her meeting with Deputy Foreign Minister Al-Khurashi, A/S Harty 
expressed the USG's thanks for the efforts put forth by the 
Interministerial Commission in conjunction with the U.S. Embassy in 
Riyadh on cases, including Heidi Al-Omary, who have been abducted to, 
or wrongfully retained in, Saudi Arabia, as well as on behalf of 
American women who wish to depart Saudi Arabia despite the objection of 
their male guardian. She emphasized, however, that greater cooperation 
is required and that access in any given case is no substitute for the 
return of a child--our ultimate goal.
    A/S Harty requested Governor Mohammad bin Fahd's assistance in 
ensuring the success of the visit by Margaret McClain to Heidi.

    Question 6. Does the Executive Branch have the authority, without 
additional Congressional authorization, to impose sanctions on Saudi 
Arabia for failing to comply with official requests to return abducted 
children like Heidi Al-Omary? If not, are there other reasons upon 
which sanctions against Saudi Arabia can be imposed under current law?

    Answer. The Department of State never stops pressing for return to 
the United States of American children abducted or wrongfully retained 
abroad, in whatever country the abduction or retention occurs. These 
cases are not limited to Saudi Arabia.
    In furthering our foreign policy goals, economic sanctions are just 
one of many foreign policy tools that might be available to the 
Administration, depending on the circumstances. For example, under the 
International Emergency Economic Powers Act (IEEPA), the President may 
impose various economic sanctions against foreign entities or 
individuals. The authorities provided to the President by the IEEPA, 
however, may be exercised only if the President declares a national 
emergency with respect to an unusual and extraordinary threat, which 
has its source in whole or substantial part outside the United States, 
to the national security, foreign policy or economy of the United 
States.

    Question 7. What punitive actions do you think are appropriate 
against Saudi Arabia when it refuses to comply with U.S. requests to 
return abducted children? At what point after a request has been made 
and not responded to do you believe punitive measures should be pursued 
or at least actively considered?

    Answer. The Department of State will never stop pressing, within 
the parameters of current law and practice, for our goals in resolving 
cases of international parental child abduction and wrongful retention. 
Our goals are and will continue to be nothing less than the return of 
children abducted abroad or access for left behind parents to their 
children in foreign countries. Our preference is to achieve these goals 
through progressive negotiation and diplomatic mediation rather than 
through punitive measures.

    Question 8. Under the current policy in Saudi Arabia (as you 
understand it), are you confident that adult female U.S. citizens who 
were abducted in violation of a custody order issued by a court in the 
United States will have a meaningful opportunity to leave the Kingdom 
upon reaching the age of majority (age 18 or older) without the 
permission of a male relative?

    Answer. The Government of Saudi Arabia made a commitment in 
September 2002 that all adult American women would be free to travel 
out of Saudi Arabia. We understand this commitment to apply to all 
adult American women, including adult U.S. citizens abducted as 
children in violation of a custody order. In every case we have raised 
with the Foreign Minister since his government made this commitment, 
Saudi authorities have granted permission for the American citizen 
woman to depart. Until Sarah Saga departed Saudi Arabia, none of the 
women who have been granted such permission had chosen to leave.

    Question 9. Under the current policy in Saudi Arabia (as you 
understand it), do you believe that the children of female U.S. 
citizens who were abducted in violation of a custody order issued by a 
court in the United States would be provided an opportunity to leave 
the Kingdom with their U.S. citizen mother (without the permission of a 
male relative) when said mother attains the age of majority (age 18 or 
older) and expresses a desire to leave?

    Answer. The commitment of the Saudi Government to permit U.S. 
citizen women to leave the Kingdom has not extended to the children of 
these women. In Saudi Arabia, any child who is residing with his or her 
Saudi-citizen father requires that father's permission in order to 
obtain an exit visa to leave the country. This often puts women who 
wish to leave Saudi Arabia in the difficult position of deciding 
whether to leave alone, to remain in Saudi Arabia with their children, 
or to negotiate the father's agreement to permit the children to travel 
to the United States either permanently or for periodic visits.

    Question 10. Under current law, what legal status would a minor 
child who was born in Saudi Arabia to a U.S. citizen have under U.S. 
law?

    Answer. We assume that this question relates primarily to the 
citizenship status at birth of a child in the circumstances given. 
Under U.S. law, children born in Saudi Arabia are treated for 
citizenship purposes as children born in any other foreign country. If 
one of the child's U.S. citizen parents has fulfilled the appropriate 
physical presence requirement to transmit U.S. citizenship, then that 
child is an American citizen at birth. This means that for children 
born abroad after November 14, 1986, at least one U.S. citizen parent 
must generally have resided in the United States or its outlying 
possessions for a period or periods totaling not less than five years 
prior to the child's birth, at least two of which were after the age of 
fourteen.
    Since the passage of the Child Citizenship Act of 2000, which the 
Department supported, a child who does not acquire U.S. citizenship at 
birth is generally eligible to obtain U.S. citizenship while under age 
18 by either:
          (1) residing in the U.S. in the legal and physical custody of 
        a U.S. citizen parent pursuant to a lawful admission for 
        permanent residence, or
          (2) for children residing outside of the U.S. in the physical 
        and legal custody of a U.S. citizen parent, by coming to the 
        United States temporarily, for the specific purpose of being 
        naturalized as a U.S. citizen, provided the U.S. citizen parent 
        has filed an application with the Bureau of Citizenship and 
        Immigration Services of the Department of Homeland Security and 
        that application has been approved. To qualify under this 
        provision, either the U.S. citizen parent or his/her U.S. 
        citizen parent (i.e., the child's grandparent) must have been 
        physically present in the United States or its outlying 
        possessions for a period or periods totaling not less than five 
        years, at least two of which were after the age of fourteen, 
        and the child must be admitted lawfully and be maintaining such 
        lawful status.
    Certain cases may present added complexity. We will be glad to 
review individual cases to determine if and how a child born abroad to 
an American parent who does not obtain U.S. citizenship at birth might 
do so at a later time.
    And, of course, regardless of the nationality of the child of an 
American citizen, we will, always work assiduously to get that child 
back to the United States.

    Question 11. What legal status would a minor child who was born in 
Saudi Arabia to a female U.S. citizen (who was abducted in violation of 
a custody order issued by a court in the United States prior to age 14) 
have under U.S. law? If the mother does not automatically transfer 
citizenship to her child in this instance, how, under current law, can 
a child in this circumstance obtain U.S. citizenship if the mother 
wished to return to her home in the U.S. with her child?

    Answer. Under current U.S. law, a U.S. citizen parent whose spouse 
is not a U.S. citizen must generally have spent a total of 5 years in 
the United States, 2 of which were after the age of 14, prior to the 
birth of his/her child in order to transmit U.S. citizenship to a 
foreign-born child at the child's birth. Since the passage of the Child 
Citizenship Act of 2000, which the Department supported, a child who 
does not acquire U.S. citizenship at birth is generally eligible to 
obtain U.S. citizenship while under age 18 by either:
          (1) residing in the U.S. in the legal and physical custody of 
        a U.S. citizen parent pursuant to a lawful admission for 
        permanent residence, or
          (2) for children residing outside of the U.S. in the physical 
        and legal custody of a U.S. citizen parent, by coming to the 
        United States temporarily, for the specific purpose of being 
        naturalized as a U.S. citizen, provided the U.S. citizen parent 
        has filed an application with the Bureau of Citizenship and 
        Immigration Services of the Department of Homeland Security and 
        that application has been approved. To qualify under this 
        provision, either the U.S. citizen parent or his/her U.S. 
        citizen parent (i.e., the child's grandparent) must have been 
        physically present in the United States or its outlying 
        possessions for a period or periods totaling not less than five 
        years, at least two of which were after the age of fourteen, 
        and the child must be admitted lawfully and be maintaining such 
        lawful status.
    Certain cases may present added complexity. We will be glad to 
review individual cases to determine if and how a child born abroad to 
an American parent who does not obtain U.S. citizenship at birth might 
do so at a later time.

    Question 12. Under current U.S. policy, would a minor child who was 
born in Saudi Arabia to a female U.S. citizen (who was abducted in 
violation of a custody order issued by a court in the United States) be 
given help and assistance by U.S. diplomatic personnel to leave the 
Kingdom if the mother requested assistance? Is this true if the mother 
was not able to transfer U.S. citizenship to her children under U.S. 
law?

    Answer. Embassy and consulate staff lend all support possible to 
get a child of a U.S. citizen back to the U.S., regardless of that 
child's citizenship status. The commitment of the Saudi Government to 
permit U.S. citizen women to leave the Kingdom has not extended to the 
children of those women. According to our understanding of Saudi law, 
any child who is residing in Saudi Arabia with his or her Saudi-citizen 
father requires that father's permission in order to leave the country. 
This often puts women who wish to leave Saudi Arabia in the difficult 
position of deciding whether to leave alone, to remain in Saudi Arabia 
with their children, or to negotiate for the father's consent to the 
children's travel outside the country.
    Finally, children in this situation, who are not American citizens 
can become U.S. citizens through the following process, and we would 
make a point to help move that process along should the mother be 
allowed to leave Saudi Arabia.
    Since the passage of the Child Citizenship Act of 2000, which the 
Department supported, a child who does not acquire U.S. citizenship at 
birth is generally eligible to obtain U.S. citizenship while under age 
18 by either:
          (1) residing the U.S. in the legal and physical custody of a 
        U.S. citizen parent pursuant to a lawful admission for 
        permanent residence, or
          (2) for children residing outside of the U.S. in the physical 
        and legal custody of a U.S. citizen parent, by coming to the 
        United States temporarily, for the specific purpose of being 
        naturalized as a U.S. citizen provided the U.S. citizen parent 
        has filed an application with the Bureau of Citizenship and 
        Immigration Services of the Department of Homeland Security and 
        that application has been approved. To qualify under this 
        provision, either the U.S. citizen parent or his/her U.S. 
        citizen parent (i.e., the child's grandparent) must have been 
        physically present in the United States or its outlying 
        possessions for a period or periods totaling not less than five 
        years, at least two of which were after the age of fourteen, 
        and the child must be admitted lawfully and be maintaining such 
        lawful status.
    Certain cases may present added complexity. We will be glad to 
review individual cases to determine if and how a child born abroad to 
an American parent who does not obtain U.S. citizenship at birth might 
do so at a later time.

    Question 13. As you understand it, what is the position of the 
government of the Kingdom of Saudi Arabia regarding the ability of 
adult female U.S. citizens who wish to leave Saudi Arabia if they 
initially traveled to Saudi Arabia voluntarily?

    Answer. The Government of Saudi Arabia made a commitment in 
September 2002 that all adult American women would be free to travel 
out of Saudi Arabia. We understand this commitment to apply to all 
adult American women, including those who initially traveled to Saudi 
Arabia voluntarily. See question 8.

    Question 14. What is the U.S. policy regarding adult U.S. citizens 
who wish to leave Saudi Arabia if they initially traveled to Saudi 
Arabia voluntarily? In this circumstance, would a U.S. citizen receive 
assistance from U.S. diplomatic personnel to exit the Kingdom if they 
requested it? What kind of assistance would a U.S. citizen in this 
situation typically receive? Would assistance be limited to cases where 
the U.S. citizen was in potential danger?

    Answer. U.S. diplomatic personnel will assist all adult U.S. 
citizens who wish to depart Saudi Arabia in every way necessary to 
facilitate their departure. This includes interceding on their behalf 
with the Saudi government for issuance of exit permission, where 
required under Saudi law, contacting family in the U.S., granting of 
repatriation loans when needed, alerting social services in the U.S. to 
assist in their resettlement here, and necessary protection for U.S. 
citizens in danger.

    Question 15. Since June 2002 has any U.S. official demanded that 
any U.S. citizen being held in Saudi Arabia be allowed to return to the 
U.S.? If so, please specify all such demands, including to whom they 
were made, who they related to, by whom they were made, and when they 
were made.

    Answer. Privacy Act concerns limit our ability to describe in 
detail the subjects of all demands for return. However, in October 
2002, Assistant Secretary Burns raised the importance of cooperating to 
resolve abduction and wrongful retention cases with Saudi Foreign 
Minister Saud Al-Faisal. Also in October, the U.S. Consul General in 
Riyadh met with the Consular Affairs Section Chief at the Saudi 
Ministry of Foreign Affairs to urge that two American Citizen children 
being wrongfully retained in Riyadh be promptly returned to the U.S. 
The Embassy submitted a diplomatic note to the Saudi Ministry of 
Foreign Affairs requesting the Saudi government repatriate all American 
citizen children abducted to or wrongfully retained in Saudi Arabia in 
violation of a U.S. court order. Secretary Powell wrote to Foreign 
Minister Saud Al-Faisal in November 2002 to express his wish to see the 
resolution of abduction cases in Saudi Arabia. In January and in April 
2003, A/S Harty traveled to Saudi Arabia and raised the issue of 
international child abduction with Foreign Minister Saud Al-Faisal and 
with high-level officials from the Ministries of Foreign Affairs and 
Interior. Secretary Powell raised the issue of American children 
abducted to Saudi Arabia when he met with Foreign Minister Saud Al-
Faisal on May 12, 2003.

    Question 16. Since countries like Saudi Arabia consider girls 
adults for purposes of marriage at age twelve, has the State Department 
asked the Saudi government to consider girls as adults at age twelve 
for purposes of receiving exit visas without the permission of a 
husband or a father?

    Answer. The Department of State has not asked the government of 
Saudi Arabia to consider girls as adults at age twelve for the purpose 
of receiving exit visas. We are not aware of any cases where U.S. 
citizens or children of U.S. citizens in Saudi Arabia have married at 
age twelve.

    Question 17. Would additional resources from Congress enhance the 
ability of the State Department to successfully recover abducted U.S. 
citizens from other countries? If so, please specify what resources or 
authority would be helpful.

    Answer. We would never tell Congress that we don't need more 
resources. Additional staffing would allow us to be more proactive and 
responsive in handling individual cases, as case officers could 
dedicate more time to each parent. It would also allow us greater 
ability to accommodate in-service training and staff development 
without creating staffing gaps.
    Continued Congressional support and interest on specific abduction 
cases as well as the general issue of international parental child 
abduction is also extremely helpful. Members of Congress have 
personally raised cases with foreign leaders, and emphasized the 
significance that Congress and the American public place on the issue.
    Fifteen years after enactment of the International Child Abduction 
Remedies Act, we, along with other USG agencies, are interested in 
reviewing that legislation to identify ways it can be made even more 
effective. We will certainly share our thoughts and ideas on this 
matter with interested Members of Congress.

    Question 18. Based on my observations, personnel changes in the 
Office of Children's Issues are stressful and disruptive for left-
behind parents. Do you have any suggestions on how to minimize this 
problem?

    Answer. The Office of Children's Issues has grown fairly rapidly 
during the last five years, largely in response to a growing caseload 
and the increasing importance of international parental child abduction 
in U.S foreign policy. We have often had to move fast to meet the 
workload and drawn from a limited pool of personnel and temporary staff 
resources. We have also lost staff unexpectedly, when individual 
officers had to leave for reasons beyond their control.
    We very much regret the problems these unavoidable transitions have 
caused for left-behind parents and, we are happy to report, that we 
have been able to stabilize our personnel picture. We have recently 
brought on board several new long-term employees. While there will of 
course be personnel changes in the future, we are now better able to 
manage those more smoothly, with much less disruption for left-behind 
parents.

    Question 19. How many active cases involving parental child 
abduction and/or wrongful retention is the Office of Children's Issues 
currently handling?

    Answer. As of early August, the Office of Children's Issues was 
handling approximately 900 cases involving children who were abducted 
or wrongfully retained. In addition, the Office was handling 
approximately 150 access cases, some of which involve children abducted 
or wrongfully retained but whose left-behind parent is seeking access, 
rather than return. Statistics on the number of children abducted or 
wrongfully retained abroad, as well as those returned, based on records 
maintained by the Office of Children's Issues, are provided below.

 
------------------------------------------------------------------------
                      Children Abducted/
       Year           Unlawfully Retained          Children Returned
------------------------------------------------------------------------
2000              510                         146
2001              557                         280
2002              455                         190
2003 \1\          169                         102
------------------------------------------------------------------------
\1\ January-early August 2003.


    Question 20. How many active cases involving U.S. citizen children 
who have been abducted to Saudi Arabia are being handled by the Office 
of Children's Issues? For these cases, how many involve, abducted 
female U.S. citizens?

    Answer. As of August, 13, 2003, the Office Of Children's Issues is 
handling 10 cases of abduction to and wrongful retention of children in 
Saudi Arabia, of which 7 involve female children.

    Question 21. How many active cases involving adult U.S. citizens 
who were abducted to Saudi Arabia as children are currently being 
actively handled by the Office of Children's issues or other office in 
the State Department?

    Answer. We are, as of August 13, 2003, monitoring two cases, 
involving three women, of now-adult U.S. citizens who were abducted to 
Saudi Arabia as children. These citizens have been advised of their 
claims to U.S. citizenship and of their right to seek exit permission 
from the Saudi Government. One of these individuals was granted an exit 
visa by the Saudi government and the Department issued her a U.S. 
passport. She has decided not to depart Saudi Arabia at this time.

    Question 22. Approximately how many active child abduction and 
wrongful retention cases does each caseworker handle in the Office of 
Children's Issues?

    Answer. Each caseworker presently handles an average of sixty 
active abduction and wrongful retention cases.

    Question 23. Secretary Harty, do you support adding additional 
staff to the Office of Children's Issues?

    Answer.There is no doubt that increased staffing in the Office of 
Children's Issues would allow us to be more proactive and responsive to 
parents, since officers would have more time to dedicate to each case. 
It would also allow us to provide more opportunities for in-service 
training and professional development that would, ultimately, make 
officers more effective in their jobs.
    It is important to note that the Office of Children's Issues has 
grown significantly since it was established in 1994. From a small 
staff of four employees, it now has a staff of 28, including twelve 
abduction case officers who dedicate their time and energy to assisting 
left-behind parents. In addition, we are working to establish a 
prevention unit that will allow us to focus resources on this important 
function, which is now handled by abduction case officers.
    Having added new staff, our focus is now on staff development and 
training, as well as on establishing Standard Operating Procedures that 
will enhance each officer's ability to serve parents and children.

    Question 24. When and under what circumstances does the State 
Department consider a case involving an abducted U.S. citizen closed or 
inactive? Does the status of a case change when the abductee attains 
the age of majority or a custody order expires? If cases are generally 
considered closed or inactive after an abducted child attains the age 
of, 18 or 21, does the same rule apply to female abductees in Saudi 
Arabia?

    Answer. Child Abduction cases are closed in the Office of 
Children's Issues when the child turns 18 or when the Left Behind 
Parent requests the office to close the case. Cases are also closed if 
a child is returned to the United States, though in cases where the 
parent believes there is potential for re-abduction, the case is kept 
as an active prevention case. The State Department's interest in active 
cases does not end on a child's 18th birthday. Necessary efforts to 
ensure the well being of a now-adult American citizen are undertaken by 
the Office of American Citizen Services in the Bureau of Consular 
Affairs until that adult informs us that he or she does not require 
assistance.

    Question 25. Secretary Harty, you have stated that U.S. citizens 
have been recovered from Saudi Arabia since you took office. Please 
describe each case. Also, can you please describe what actions the 
State Department undertook to facilitate the release of these U.S. 
citizens including any negotiations with foreign governments, actions 
such as issuing passports, or threatening action against a foreign 
government that is not acting in accordance with appropriate laws?

    Answer. Since the beginning of the year and as of July 7, 2003, ten 
children have been returned from Saudi Arabia, closing two abduction 
and two access cases in the Office of Children's Issues. Due to Privacy 
Act considerations, we are unable to provide names or other specific 
information about these cases.
    In March 2003, a six year old child who had been abducted to Saudi 
Arabia in February 2002, was returned to the U.S. The Left Behind 
Parent had no contact with the child since her abduction. Embassy 
Riyadh located the child in February 2003 when the Taking Parent 
appeared at the embassy requesting a routine notarial service. The 
embassy took physical possession of the Taking Parent's U.S. passport 
and informed her that a federal warrant had been issued for her arrest. 
The Taking Parent arranged with the FBI and U.S. Attorney's offices to 
return the child voluntarily.
    Two teenage American citizens departed Saudi Arabia for their home 
in Phoenix, Arizona on Saturday, April 5, 2003, accompanied by a 
consular officer from Embassy Riyidh. The boys were abducted to Saudi 
Arabia by their non-custodial Saudi father on July 26, 2002. After 
learning that the boys were being neglected and that they risked being 
abused by their father, Saudi government officials issued exit visas 
for the boys without consulting the father. USG officials worked 
closely with the Saudi Ministry of Interior to resolve this case. The 
Saudi government's cooperation with the USG in this case provided 
useful precedent to help resolve remaining active abduction cases.
    In June 2003, an AmCit mother returned with her two teenage 
children who had been held by their father in Jeddah since the mother 
left the Kingdom in 1998. The children were put into boarding school in 
Durban, South Africa in 2001. In May, the American Consulate General in 
Durban substantiated physical abuse of one of the children by the 
father. The Consulate in Durban provided a letter for South African 
immigration to assist the children to depart on their American 
passports since they had entered the country on their Saudi passports.
    A Left Behind Parent notified the Office of Children's Issues on 
July 7, 2003 that her American citizen teenage sons had arrived in the 
U.S. on July 6, 2003. Until 2002, the mother had not seen either one of 
her sons since 1994 when their father refused to allow them to leave 
Saudi after a two-week vacation. The older boy was allowed to spend 
last summer with his mother, but she had not seen her younger son until 
now. The father had refused all Embassy requests for consular access to 
the boys, and the Saudi government repeatedly refused the mother's 
requests for a family visit visa. She was finally granted a visa late 
last month, after repeated requests to the Saudi government by the 
Office of Children's Issues and U.S. Embassy Riyadh. She was in the 
process of making travel plans when she learned that the boys had used 
money she sent to them to buy plane tickets to the U.S. Over the past 
year, the mother had kept in surreptitious contact with her older son, 
and the boys had renewed their U.S. passports with the assistance of 
Embassy Riyadh. The Left Behind Parent reported to the Office of 
Children's Issues that she believes the USG's constant demands for 
access led her husband to allow the boys to leave the Kingdom.
    A Taking Parent and his three children, all dual-national U.S.-
Saudi citizens, sought protection and assistance in returning to the 
United States from Embassy Riyadh. The embassy worked with Saudi 
authorities to have exit visas placed in the children's and the 
father's U.S. passports. The children were reunited with the Left 
Behind Parent in the U.S. on July 18, 2003. The Left Behind Parent 
lived in Saudi until 1998 when the Taking Parent's brother forced her 
to leave and the Taking Parent divorced her. The Taking Parent's 
brother confiscated all travel documents for the Taking Parent and the 
children. Consular access to the children had been denied since 1999.

    Question 26. In September 2002, Prince Saud al-Faisal, the Saudi 
Foreign Minister, wrote to Secretary Powell and suggested that in four 
cases, U.S. citizens had abducted children out of Saudi Arabia in 
violation of Saudi law. It is now clear that in at least two of the 
referenced cases, the referenced children live in Saudi Arabia, and are 
not able to leave to the United States. Prince Saud also falsely 
accused the U.S. military of assisting Miriam Hernandez Davis in 
``abducting'' her daughter Dria from Saudi Arabia. Has Prince Saud or 
any other Saudi official provided any correction or clarification to 
the September 17, 2002 letter? Has the State Department requested any 
clarification on this letter?

    Answer. We have not received a clarification or correction of the 
September 17, 2002 letter from Foreign Minister Saud al-Faisal, nor 
have we requested such clarification.

    Question 27. Has the Saudi government demanded that any of its 
citizens who have kidnapped Americans return the kidnapping victims to 
the U.S.?

    Answer. To the best of our knowledge, the government of Saudi 
Arabia has never ordered a parent to return American citizen children 
abducted to or wrongfully retained in the Kingdom, except in the case 
of clear neglect or abuse. The government has, however, pressured Saudi 
families to find a way to resolve cases of wrongful retention or abuse. 
In cases involving sexual or physical child abuse, the Saudi government 
has pressured Saudi fathers to allow mothers to depart the Kingdom with 
their children. In April, responding to the USG's insistent requests 
for intervention in the case of two abducted American citizen children, 
the Saudi government granted them exit visas to return to their mother 
in Arizona. The boys had been victims of abuse and neglect at the hands 
of their Saudi father.

    Question 28. In 1990, the U.S. Embassy in Riyadh ejected Monica 
Stowers and her children out of the Embassy when they came seeking 
refuge from her abusive husband. Since that time Monica and her 
children have spent years living under difficult conditions in Saudi 
Arabia.
    However, last year Ambassador Jordan pledged that no American 
seeking refuge in the Embassy would be ever be thrown out again.
    Recently, the State Department began urging Americans in Saudi 
Arabia to consider leaving the country because conditions in the 
Kingdom are not considered safe for Americans.
    Therefore, assume hypothetically that there is an American woman 
who is living in Saudi Arabia with her American children, and that she 
and her children are being abused by their Saudi husband, and that the 
woman wishes to leave Saudi Arabia with her children, but her Saudi 
husband will not give his consent to do so. Could the American woman 
bring her children to the Embassy and receive refuge in the Embassy 
until she was to leave, Saudi Arabia?
    Can you guarantee that an American woman in these circumstances 
would not be removed from the Embassy like Monica Stowers?

    Answer. Not only can we guarantee that a woman and her children in 
such circumstances would receive appropriate protection, we can 
demonstrate that American citizens facing similar situations are now 
receiving needed protection in our Embassies and Consulates. Through 
mid-July of 2003, 5 American women, 1 American man and 10 children, 
mostly fleeing abusive family situations, have sought protection at the 
U.S. Embassy and consulates in Saudi Arabia. Several more are in 
contact with the Embassy or Consulate and know that refuge is an 
option, if needed. In a separate case a man and three children have 
also sought protection. While at the Embassy, the Americans are 
provided food at no cost to themselves, essential items and services, 
such as laundry, and whatever entertainment and comforts are available, 
such as DVD facilities. It is made clear that they are welcome to stay 
at the Embassy or compound as long as necessary to ensure their safety 
or until their repatriation to the United States.

    Question 29. Secretary Harty, under what circumstances have you 
interacted with parents of abducted children? Please explain.

    Answer. Shortly after I became Assistant Secretary of State for 
Consular Affairs, I wrote to all of the left-behind parents in our 
active case files. In that letter, I confirmed the importance of 
resolving parental child abduction cases as a U.S. foreign policy 
interest, and invited the parents to meet with me. On February 24, 
2003, I met with sixty-four left-behind parents at a Town Hall meeting 
in Washington, DC. I met with left-behind parents again in Chicago on 
July 28, 2003. I plan a similar meeting later this year on the west 
coast. In addition to those meetings, I have met with a number of 
individual parents to discuss their cases. My travel to the Middle East 
since becoming Assistant Secretary of State afforded me the opportunity 
to meet with abducted and retained children and report back to their 
left-behind parents. In one case, I had the privilege of actually 
meeting with a left-behind mother who had come to the Middle East to 
try to recover her children (she succeeded). Finally, even when events 
direct my attention elsewhere, the Office of Children's Issues keeps me 
fully briefed to the status of the many active cases, and gets me 
involved whenever necessary.

    Question 30. Please indicate the dates Sara Saga resided with her 
children at the U.S. consulate in Jeddah. During her stay did the State 
Department provide Ms. Saga and her two children with food, liquids and 
other essential items? Did the State Department request payment for 
items provided to Ms. Saga and her children from Ms. Saga or anyone 
else? If so please explain. Also, please attach any documents or 
communications (including emails) from the State Department requesting 
payment.

    Answer. Sara Saga and her two children occupied the modest quarters 
of the Consulate's staff apartment from June 16 to 23, 2003. Ms. Saga 
and her children were provided with all essential items, including 
laundry service as well as nonessential items that were available to 
make her stay more comfortable, e.g. DVD player and DVDs, books, access 
to internet, and some children's toys. At the time of Ms. Saga's 
arrival, a funding mechanism was not in place to provide essentials to 
Americans without financial means who seek refuge on the Consulate 
compound. Others who have sought refuge on the Consulate compound prior 
to Ms. Saga arrived with either sufficient funds to cover any essential 
items or family members in the U.S. opened an Overseas Citizens 
Services (OCS) Trust with the State Department. This, is standard 
procedure when an American is in need of financial assistance and 
family members are able and willing to help. In the case of Ms. Saga, 
the consulate requested that her mother open an OCS Trust, and she 
agreed. Ms. Saga used OCS Trust funds for the first three days of her 
stay. Within days, a funding mechanism was provided by the Department, 
Sara was reimbursed for her expenses, and subsequent expenses were paid 
by the Department. Documents regarding payment requests are enclosed.

    Question 31. After Sara Saga requested assistance from U.S. 
officials at the consulate in Jeddah, please list the highest ranking 
State Department official who communicated the U.S. government's 
position to Saudi officials regarding Ms. Saga's request for assistance 
in leaving the Kingdom with her children. Please articulate the message 
the U.S. government delivered and to whom in the Saudi government it 
was delivered?

    Answer. Margaret Scobey, Charge d'Affaires, a.i., met with His 
Royal Highness, Prince Saud Al Faisal, Minister of Foreign Affairs, on 
June 18, 2003. Ms. Scobey urged that the government of Saudi Arabia 
approve the departure of Ms. Saga and her two children, pointing out 
that Ms. Saga had been abducted to Saudi Arabia as a small child and 
that she desired to be reunited, with her children, with her own 
mother. The Foreign Minister approved Ms. Saga's departure immediately, 
keeping his commitment that any adult American citizen woman may leave 
the Kingdom freely. He maintained that the children (who were born and 
have lived their entire lives in Saudi Arabia, and are citizens of that 
country) could depart if they did so legally, which would require 
either a court order or the agreement of their father. Although Ms. 
Saga could have departed Saudi Arabia without his permission, her 
husband did agree that she could enter and depart the Kingdom at her 
own initiative for the five-year validity of her Saudi passport. Ms. 
Saga departed Saudi Arabia on June 24, 2003.

    Question 32. According to press reports, Ms. Saga, while in the 
U.S. consulate, met with officials from the Saudi Foreign Ministry. 
What were the names of these men and what were their official positions 
within the Saudi government? What were the names of the officials from 
the U.S. consulate in Jeddah., who accompanied these Saudi officials 
into Ms. Saga's room at the consulate? Who, specifically, was involved 
in the decision to allow the Saudi officials into the consulate to meet 
with Ms. Saga?

    Answer. On June 19 at the Consulate, Sara Saga met with Abdulaziz 
H. Al-Sowayegh, Director Genera,l of the Makkah Region, Ministry of 
Foreign Affairs; Bander Jameel, Chief of Protocol of the Makkah Region, 
Ministry of Foreign Affairs, and Majed M. Al-Harazy, Special Assistant 
to the Director General of the Makkah Region, Ministry of Foreign 
Affairs. From the U.S. Consulate, in attendance were Gina Abercrombie-
Winstanley, Consul General; Laurie Darlow, Security Officer; and Loren 
Mealey, Chief of American Citizen Services.
    Ms. Saga, also a Saudi citizen, was requested by officials of the 
Ministry of Foreign Affairs to have a brief meeting with officials 
prior to her departure from the Kingdom, so that they could hear from 
her directly as to her wishes. Rather than take Ms. Saga off the 
Consulate grounds for the meeting, the Charge in Riyadh asked the 
Consul General to ask the Saudi officials to meet with Ms. Saga on 
Consulate grounds. They agreed, and Sara was agreeable to the meeting.
    Although the meeting was arranged on short notice, Sara knew well 
in advance that the visit was going to take place that day. The meeting 
was in her room because that was where she and the children were at the 
time. U.S. Consulate officials, three women, were there to ensure that 
she was not intimidated or coerced and so she would not feel her 
children might be taken from her forcefully. Consulate officials 
stressed to Sara that it was her choice whether to meet with the 
foreign ministry officials at all and that she could stay on the 
compound.

    Question 33. Did any State Department or other U.S. government 
employee read or review the document that various press accounts report 
that Ms. Saga signed regarding her parental rights? If so, please name 
all such individuals. If so, did those U.S. officials provide any 
advice to Ms. Saga or recommend that she seek counsel before signing a 
document that could possibly be construed as a legally binding 
document?

    Answer. At the conclusion of the meeting described above, the 
Director General of the Ministry of Foreign Affairs presented Ms. Saga 
with a document. He asked her to sign it so that the Ministry had a 
record of her understanding of the implications of her decision to 
depart the Kingdom. The Consul General asked to review the document. 
The Consul General (``CG'') read the document to Ms. Saga slowly, 
stressing that she did not have to sign it. Ms. Saga was then given the 
document to read. The CG asked if she understood the document's 
contents. Ms. Saga said that she understood it, and that she was 
willing to sign it. The CG offered that she could make any additions or 
deletions that she felt did not accurately describe the meeting. Ms. 
Saga responded that she had no changes to make, and signed the 
document.
    CG and an American Citizen's Services (``ACS'') Officer suggested 
to Ms. Saga and her family members present at the Consulate (an aunt 
and uncle who Ms. Saga invited to see her on the Consulate grounds and 
who were supportive of Ms. Saga's desire to travel to the U.S.) that 
she may wish to consult with an attorney. A list of local attorneys was 
provided to Ms. Saga. Ms. Saga did not retain an attorney or ask the 
Consulate staff to contact an attorney for her.
    Ms. Saga later told the ACS Officer that her uncle advised her to 
seek a written agreement with her husband directly. At Ms. Saga's 
request, her husband wrote out and signed in front of an official of 
the Ministry of Foreign Affairs a document stating his agreement to Ms. 
Saga's future access to the children whenever she is in the Kingdom.

    Question 34. According to reports, Ms. Saga signed a document that 
forfeited many of her parental rights to her children. Does the State 
Department feel that the agreement was valid? Also, does the State 
Department feel that it was proper to allow Saudi officials to meet 
with her and encourage her to sign the agreement?

    Answer. The Department of State does not know what legal effect, if 
any, the document described above may have in Saudi Arabia or anywhere 
else. Our Consulate personnel, who are not lawyers, did their best to 
inform Ms. Saga that she did not have to sign that document and that 
she could add or delete anything in it. Ms. Saga chose to sign it. In 
later consultations with post, the Department drafted a second document 
for Ms. Saga to sign that clarified that she had not intended to 
relinquish her rights to her children. U.S. Consulate personnel 
delivered this document to the MFA.
    We do believe that arranging a meeting between Ms. Saga and Saudi 
officials was proper. Ms. Saga and her children are Saudi citizens, and 
we recognize that the Saudi government believed it had an obligation to 
ensure that Ms. Saga was not being coerced into leaving Saudi Arabia 
and to attend to the interests of her children. Our consulate personnel 
did not pressure or encourage Ms. Saga to sign anything that she did 
not wish to sign and did their best to arrange a setting for the 
meeting that was comfortable and non-threatening.

    Question 35. Please indicate the dates another U.S. citizen resided 
with her children at the U.S. consulate in Jeddah during the same time 
period. During her stay at the consulate, did the State Department 
provide her and her children with food, liquids, and other essential 
items? Did the State Department request payment for items provided to 
her and her children from her or anyone else? If so, please explain. 
Also attach any documents (including emails) from the State Department 
requesting payment.

    Answer. An American citizen woman and her three Saudi-American 
children sought refuge at the Consulate from June 2 through June 17. As 
is the procedure in cases of Americans in need of financial assistance, 
an OCS Trust fund with the State Department was established by the 
parents of the American woman to cover the cost of meals. Procedures 
are now in place so that Americans granted refuge will normally not 
have to pay for basic necessities. Documents regarding payment are 
enclosed.

    Question 36. After this American citizen requested assistance from 
U.S. officials at the consulate, who communicated the U.S. government's 
position to Saudi officials regarding her request for assistance in the 
leaving the Kingdom with her children? Please articulate the message 
the U.S. government delivered and to whom in the Saudi government it 
was delivered.

    Answer. In Jeddah, Consul General Gina Abercrombie-Winstanley 
called on Abdulaziz H. Al-Sowayegh, Director General of the Makkah 
Region, Ministry of Foreign Affairs. In Riyadh, Charge Margaret Scobey 
called on the Assistant Minister of the Interior, Muhammad bin Nayif. 
Also present was the Deputy Minister of the Interior, Dr. Ahmad Al-
Salim.

    Question 37. Does the United States government request payment from 
a foreign government or anyone else for food and other items provided 
to Saudi Arabian nationals being detained by the United States at 
Guantanamo Bay Cuba? Please explain.

    Answer. No foreign governments are permitted to pay for food or 
other items provided to their nationals detained by the United States 
at Guantanamo Bay, Cuba.

    Question 38. In late April or early May 2003, State Department 
personnel informed Margaret McClain that the Saudi Embassy 
spokesperson, Adel Al-Jubeir, volunteered to pay for her two adult 
children and her to travel to Saudi Arabia to meet with Heidi. Do you 
know who initiated Al-Jubeir's offer? Did the State Department suggest 
that Al-Jubeir make such an offer?

    Answer. At Ms. McClain's request, the Office of Children's Issues 
queried the Saudi Embassy about the possibility of Saudi funding for 
Ms. McClain and her adult children to travel to Saudi Arabia. It is our 
understanding from the Saudi Embassy in Washington that no Saudi 
government fund exists to pay for such travel; nonetheless, the 
Department is aware that the Saudi Embassy will attempt to find a 
private sponsor or benefactor for persons who request such funding and 
demonstrate financial need.

    Question 39. Secretary Harty, please explain why you decided to 
meet personally with Mr. Al-Omary prior to Ms. McClain's recent trip to 
the Kingdom instead of communicating directly with high level Saudi 
government officials to ensure Ms. McClain would have access to her 
daughter during her most recent visit?

    Answer. I feel that every chance for dialogue that might result in 
an abducted child's maintaining a relationship with a Left Behind 
Parent is worth pursuing. In each meeting we have had with Mr. Al-
Omary, he has gradually developed a less adversarial role with us. It 
has been our feeling that if Mr. Al-Omary felt that his side of the 
story was being listened to, even if disagreed with, the chances for 
progress in this case would increase. I met with Mr. Al-Omary in order 
to attempt to convince him that allowing Ms. McClain to have a 
meaningful visit with Heidi was in the best interest of the child. The 
Office of Children's Issues and our embassy in Riyadh also worked 
closely with the Saudi interministerial commission to ensure Ms. 
McClain's visit.

    Question 40. Are you concerned that meeting personally with a child 
abductor you could unnecessarily elevate his stature with Saudi 
government officials? If not, please explain.

    Answer. Every chance for dialogue that might result in an abducted 
child's maintaining a relationship with a Left Behind Parent and which 
may lead to our ultimate goal, the return of that child to the United 
States, is worth pursuing.

    Question 41. Why did Ms. McClain have to personally negotiate the 
terms of her visit with Heidi upon her arrival in Saudi Arabia? In the 
future, will you insist that the terms of visitation between left-
behind parents and child abductors for which arrest warrants have been 
issued be negotiated between government officials if the left-behind 
parent makes that request?

    Answer. It was the Department's understanding prior to Mrs. 
McClain's departure for Saudi Arabia that the Saudi interministerial 
commission had negotiated the visit parameters with Mr. Al-Omary, and 
that Mr. Al-Omary had agreed to allow Mrs. McClain to see Heidi. 
However, Mr. Al-Omary apparently at the last minute insisted on a 
meeting at the office of the governor of the Eastern Province on the 
day of Mrs. McClain's arrival as a condition of allowing the visits to 
Heidi. Present at the meeting were Mr. Al-Omary, Mrs. McClain and her 
adult children, USG officials from the Embassy in Riyadh and the 
Consulate in Dhahran, as well as Saudi government officials.

    Question 42. Did U.S. diplomatic personnel agree to allow the 
meeting with Ms. McClain, Mr. Al-Omary and Saudi officials to discuss 
the terms of visitation between Ms. McClain and Heidi to be videotaped? 
Who proposed that this meeting be videotaped?

    Answer. The Deputy Chief of Mission to Saudi Arabia, Margaret 
Scobey, objected strongly when Mr. Al-Omary stated that he wished to 
record the meeting at the governor's office, and the camera was 
removed. USG officials had no prior knowledge of the video camera in 
the conference room.

    Question 43. In April and June of 2003, Ms. McClain presented her 
case to the United Nations Human Rights Commission in Geneva. When the 
legal Counsel for Ms. McClain and other victims of kidnapping presented 
their cases before the Working Group on Contemporary Forms of Slavery 
between June 16-20, 2003, in Geneva, they met privately with two Saudi 
delegates to Geneva. The Saudi representatives stated that there 
existed a ``bilateral protocol'' between the United States and Saudi 
Arabia on solving cases like Heidi Al-Omary's. The Saudi officials 
claimed that they had ratified the agreement and that it was now 
awaiting ratification by the United States government. Does such a 
protocol or framework exist? If so, please explain and attach a copy of 
the protocol and/or agreement.

    Answer. We are currently working with the Saudis on a bilateral 
proposal on access by parents to American Citizen children in Saudi 
Arabia, based on common principles and consular responsibilities. The 
proposal does not address resolving of cases of abduction; instead, it 
provides a framework in which both governments can operate to ensure 
that Left Behind Parents have meaningful access to their children. The 
document is currently in draft form and has not yet been finalized.

    Question 44. As the State Department has discussed any agreements 
or other arrangements with Saudi Arabia regarding the resolution of 
child abduction cases, have you consulted with left-behind parents 
about how the agreement or framework should be crafted? Please explain.

    Answer. Please see the answer to question 43 above, We are 
currently working with the Saudis on a bilateral proposal on access by 
parents to American Citizen children in Saudi Arabia. The proposal, 
which is still in draft form, does not address resolving of cases of 
abduction. The Office of Children's Issues maintains an open dialogue 
with all the left-behind parent's with whom we have active cases; 
however, until agreements or other mechanisms for resolving cases are 
finalized, we do not discuss them with left-behind parents.

    Question 45. Are you familiar with a document referred to as 
``Solomon's Protocol?'' If so, please explain. Also, please explain if 
the State Department participated in drafting this document.

    Answer. ``Solomon's Protocol'' is a document written by a left-
behind parent. We are aware of the document, which we understand was 
prepared under a contractual arrangement for the National Center for 
Missing and Exploited Children. It has not yet, to our knowledge, been 
published. At an early stage, we were asked to review the document and 
provide comments. We do not know if those comments were incorporated, 
or what the current status of the document is.

    Question 46. On Ms. McClain's last day in Saudi Arabia during her 
visit in May, Secretary Powell raised Heidi Al-Omary's case with Saudi 
officials. To whom did Secretary Powell speak regarding this case? Has 
the Saudi government provided any response to this meeting? Please 
explain.

    Answer. Secretary Powell met with Foreign Minister Saud al-Faisal 
in Riyadh on May 12, 2003, to raise the issue of child abductions to 
Saudi Arabia, including Heidi Al-Omary. Unfortunately, the Secretary's 
meetings with the foreign minister were cut short by the tragic 
bombings that occurred in Riyadh the same day.

    Question 47. What does the Department of State do to try to prevent 
international parental child abductions?

    Answer. Country officers in the Abduction Unit spend a significant 
amount of time helping parents prevent the abduction of their children 
by the other parent. In fact, the volume of requests for such 
assistance has increased to the point where the Abduction Unit is 
forming a team focused solely on prevention. Parents who request 
prevention assistance are guided to a wide range of legal remedies and 
options, contacts with law enforcement, and other sources of 
information and assistance. If the case is urgent, such as an 
abduction-in-progress, country officers or after-hours Department duty 
officers will help the parent contact local and Federal law 
enforcement, as well as other authorities who may be able to help 
recover the child. Regardless of whether the case is urgent or not, 
country officers will continue to advise and assist the parents until 
abduction is no longer a threat or until the parents no longer seek our 
guidance.
    One of the most effective prevention measures we can recommend to 
parents is the Children's Passport Issuance Alert Program (CPIAP), by 
which a parent can request that their U.S. citizens' children's name be 
placed in a worldwide lookout system. Over 25,000 children's names are 
presently listed in the CPIAP database and the Abduction Unit receives 
approximately 40-50 new requests for entries every week. CPIAP entries 
have helped us identify children for whom passports were applied 
without the knowledge of one parent and, on occasion has actually 
helped us locate and recover abducted children. CPIAP does not identify 
applications for foreign passports; the Abduction Unit refers parents 
whose children might be eligible for foreign passports to the 
appropriate foreign agency.
    The ``Amber Alert'' law, which includes a provision making 
attempted international parental child abduction a federal crime, will 
significantly enhance our ability to prevent abductions, as well.

    Question 48. If an American child is determined to be at risk of 
being abducted to countries such as Saudi Arabia and Syria, countries 
that refuse to return abducted American children, what safeguards would 
you recommend that a U.S. Family Law Court implement to help prevent an 
abduction?

    Answer. State Department personnel are prohibited from discussing 
cases with judges or other court officials. Any conversations we have 
about a child custody case would be with the parents and/or their 
attorneys. In any custody case where a parent was concerned about an 
abduction, we would likely recommend that the parent seek appropriate 
custody and other orders to restrain the travel of the child. If the 
case involved a dual national child, we would likely recommend that a 
copy of the subsequent court order be sent to the appropriate foreign 
embassy, though we would caution that passport issuances by that 
embassy are governed by the laws of its own government. We would also 
recommend that a copy of the court order be sent to airline companies 
which service the possible destination country. Finally, and 
irrespective of any court activity, we would strongly recommend to any 
parents fearing abduction of their U.S. citizen children that they 
enter their children's names in the Children's Passport Issuance Alert 
Program (CPIAP).

    Question 49. What more can the State Department do with regard to 
improving the dissemination of information and training programs for 
U.S. Family Law courts and individual State Bar Associations on this 
issue (e.g., through the National Council for Juvenile and Family Law 
Judges, American Bar Association, etc.?).

    Answer. We agree that additional outreach and training for U.S. 
judges is important to U.S. Government efforts to address the problem 
of international parental child abduction. Working with other U.S. 
Government agencies as well as judicial and legal associations, we 
participate in training programs on a regular basis, and will continue 
to do so. We also provide informational materials to judges and 
attorneys through our Web site, and will be exploring ways to make 
these materials more useful.

    Question 50. Do you think it is appropriate to advise an American 
parent concerned about the abduction of his/her children to an Islamic 
Law country to go through the time, energy and money to try to obtain a 
Mirror Order in that country? It is my understanding that is what staff 
members of the Office of Children's Issues have advised some parents.

    Answer. Our advice in this regard would depend on the particular 
case. There are circumstances in which such an order could help provide 
legal grounds for the return of a child.

    Question 51. What can the Department of State do to assist parents 
in giving official notice to foreign embassies in a case where a U.S. 
court has prohibited issuance of a passport to a child the court 
believes is at risk of abduction? Is the Department of State willing to 
submit a Diplomatic Note in each case?

    Answer. When requested, the Department assists parents in 
contacting foreign embassies about these matters. We typically 
recommend that parents contact the appropriate foreign embassy directly 
to convey information and documentation about such a case and, when 
necessary, we have contacted the foreign embassy to facilitate parental 
contact. Passport issuances by a foreign embassy are guided by the laws 
of that embassy's government, so a U.S. court order cannot be enforced 
on a foreign embassy. That said, the Department believes foreign 
embassies should be aware of U.S. court orders concerning passport 
issuances to minor children and consider such orders in deciding 
whether a passport should be issued.

    Question 52. What can the U.S. Government do about a foreign 
embassy or diplomat that issues a passport for a dual-national American 
child, who is later abducted; if evidence is presented that a parent, 
attorney, or U.S. court provided that embassy with court orders 
prohibiting issuance of a passport for that child?

    Answer. Issuance of passports by a foreign embassy is guided by the 
laws of that embassy's government. The issuance of forei,gn passports 
is not governed by U.S. law. While the United States Government can 
help parents and local authorities inform foreign embassies of court 
orders related to a passport application, the U.S. Government has no 
authority to prevent a foreign government from issuing a passport to 
one of its citizens, even a dual national.

    Question 53. Please provide a list of cases where a parent has 
submitted court orders to the Department of State because they fear 
that their child may be internationally abducted. Include cause number, 
parties' names; court, county and state; foreign country involved and 
indicate whether supervised visitation was ordered or whether the child 
was abduction (if abducted, date of abduction and age of child).

    Answer. The Department of State does not have that kind of 
information readily available for the more than 26,000 entries in the 
Children's Passport Alert Program (CPIAP) and active parental child 
abduction case files. Court orders are not required and, in fact, 
rarely submitted for a CPIAP entry to be made, but become relevant at 
such time as a passport application is submitted on behalf of the 
child. Court orders are also not required for an active abduction case 
to be established with the Abduction Unit.

    Question 54. I understand the Department of State has included 
information on ``Marriage to Saudis'' on its Web site. What other ways 
do you believe the Department of State can help advise American women 
prior to marrying a national of an Islamic Law country about the impact 
on their and their children's lives, e.g., that their children will be 
considered nationals of that country subject to their laws, and that 
American women and children can be restricted from exiting. (For 
example, provide them a fact sheet when they apply for a Fiancee 
Visa?).

    Answer. The Department believes that this type of information is 
very important, regardless of the country involved, and already 
provides considerable information to American citizens about travel, 
citizenship, and abduction issues. In addition to the ``Marriage to 
Saudis'' flyer, the Department's Consular Affairs Web site provides 
specific guidance on child abduction issues for many countries, 
including Saudi Arabia and others where Islamic Law serves as the basis 
for family law. Country-specific Consular Information Sheets also 
provide much of this information. Information relating to dual 
nationality is included in all U.S. passports. Marriages of U.S. women 
to Saudi nationals most often occur after the Saudi national has a 
valid U.S. visa, so a fiance visa is not necessary.

    Question 55. Has Department of State staff or contractor provided 
expert testimony in court cases regarding international parental child 
abduction? If so, please provide a list of all cases, with cause 
number, parties' names; court, county and state; foreign country 
involved; Department employee or contractor who testified; and dates of 
testimony.

    Answer. Department staff and contractors have not provided such 
testimony.

    Question 56. Has Department of State staff or contractors made 
public presentations regarding international parental child abduction? 
If so, please provide a list including name of presentation, contact 
information for sponsoring organization, date, and name(s) of 
Department employee/contractor(s) who presented.

    Answer. Department of State representatives, including employees in 
the Office of Children's Issues, often speak publicly as part of our 
outreach efforts. This includes presentations at meetings and 
conferences held by bar associations; judicial training programs; and 
Town Hall meetings for left-behind parents. We believe such outreach to 
be an important function in our efforts to increase awareness of the 
issue of international parental child abduction, and inform the public 
of the resources available in combating the problem.

    Question 57. Have any children been returned from Saudi Arabia, 
Syria, and other Islamic Law countries through legal means (not those 
arranged privately by the parents)? Please provide specifics on those 
cases.

    Answer. During the past twelve months, approximately thirty-five 
children have been returned from countries in which Islamic Law 
predominates, including Saudi Arabia, Jordan, Egypt, Lebanon, the West 
Bank, and Indonesia. The circumstances leading to the return of these 
children included law enforcement efforts (arrest in the U.S. of the 
abducting parent), U.S. Embassy intercession to facilitate the return 
of the children, action by the left-behind parent to bring the children 
back without the abducting parent's consent and, in one case involving 
two children, direct assistance from the host government when there was 
credible evidence of neglect by the abducting parent. Most of the cases 
involved some form of Department assistance in facilitating the return, 
including one or more of the following; temporary Embassy refuge, 
escort, travel documentation, and access to USG crime victim 
assistance.

    Question 58. Is the case of Amjad Radwan (daughter of U.S. citizen 
Monica Stowers) considered active or inactive by the Department of 
State? Please explain.

    Answer. Amjad Radwan's case is an active case handled by our Office 
of American Citizens Services and Crisis Management. The government of 
Saudi Arabia issued Ms. Radwan an exit visa in the summer of 2002, but 
she chose not to travel to the United States. We stand ready to offer 
any and all consular services to her, as we would to any other American 
abroad who requests them.

    Question 59. Are the cases of Aisha and Alia Gheshayan (Pat Roush's 
daughters) considered active or inactive by the Department of State? 
Please explain.

    Answer. The Department of State will continue to urge the Gheshayan 
women to meet with their mother in the U.S. In a meeting with the women 
in August 2002, a female consular officer noted to the sisters that the 
United States government considers them American citizens and therefore 
has an ongoing interest in their welfare and wishes. She reiterated 
that as U.S. citizens, the sisters were entitled to seek assistance and 
protection at any U.S. mission should they require it. Aisha and Alia 
Gheshayan stated clearly to the consular officer that they are happy 
with their lives in Saudi Arabia, do not wish to come to the United 
States at this time, and that they do not want to meet with their 
mother, Pat Roush. We stand ready to offer any and all consular 
services to the sisters, as we would to any other American abroad who 
request them.

    Question 60. In Calendar Year 2002 and Calendar Year 2003 (to 
date), how many Saudi nationals applied for U.S. visas in Saudi Arabia? 
How many visas were issued? How many were refused? Please provide a 
month-by-month breakdown.
    Answer:

                      Non-immigrant Visas Issued to Saudi Nationals in Saudi Arabia FY-2002
----------------------------------------------------------------------------------------------------------------
                                                                                                     Refusals
                          Jeddah                              Issued      Refused        Total       Overcome
----------------------------------------------------------------------------------------------------------------
October                                                            728           30          758              13
November                                                            65           61          126              13
December                                                           299           98          397              79
January                                                            431           62          493              54
February                                                           188           55          243              32
March                                                              384           84          468              32
April                                                              560          121          681              48
May                                                                565          171          736              97
June                                                               787          237        1,024             120
July                                                               483          445          928             279
August                                                             246          190          436              88
September                                                          225          181          406              74
----------------------------------------------------------------------------------------------------------------
  Grand Total                                                    4,961        1,735        6,696             929
----------------------------------------------------------------------------------------------------------------


 
----------------------------------------------------------------------------------------------------------------
                                                                                                     Refusals
                          Riyadh                              Issued      Refused        Total       Overcome
----------------------------------------------------------------------------------------------------------------
October                                                            335           82          417              60
November                                                           176          104          280              47
December                                                           499          223          722             149
January                                                            686          227          913             185
February                                                           336          168          504             175
March                                                              608          488        1,096             313
April                                                              815          691        1,506             328
May                                                              1,278        1,129        2,407             714
June                                                             1,255        1,163        2,418           1,021
July                                                               982          706        1,688             912
August                                                             465          502          967             140
September                                                          357          177          534             126
----------------------------------------------------------------------------------------------------------------
  Grand Total                                                    7,792        5,660       13,452           4,170
----------------------------------------------------------------------------------------------------------------



                    Non-immigrant Visas Issued to Saudi Nationals in Saudi Arabia FY-2003 \1\
----------------------------------------------------------------------------------------------------------------
                                                                                                     Refusals
                          Jeddah                              Issued      Refused        Total       Overcome
----------------------------------------------------------------------------------------------------------------
October                                                            239          377          616              96
November                                                           203          244          447             144
December                                                           201          160          361             109
January                                                            243          250          493             147
February                                                           153          113          266             107
March                                                              176          167          343             141
April                                                              236          177          413             113
May                                                                357          268          625             202
June                                                               569          515        1,084             354
----------------------------------------------------------------------------------------------------------------
  Grand Total                                                    2,377        2,271        4,648           1,413
----------------------------------------------------------------------------------------------------------------



 
----------------------------------------------------------------------------------------------------------------
                                                                                                     Refusals
                          Riyadh                              Issued      Refused        Total       Overcome
----------------------------------------------------------------------------------------------------------------
October                                                            663          179          842             264
November                                                           464          169          633             202
December                                                           317          181          498             156
January                                                            441          180          621             160
February                                                           315          267          582             137
March                                                              373          473          846             153
April                                                              484          260          744             194
May                                                                414          252          666             179
June                                                               772          581        1,353             369
----------------------------------------------------------------------------------------------------------------
  Grand Total                                                    4,243        2,542        6,785           1,814
 
----------------------------------------------------------------------------------------------------------------
\1\ First nine months of fiscal year.

                                   - 

</pre></body></html>
